APPENDIX

ia
TABLE OF CONTENTS
Appendix A – 5th Circuit Opinion (5th Cir.
Mar. 19, 2019) ........................................................ 1a
Appendix B – Memorandum Opinion and
Order Denying Defendant’s Renewed Motion
for Judgment as a Matter of Law, Motion for
Reconsideration, and Motion for a New Trial
(ECF No. 600) (N.D. Tex. June 26, 2017)............ 34a
Appendix C – Findings of Fact and
Conclusions of Law as to the ERISA Claims
(ECF No. 601) (N.D. Tex. June 26, 2017)............ 49a
Appendix D – Order Denying Petition for
Rehearing and Rehearing En Banc (5th Cir.
Apr. 16, 2019) ....................................................... 57a
Appendix E –Judgment (5th Cir. Mar. 19,
2019) ..................................................................... 59a
Appendix F – Final Judgment (ECF No.
602) (N.D. Tex. June 26, 2017) ............................ 61a
Appendix G – Order Deciding Motion to
Correct Judgment and Motion to Reconsider,
and in the Alternative, Motion to Certify
Controlling Question of Law for Immediate
Appeal (ECF No. 424) (N.D. Tex. Apr. 29,
2014) ..................................................................... 64a
Appendix H – Order Deciding Three
Pending Motions for Summary Judgment, a
Motion to Strike Evidence, a Motion In
Limine, a Motion for Summary Judgment on
Three Tort Claims, and a Motion to Exclude
Testimony (ECF No. 413) (N.D. Tex. Sept.
17, 2013) ............................................................... 93a

1a
APPENDIX A
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT
________________
No. 17-10736
________________

ENCOMPASS
INCORPORATED,

OFFICE

United States Court of
Appeals
Fifth Circuit

FILED
March 19, 2019
Lyle W. Cayce
Clerk

SOLUTIONS,

Plaintiff – Appellee,
v.
LOUISIANA HEALTH SERVICE &
INDEMNITY COMPANY, doing business
as BlueCross BlueShield of Louisiana,
Defendant – Appellant.
________________
Appeal from the United States District Court
for the Northern District of Texas
________________
Before JONES, BARKSDALE, and WILLETT,
Circuit Judges.
DON R. WILLETT, Circuit Judge:
Encompass Office Solutions, Inc. provided
equipment and staffing for doctors to perform
surgery in their own offices. Doctors and patients
took to this service; insurers did not. Blue Cross
and Blue Shield of Louisiana (BCBSLA) began
denying Encompass’s claims for in-office surgery
support. BCBSLA instead paid a “Global Fee” to

2a
the doctor who performed the surgery,
compensation for all related services.

as

Encompass
sued
BCBSLA
for
ERISA
violations, breach of contract, defamation, and
tortious interference with business relations.
BCBSLA largely prevailed at trial. But the district
court granted a new trial because of error in the
jury charge. At the second trial, Encompass won
on all claims and obtained a judgment in its favor.
On appeal BCBSLA says that the new trial should
never have been granted, that no reasonable jury
could have answered the contra non valentem
(discovery rule) issue in favor of Encompass, and
that BCBSLA did not abuse its discretion in
denying Encompass’s claims.
We AFFIRM the judgment of the district court.
I. BACKGROUND
A. Factual
Encompass provided the equipment, drugs,
supplies, and nursing staff necessary for a doctor
to perform outpatient surgery in his own office,
rather than in a hospital or ambulatory surgical
center (ASC). This was a novel arrangement—at
the time, neither Texas nor Louisiana licensed
such mobile providers of ambulatory surgical care.
Generally, when a doctor performs surgery at a
hospital or ASC, an insurer like BCBSLA receives
three claims: one from the doctor for doing the
actual surgery; one from the anesthesiologist, if
used; and one from the hospital or ASC for services
provided to assist the doctor. When a doctor
performs surgery in his office, however, there is no
facility claim because there is no separate facility.

3a
Instead, BCBSLA pays doctors a Global Fee for
these in-office surgeries. The Global Fee is greater
than the fee paid to doctors for performing surgery
at a hospital or ASC and is intended to compensate
for all overhead costs of an in-office procedure.
When Encompass entered the market, it
expanded doctors’ ability to perform in-office
surgeries. Encompass sought compensation from
insurers by filing separate claims for its services.
At all relevant times, Encompass was an out-ofnetwork service provider for BCBSLA members.
Because of this, Encompass obtained an
assignment of benefits from each of its BCBSLAinsured patients. BCBSLA paid Encompass’s
claims for several months after Encompass entered
the Louisiana market.
But in June 2010, BCBSLA received a tip that
Encompass was submitting claims for services it
had not provided. On investigation, BCBSLA
found that Encompass was submitting claims, and
being paid, for the same in-office surgeries as the
performing doctors. BCBSLA’s billing system
would normally reject “duplicate” claims for
surgery at a doctor’s office. But it had been
processing Encompass’s claims because they used
a code modifier. Encompass was using the “TC
Modifier,” which stands for “technical component”
and covers the equipment, staff, and services
necessary for surgery.
BCBSLA began denying Encompass’s claims.
BCBSLA also learned that other insurance
companies were doing the same. In August 2010,
BCBSLA Vice President Dawn Cantrell sent a
letter to in-network providers directing them not
to use Encompass’s services. Because this letter is

4a
the basis for Encompass’s defamation and tortious
interference claims, we quote it at length:
Encompass is not eligible to participate in
the BlueCross networks and is considered
an out-of-network provider. Please do not
use Encompass for services provided to
BlueCross or [HMO Louisiana, Inc.]
members since the facility fees charged by
Encompass are not covered, even when
they are billed by a network physician.
Encompass would have to be a Louisiana
licensed [Department of Health and
Hospitals]-approved ambulatory surgery
facility in order to be eligible for payment
of these facility charges.
You should also accept your contracted
allowable charge for any eligible in-office
surgeries you normally perform to be
counted as payment in full and not allow
Encompass to submit claims to Blue
Cross. Please ensure your Blue Cross
patients are able to receive network
benefits for the services they receive
from you by using participating
providers.
If we find that any network
physician
is
repeatedly
using
Encompass to deliver facility and
procedure services that are not
eligible for benefits and our members
are being billed for these facility
charges, the network physician will
be subject to termination from the
Blue Cross networks.

5a
Encompass obtained a copy of the Cantrell
Letter and gave it to counsel. Encompass sought
clarification from BCBSLA by calling Cantrell
three times and leaving voicemail messages. It
received no response. In October 2010, BCBSLA
Audit Consultant Alan Lofton sent Encompass a
separate letter demanding repayment of nearly
$110,000 in paid claims. A few months later,
Encompass sued.
B. Procedural
Encompass initially sued BCBSLA for payment
on services provided to BCBSLA insureds. 1
Encompass alleged that BCBSLA had abused its
discretion in denying Encompass’s claims on
ERISA-covered plans and breached its insurance
contracts under state law by denying claims on
non-ERISA plans.
In response, BCBSLA pleaded that under its
policy a non-facility provider must seek payment
from the site-of-service owner, usually the doctor
who orders the services, and that Encompass knew
this. BCBSLA explained that for surgeries in a
“non-facility setting,” the doctor’s (and any other
professional’s) reimbursement is all-inclusive. In
other words, BCBSLA pleaded its Global Fee
policy.
In February 2013, Encompass deposed Cantrell
and Lofton. Cantrell and Lofton testified they were
not aware of a BCBSLA policy or benefit plan that
said Encompass’s services were not covered. And
they were similarly unaware of a policy or plan
Encompass’s original complaint named only BlueCross
BlueShield of Texas. The second amended complaint added
BCBSLA and a host of BlueCross entities from other states.
1

6a
permitting BCBSLA to terminate a physician for
partnering with Encompass. This led Encompass
to believe that the Cantrell Letter contained false
statements. Because the Cantrell Letter damaged
Encompass’s Louisiana business, Encompass in
April 2013 amended its complaint to add claims for
defamation and tortious interference with business
relations.
Both parties moved for summary judgment.
The district court at first granted summary
judgment to BCBSLA on Encompass’s defamation
and tortious interference claims because it held
they were barred by Louisiana’s one-year
prescriptive period. 2 But on a motion for
reconsideration it reversed this decision. It held
instead that a genuine dispute of material fact
existed as to whether Encompass was entitled to
the benefit of a discovery rule—contra non
valentem—that would suspend the prescriptive
period.3
Trial arrived. Encompass tried its tort claims
and non-ERISA contract claims to a jury, and its
ERISA claims to the district court. The jury found
no liability on the contract claims, and found that
Encompass was not entitled to the benefit of contra
As the district court explained, “[t]he Louisiana Civil Code
uses the term . . . ‘liberative prescription’ for statutes of
limitation.” Encompass Office Sols., Inc. v. La. Health Serv. &
Indem. Co., No. 3:11-CV-1471-P, 2013 WL 12310676, at *20
n.21 (N.D. Tex. Sept. 17, 2013) (citing Prescription, BLACK’S
LAW DICTIONARY (9th ed. 2009)).
3 “Contra non valentem non currit praescriptio means that
prescription does not run against a person who could not
bring his suit.” Wells v. Zadeck, 89 So. 3d 1145, 1150 (La.
2012) (citing Harvey v. Dixie Graphics, Inc., 593 So. 2d 351,
354 (La. 1992)).
2

7a
non valentem on the tort claims. Because it
resolved the prescription issue in BCBSLA’s favor,
the jury did not reach the merits of Encompass’s
tort claims.
Encompass moved for a new trial based on
error in the jury charge, and the district court
granted the motion. It held that the jury charge
had imposed an incorrect liability standard for the
non-ERISA contract claims. The original charge
for these claims required the jury to find that
BCBSLA “capriciously and arbitrarily” denied
Encompass’s claims for benefits. But it should only
have required them to find the elements for
Louisiana breach of contract. And, citing the
potential for confusion, the court held that
Encompass’s tort claims must also be retried: “A
finding that no breach occurred would reasonably
cause the jury to find that no tort liability existed
because the breach of contract claim underpins the
basis for the tort claims.” The district court did not
rule on Encompass’s ERISA claims at this stage.
At the second trial the jury found for
Encompass on both its contract and tort claims,
including finding that contra non valentem
suspended prescription. The district court also
found for Encompass on its ERISA claims.
BCBSLA renewed its motion for judgment as a
matter of law, moved for reconsideration, and
moved for a new trial—all of which the district
court denied. The district court entered judgment
for Encompass, and BCBSLA appealed.

8a
II. JURISDICTION AND STANDARDS OF
REVIEW
A. Jurisdiction
The district court had jurisdiction based on
complete diversity, 28 U.S.C. § 1332; and under
ERISA, 29 U.S.C. §§ 1001 et seq. This court has
jurisdiction under 28 U.S.C. § 1291.
B. Standards of Review
1. Grant of a New Trial
“We review the district court’s grant or denial
of a new trial for abuse of discretion.”4 “A greater
degree of scrutiny, however, is given to the grant of
a new trial.” 5 “[W]e exercise broad review of a
court’s grant of a new trial because of our respect
for the jury as an institution and our concern that
the party who persuaded the jury should not be
stripped unfairly of a favorable decision.”6
2. Judgment as a Matter of Law
“We review de novo the district court’s denial of
a motion for judgment as a matter of law, applying
the same standards as the district court.” 7
Judgment as a matter of law is proper if “a party
has been fully heard on an issue during a jury trial
Gutierrez v. Excel Corp., 106 F.3d 683, 687 (5th Cir. 1997)
(citing Allied Bank–W., N.A. v. Stein, 996 F.2d 111, 115 (5th
Cir. 1993)).
5 Scott v. Monsanto Co., 868 F.2d 786, 789 (5th Cir. 1989)
(citing Conway v. Chem. Leaman Tank Lines, Inc., 610 F.2d
360, 362–63 (5th Cir. 1980) (per curiam)).
6 Gutierrez, 106 F.3d at 687 (alteration in original) (quoting
Stein, 996 F.2d at 115).
7 Abraham v. Alpha Chi Omega, 708 F.3d 614, 620 (5th Cir.
2013) (citing Ill. Cent. R.R. Co. v. Guy, 682 F.3d 381, 392–93
(5th Cir. 2012)).
4

9a
and . . . a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party on
that issue.”8
“We review all the evidence in the record in the
light most favorable to the nonmoving party and
draw all reasonable inferences in favor of the
nonmoving party; we do not make credibility
determinations or weigh the evidence.” 9 We
“cannot reverse a denial of a motion for judgment
as a matter of law unless the jury’s factual
findings are not supported by substantial evidence,
or if the legal conclusions implied from the jury’s
verdict cannot in law be supported by those
findings.” 10 In other words, the party moving for
judgment as a matter of law can prevail only “if
the facts and inferences point so strongly and
overwhelmingly in favor of the moving party that
reasonable jurors could not have arrived at a
contrary verdict.”11 Although our review is de novo,
“[a]fter a jury trial, [the] standard of review is
especially deferential.”12
3. ERISA § 502(a)(1)(B) Claims
“On appeal from a bench trial, this court
review[s] the factual findings of the trial court for
clear error and conclusions of law de novo,”
FED R. CIV. P. 50(a).
Homoki v. Conversion Servs., Inc., 717 F.3d 388, 395 (5th
Cir. 2013) (citing Poliner v. Tex. Health Sys., 537 F.3d 368,
376 (5th Cir. 2008)).
10 OneBeacon Ins. Co. v. T. Wade Welch & Assocs., 841 F.3d
669, 676 (5th Cir. 2016) (quoting Am. Home Assurance Co. v.
United Space All., LLC, 378 F.3d 482, 488 (5th Cir. 2004)).
11 Homoki, 717 F.3d at 395 (citing Poliner, 537 F.3d at 376).
12 Abraham, 708 F.3d at 620 (second alteration in original)
(quoting Brown v. Sudduth, 675 F.3d 472, 477 (5th Cir.
2012)).
8
9

10a
applying the same standard as the district court.13
Because the plans at issue grant BCBSLA
discretion to determine eligibility for plan benefits
and construe the terms of the plans, we apply the
abuse of discretion standard.14 Thus, if BCBSLA’s
“decision is supported by substantial evidence and
is not arbitrary and capricious, it must prevail.”15
III. DISCUSSION
A. District Court’s Grant of a New Trial
In the first trial, the court instructed the jury
that BCBSLA was liable on Encompass’s nonERISA claims if it had arbitrarily and capriciously
denied claims for benefits:
The burden is on Encompass to prove
that BCBS Louisiana had sufficient proof
that payment on a claim was due and
that the claim was capriciously and
arbitrarily denied by BCBS Louisiana. An
insurer is arbitrary and capricious when
it does not act in a reasonable manner
based on the facts known at the time of
the decision.
In its motion for a new trial, Encompass
successfully argued that this charge had
erroneously imported the arbitrary-and-capricious
Conn. Gen. Life Ins. Co. v. Humble Surgical Hosp., L.L.C.,
878 F.3d 478, 483 (5th Cir. 2017) (alteration in original)
(quoting George v. Reliance Standard Life Ins. Co., 776 F.3d
349, 352 (5th Cir. 2015)).
14 Id. (citing Vega v. Nat’l Life Ins. Servs., Inc., 188 F.3d 287,
295 (5th Cir. 1999) (en banc), overruled on other grounds by
Metro. Life Ins. Co. v. Glenn, 554 U.S. 105, 115–19 (2008)).
15 Singletary v. United Parcel Serv., Inc., 828 F.3d 342, 347
(5th Cir. 2016) (quoting Corry v. Liberty Life Assurance Co. of
Boston, 499 F.3d 389, 397 (5th Cir. 2007)).
13

11a
standard and should, instead, have simply stated
the Louisiana elements of contract.
1. New Trial on the Contract Claims
BCBSLA contends that the original charge was
correct, and the second trial should never have
happened. It says that the Louisiana Prompt
Payment Statute, 16 not the general contract
statute, governs an insurer’s breach of a health
insurance contract. The Prompt Payment Statute
imposes penalties on insurers who do not, within
30 days, pay any claim that does not present
reasonable grounds for denial:
All claims arising under the terms of
health and accident contracts issued in
this state, except as provided in
Subsection B of this Section, shall be paid
not more than thirty days from the date
upon which written notice and proof of
claim, in the form required by the terms
of the policy, are furnished to the insurer
unless just and reasonable grounds, such
as would put a reasonable and prudent
businessman on his guard, exist. . . .
Failure to comply with the provisions of
this Section shall subject the insurer to a
penalty . . . together with attorney fees to
be determined by the court.17
Although the words “arbitrary and capricious” do
not appear in this section, Louisiana courts have
adopted that standard for insurer liability.18 This
LA. STAT. ANN. § 22:1821.
Id. § 22:1821(A).
18 Stewart v. Calcasieu Par. Sch. Bd., 933 So. 2d 797, (La. Ct.
App. 2006) (interpreting predecessor LA. STAT. ANN. § 22:657).
16
17

12a
is because the statute is “penal in nature” and
must be “strictly construed.”19 BCBSLA says that
because the statute governs “[a]ll claims arising
under the terms of health and accident contracts
issued in this state,”20and specific statutes trump
general ones, 21 this section provides the
appropriate standard of liability for Encompass’s
contract claims.
BCBSLA also contends that Encompass itself
invoked the Prompt Payment Statute for its nonERISA contract claims. Besides contract damages,
Encompass’s operative complaint demanded
attorney’s fees, costs, and “statutory penalties
under Texas and Louisiana law requiring the
prompt payment of claims by insurance carriers.”
And in its submission for the joint pretrial order,
Encompass listed “[w]hether BCBSLA abused its
discretion by denying Encompass’s claims” as a
contested legal issue.
Neither of these theories can rehabilitate the
first jury charge. Louisiana contract law governs
Encompass’s claims for benefits under non-ERISA
plans because, although it is true that the Prompt
Payment Statute applies to all Louisiana health
insurance contracts, “[u]nder Louisiana law, the
cause of action under [§ 22:1821] is separate and
distinct from the cause of action for the breach of
Id. (quoting Marien v. Gen. Ins. Co. of Am., 836 So. 2d 239,
249 (La. Ct. App. 2002)).
20 LA. STAT. ANN. § 22:1821.
21 Cf., e.g., Pumphrey v. City of New Orleans, 925 So. 2d 1202,
1210 (La. 2006) (“[T]he statute specifically directed to the
matter at issue must prevail as an exception to the statute
more general in character.” (citing Kennedy v. Kennedy, 699
So. 2d 351, 358 (La. 1996))).
19

13a
the insurance contract.” 22 Encompass alleged a
Louisiana contract claim. So even if it also alleged
a Prompt Payment Statute claim, it had the right
to a correct jury instruction on the contract
claim.23 This is particularly true where, as here, it
is easier to prove that the defendant breached a
contract than that it did so arbitrarily and
capriciously.
BCBSLA has another independent argument. It
contends that the first jury charge was correct
because the insurance plans, by their terms,
granted BCBSLA discretion in choosing whether to
allow or deny a claim. And in analogous contexts,
“abuse of discretion” and “arbitrary and capricious”
are legally equivalent.24 Thus, BCBSLA says that
the jury was properly instructed to find contract

Hymel v. HMO of La., Inc., 951 So. 2d 187, 199 (La. Ct.
App. 2006) (citing Cramer v. Ass’n Life Ins. Co., Inc., 563 So.
2d 267, 275 (La. Ct. App.), rev’d on other grounds, 569 So. 2d
533 (La. 1990)) (interpreting predecessor LA. STAT. ANN. §
22:657); see Cantrelle Fence & Supply Co., Inc. v. Allstate Ins.
Co., 515 So. 2d 1074, 1079 (La. 1987) (holding that cause of
action under analogous insurance penalty statute was
“separate and distinct from the obligation arising out of the
contractual relationship under the insurance policy”).
23 See Aero Int’l, Inc. v. U.S. Fire Ins. Co., 713 F.2d 1106, 1113
(5th Cir. 1983) (“[The party] was entitled to have the critical
issues bearing upon its liability ‘submitted to and answered
by the jury upon a clear and proper charge.’” (quoting NMS
Indus., Inc. v. Premium Corp. of Am., 451 F.2d 542, 545 (5th
Cir. 1971))).
24 See Anderson v. Cytec Indus., Inc., 619 F.3d 505, 512 (5th
Cir. 2010) (“[T]here is only a semantic, not a substantive,
difference between the arbitrary and capricious and the abuse
of discretion standards in the ERISA benefits review context.”
(quoting Meditrust Fin. Servs. Corp. v. Sterling Chems., Inc.,
168 F.3d 211, 214 (5th Cir. 1999))).
22

14a
liability only if BCBSLA had arbitrarily and
capriciously denied a claim.
This theory is not quite correct. BCBSLA
argues that the first jury charge properly included
an interpretation of the contracts. But the district
court rejected this argument when it granted a
new trial, holding in effect that the interpretation
was not supported by Louisiana law.25 We agree.
No cited Louisiana authority supports an arbitrary
and capricious standard for breach of health
insurance contracts—even those that grant
discretion to the insurer. And the district court has
discretion of its own to either interpret contract
terms as a matter of law or leave them to the
factfinder. 26 “Although the interpretation of a
contract is normally a question of law for the
Court, that interpretation frequently depends
heavily on the resolution of factual disputes. And it
is the function of the trier of fact to resolve such
factual disputes.”27
In short, charging the jury with an incorrect
standard of liability supports granting a new
trial.28 And the jury indicated confusion from the
See Hymel, 951 So. 2d at 199 (affirming general contract
law jury instruction for contract claim and separate
instruction for Prompt Payment Statute claim).
26 See Cook Indus., Inc. v. Cmty. Grain, Inc., 614 F.2d 978,
980 (5th Cir. 1980) (affirming district court’s decision not to
interpret contract as matter of law).
27 Id. (citing Gen. Wholesale Beer Co. v. Theodore Hamm Co.,
567 F.2d 311, 313 (5th Cir. 1978)).
28 See Pinkerton v. Spellings, 529 F.3d 513, 519 (5th Cir. 2008)
(granting new trial because jury instruction wrongly imposed
elevated standard for liability); Aero, 713 F.2d at 1113 (“A
new trial is the appropriate remedy for prejudicial errors in
jury instructions.” (citing NMS Indus., Inc. v. Premium Corp.
25

15a
improper instruction.29 Its note to the court shows
that the erroneous legal standard was front and
center in deliberations: “Can you clearly define
Arbitrary and Capricious in the eyes of the
court[?]” 30 The district court did not abuse its
discretion when it granted a new trial on
Encompass’s contract claims.
2. New Trial on the Tort Claims
The district court held that Encompass’s tort
claims should also be retried because they were
related to the mischarged contract claims. In the
district court’s view, breach of the contracts was a
basis of the tort claims. BCBSLA disputes this. It
contends that the jury could not possibly have been
confused by overlap of tort and contract issues
because it never reached the merits of the tort
claims. Indeed, the jury answered “no” to whether
Encompass could invoke contra non valentem to
toll prescription for the tort claims, preventing it
from reaching the tort merits questions on the
verdict form.
Under Federal Rule of Civil Procedure 59(a),
the district court may “grant a new trial on all or
some of the issues.” “[P]artial new trials should not
be resorted to unless it appears that the issue to be
retried is so distinct and separable from the others
that a trial of it alone may be had without
of Am., Inc., 451 F.2d 542, 545 (5th Cir. 1971); Phillips v.
State Farm Mut. Auto. Ins. Co., 437 F.2d 365 (5th Cir. 1971))).
29 See, e.g., Aero, 713 F.2d at 1113 n.6 (citing jury note as
indication of jury confusion).
30 The court responded by identifying this sentence in the jury
charge: “An insurer is arbitrary and capricious when it does
not act in a reasonable manner based on the facts known at
the time of the decision.”

16a
injustice.”31 “Therefore, when the issues subject to
retrial are so interwoven with other issues in the
case that they ‘cannot be submitted to the jury
independently . . .
without
confusion
and
uncertainty, which would amount to a denial of a
fair trial,’ then it is proper to grant a new trial on
all of the issues raised.” 32 In addition to
considering “interdependence of [the] issues,” we
also consider “an overlapping of proof” relevant to
those issues.33
Under this standard, the district court did not
abuse its discretion by granting a new trial on the
tort claims. Whether Encompass’s claims for
benefits should have been paid was a common
issue between the contract and tort claims—it
affects the tort claims because it affects the truth
or falsity of the Cantrell letter. 34 And proof of
BCBSLA’s internal decision making may be
relevant to both whether it performed its
contractual duties and whether it defamed or
tortiously interfered with Encompass.35
B. Judgment as a Matter of Law on
Encompass’s Tort Claims—Prescription
and Contra Non Valentem
BCBSLA says that the district court should
have granted its renewed motion for judgment as a
Anderson v. Siemens Corp., 335 F.3d 466, 475 (5th Cir.
2003) (quoting Colonial Leasing of New England, Inc. v.
Logistics Control Int’l, 770 F.2d 479, 481 (5th Cir. 1985)).
32 Colonial Leasing, 770 F.2d at 481 (ellipsis in original)
(quoting Gasoline Prods. Co. v. Champlin Ref. Co., 283 U.S.
494, 500 (1931)).
33 Id.
34 See Anderson, 335 F.3d at 475.
35 See Colonial Leasing, 770 F.2d at 481.
31

17a
matter of law based on prescription. It is
undisputed that the applicable prescriptive period
for Encompass’s tort claims is one year, and that
over a year passed between Encompass receiving
the Cantrell letter and first claiming defamation
and tortious interference. But the jury in the
second trial found that prescription was suspended
under the doctrine of contra non valentem.
Under Louisiana law, “[t]he defendant has the
initial burden of proving that a tort claim has
prescribed, but if the defendant shows that one
year has passed between the tortious acts and the
filing of the lawsuit, then the burden shifts to the
plaintiff to prove an exception to prescription.” 36
“[C]ontra non valentem prevents the running of
liberative prescription . . . where the cause of
action is neither known nor reasonably knowable
by the plaintiff even though plaintiff’s ignorance is
not induced by the defendant.” 37 Under this
standard, “[c]onstructive knowledge is whatever
notice is enough to excite attention and put the
injured party on guard and call for inquiry.” 38
“[T]his principle will not exempt the plaintiff’s
claim from the running of prescription if his
ignorance is attributable to his own wilfulness or
neglect; that is, a plaintiff will be deemed to know
Terrebonne Par. Sch. Bd. v. Columbia Gulf Transmission
Co., 290 F.3d 303, 320 (5th Cir. 2002) (citing Miley v. Consol.
Gravity Drainage Dist. No. 1, 642 So. 2d 693, 696 (La. Ct.
App. 1994); Dixon v. Houck, 466 So. 2d 57, 59 (La. Ct. App.
1985)).
37 Marin v. Exxon Mobil Corp., 48 So. 3d 234, 245 (La. 2010)
(citing Plaquemines Par. Comm’n Council v. Delta Dev. Co.,
502 So. 2d 1034 (La. 1987)).
38 Id. at 246 n.12 (quoting Campo v. Correa, 828 So.2d 502,
510–11 (La. 2002)).
36

18a
what he could by reasonable diligence have
learned.”39
The Supreme Court of Louisiana has not
evaluated contra non valentem for a defamation or
false-statement claim. So “we must make an ‘Erie
guess’ and determine as best we can what the
highest court of the state would be most likely to
decide.” 40 We may look to the decisions of
intermediate state courts for guidance. “Indeed, ‘a
decision by an intermediate appellate state court is
a datum for ascertaining state law which is not to
be disregarded by a federal court unless it is
convinced by other persuasive data that the
highest court of the state would decide
otherwise.’”41
BCBSLA maintains that contra non valentem
does not apply as a matter of law. Encompass had
a copy of the Cantrell Letter in 2010. The letter
immediately caused Encompass to confer with
counsel and seek clarification from BCBSLA. But
Encompass waited until 2013 to allege tort claims.
And in BCBSLA’s view, Encompass is in a
dilemma: Encompass’s contract theory, which it
was pursuing around the same time it received the
Cantrell Letter, requires the letter to be wrong
about coverage. But Encompass’s contra non
valentem theory only works if Encompass was
ignorant of the letter’s falsity.

Id. at 246 (quoting Renfroe v. State ex rel. Dep’t of Transp.
& Dev., 809 So. 2d 947, 953 (La. 2002)).
40 Terrebonne Par., 290 F.3d at 317 (citing Barfield v.
Madison County, 212 F.3d 269, 271–72 (5th Cir. 2000)).
41 Id. (quoting First Nat’l Bank of Durant v. Trans Terra
Corp., 142 F.3d 802, 809 (5th Cir. 1998)).
39

19a
Encompass contends that the Cantrell Letter
falsified BCBSLA internal policies, which it could
not discover until 2013 despite diligent inquiry.
Although some statements in the letter were
independently verifiable, Encompass says others
were simultaneously false, damaging, and opaque
to outsiders. Encompass argued that the letter
misrepresented Encompass’s “eligib[ility] to
participate in the Blue Cross networks” and
“eligib[ility] for benefit payment.” Eligibility to be
in the network, as distinct from present network
status or plan coverage for a service, was a matter
of BCBSLA policy. And according to Encompass,
“eligib[ility]” for payment was too. Encompass says
these statements damaged its business by
discouraging doctors from working with it.
Encompass also says its diligence to investigate
the letter—calling Cantrell three times in 2010
and leaving messages without response—was
reasonable under the circumstances.
We believe the Supreme Court of Louisiana
would hold that contra non valentem was
supported by the evidence here. The issue is close
and we are mindful of the “especially deferential”
standard of review for the jury verdict.42 BCBSLA
challenges only the sufficiency of the evidence, not
the jury instruction. The district court rejected
BCBSLA’s argument when it denied judgment as a
matter of law. We do so as well. Our dissenting
colleague takes a broader view of constructive
notice and a stricter one of the required diligence.
But, in this instance, we find no Louisiana case
standing directly against contra non valentem and
Abraham, 708 F.3d at 620 (quoting Brown, 675 F.3d at
477).
42

20a
some cases that support it, especially given our
standard of review.
Louisiana
intermediate
appellate
court
decisions show that contra non valentem suspends
prescription for defamation and other falsestatement claims if a reasonably diligent plaintiff
knows about the adverse statement but has not
discovered it is false. In Quixx, for example, the
insurer plaintiff received applications containing
false statements, but prescription did not begin to
run until it discovered facts inconsistent with
those statements. 43 (The claims were prescribed
anyway because the insurer waited more than a
year to file suit.44) In another case, Simmons, the
plaintiffs argued that contra non valentem
suspended prescription of a tortious interference
claim until they discovered that the defendant’s
financial statements were falsified. 45 The court
agreed. The plaintiffs did not have constructive
knowledge of falsity until receiving disclosures
during litigation, even though their dispute with
the defendants began over a year earlier.46 These
cases show that a plaintiff can be aware of a
statement without having constructive knowledge
of its falsity. They also show that a plaintiff need
not file suit just because an adverse party
publicizes unfavorable statements that are not
immediately verifiable.

Nat’l Council on Comp. Ins. v. Quixx Temp. Servs., Inc., 665
So. 2d 120, 123–24 (La. Ct. App. 1995).
44 Id.
45 Simmons v. Templeton, 723 So. 2d 1009, 1012 (La. Ct. App.
1998).
46 Id. at 1011–12.
43

21a
Cases setting a stricter diligence bar are
distinguishable. In Rozas the plaintiff, a doctor,
argued that contra non valentem suspended
prescription as long as his former employer
withheld a personnel file that defamed him as
clinically incompetent. 47 The court disagreed,
because the plaintiff’s own lack of diligence kept
him from getting the file. The court said he should
have taken measures “beyond making one
telephone call to a secretary.” 48 This initially
seems comparable to Encompass’s diligence. But
Rozas was in a different position. He already knew
the defamatory statements’ general content and
falsity: The defendant had rated him clinically
incompetent.49 This weighed heavily in the court’s
analysis that he had constructive knowledge of a
cause of action. “[P]laintiff had sufficient facts to
make him aware that he potentially had a claim
against L.S.U. in 1980 when he learned that
L.S.U. had given him a poor clinical evaluation.”50
But here the falsity concerned BCBSLA’s internal
policies, and Encompass did not discover it until
2013.
And the appellate cases Greenblatt and Neyrey
are distinguishable because the plaintiffs exercised
no diligence at all.51 These are easier cases where
the plaintiffs would have known about a cause of
action if they took any timely action to obtain the
Rozas v. Dep’t of Health & Human Res., 522 So. 2d 1195,
1196–97 (La. Ct. App. 1988).
48 Id. at 1197.
49 Id.
50 Id.
51 Greenblatt v. Payne, 929 So. 2d 193, 196 (La. Ct. App.
2006); Neyrey v. Lebrun, 309 So. 2d 722, 723 (La. Ct. App.
1975).
47

22a
defendants’ adverse statements. The federal
district court case Safford is similar. 52 Here, in
contrast, Encompass sought clarification about the
Cantrell Letter multiple times.
Cases stating that consulting with counsel
shows constructive knowledge of a claim are also
distinguishable. These cases generally involved
personal injuries where consulting counsel
logically showed awareness of the cause of action.53
But here the parties were in a business dispute
with many potential legal theories. Consulting
counsel about one legal injury does not show that a
party knew or should have known about other
legal injuries that are based on different facts.54
This is especially so given Encompass’s position
that the falsity was known only to BCBSLA.
Encompass can escape the posited tort-contract
dilemma without contradiction. Encompass says
that BCBSLA breached contracts by refusing to
pay covered benefits and committed torts by
spreading related statements that were false.55 It
Safford v. PaineWebber, Inc., 730 F. Supp. 15, 18 (E.D. La.
1990) (holding contra non valentem inapplicable because
defamatory statements were available at plaintiff’s request).
53 53 See Med. Review Panel Proceeding of Williams v. Lewis,
17 So. 3d 26, 30 (La. Ct. App. 2009) (medical malpractice for
surgery complication); Derrick v. Yamaha Power Sports of
New Orleans, 850 So. 2d 829, 833 (La. Ct. App. 2003)
(workers compensation for gunshot wound to hand); Clofer v.
Celotex Corp., 528 So. 2d 1074, 1076 (La. Ct. App. 1988) (suit
against former employer for lung damage).
54 54 See, e.g., Simmons, 723 So. 2d at 1011–12 (explaining
that transaction was in 1986, litigation began in November
1987, falsity was discovered in March 1989, and prescription
did not begin to run until March 1989).
55 Cf. Marshall Invs. Corp. v. R.P. Carbone Co., No. 05-6486,
2006 WL 2644959, at *5 (E.D. La. Sept. 13, 2006) (malicious
52

23a
is not implausible that Encompass immediately
considered the Cantrell Letter a breach of contract
but only later knew the other statements might be
false. Not every anticipatory breach of contract is
tortious. Consider: In a garden-variety defamation
case, the truth or falsity of the statement is readily
knowable to the plaintiff—because it is about the
plaintiff.56 Here, in contrast, Encompass says that
BCBSLA defamed it by making false statements
about Encompass’s status under BCBSLA’s own
policies. These policies were opaque to Encompass
when it received the letter. And Encompass’s
inquiries to BCBSLA do not show constructive
knowledge either. There is no inconsistency in
investigating the letter for the ongoing coverage
dispute but not knowing it contained false
statements.
Encompass’s status as a sophisticated
corporation does not change this. The Supreme
Court of Louisiana teaches that the proper
“blueprint” to evaluate reasonable delay for contra
non valentem is “looking to the record for evidence
of facts within plaintiff’s knowledge and then
examining the reasonableness of plaintiff’s
inaction in light of those facts, considering
plaintiff’s education, intelligence and the nature of
defendant’s conduct.”57 The circumstances of each
case determine the applicability of the doctrine.58
statement as element of tortious interference with business
relations); Costello v. Hardy, 864 So. 2d 129, 139 (La. 2004)
(false statement as element of defamation).
56 See, e.g., Safford, 730 F. Supp. at 16–17 (evaluating alleged
defamatory statement that plaintiff engaged in sexual
misconduct).
57 Wells, 89 So. 3d at 1151.
58 Id. at 1154.

24a
Here the jury heard evidence of each blueprint
factor.
Some evidence showed that in 2010 Encompass
knew the Cantrell Letter stated unfavorable
BCBSLA policies but not that those statements
were false. Some evidence also showed that
BCBSLA’s conduct included misstating its policies
and refusing to clarify things. And some evidence
showed that Encompass was a corporation advised
by counsel. So the jury had sufficient evidence to
assess all the factors that Louisiana law
considers.59 It reached a “Yes” verdict on whether
contra non valentem applied. In reviewing denial
of judgment as a matter of law, we may not
reweigh the evidence.60 Drawing all inferences in
favor of Encompass, as we must, the application of
contra non valentem was not wrong as a matter of
law.61
C. Encompass’s ERISA Claims
ERISA aims to promote the interests of plan
participants and their beneficiaries and to “protect
contractually defined benefits.”62 ERISA enshrines
a patient’s right to the “full and fair review” of her
claim.63 As a result, § 502(a)(1)(B) permits a plan
participant to sue to “recover benefits due to him
under the terms of his plan, to enforce his rights
under the terms of the plan, or to clarify his rights
Id. at 1151.
See Homoki, 717 F.3d at 395.
61 See id.
62 N. Cypress Med. Ctr. Operating Co., Ltd. v. Cigna
Healthcare (NCMC), 781 F.3d 182, 194 (5th Cir. 2015)
(quoting Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101,
113–14 (1989)).
63 29 U.S.C. § 1133(2).
59
60

25a
to future benefits under the terms of the plan.”64
Here, Encompass contends that it is an assignee
entitled to enforce patients’ rights to benefits
under BCBSLA plans. BCBSLA challenges
Encompass’s right to advance claims for benefits,
as well as the district court’s ultimate conclusion
that
BCBSLA
abused
its
discretion
in
administering the plans.
1. Anti-Assignment Provisions
BCBSLA says that, under the plans’ antiassignment
provisions,
Encompass
lacked
derivative standing to sue for benefits. The district
court found that BCBSLA waived the antiassignment provisions because it made payments
to, and communicated with, Encompass on at least
some claims. BCBSLA’s only direct challenge to
this conclusion is that Encompass did not offer a
jury charge on waiver. To the extent BCBSLA
argues that waiver could only have been found by
the jury, we disagree. It is well known that ERISA
claims are the statutory cousins of equitable
actions and so are tried to the court.65 Waiver of
the anti-assignment clauses—a related issue that
is itself equitable—was here also properly decided
by the district court. 66 So the anti-assignment
Id. § 1132(a)(1)(B).
65 Calamia v. Spivey, 632 F.2d 1235, 1237 (5th Cir. Unit A
1980) (“[S]imilar claims were previously considered equitable
and . . . the kind of determination required—whether the
pension fund acted arbitrarily and capriciously—was one
traditionally performed by judges.” (citing Wardle v. Cent.
States, Se. & Sw. Areas Pension Fund, 627 F.2d 820, 829–30
(7th Cir. 1980))).
66 66 See FED R. CIV. P. 39(a) (“The trial on all issues so
demanded must be by jury unless: . . . the court, on motion or
on its own, finds that on some or all of those issues there is no
64
65

26a
clauses do not frustrate Encompass’s recovery on
ERISA claims.
2. Contractual Limitations Periods
BCBSLA also contends that the plans’ 15month limitations provisions bar some of
Encompass’s claims. 67 ERISA § 502(a)(1)(B)
contains no statute of limitations, but the parties
are free to agree to a reasonable limitations
period. 68 The district court held that the
contractual limitations provisions here were
unenforceable across the board because BCBSLA
never gave notice of them to Encompass. It cited
decisions from other circuits holding that, based on
ERISA’s implementing regulations, notice is
required for similar provisions to be enforceable.69
BCBSLA does not appear to dispute this notice
theory. As a result, we do not disturb the district
federal right to a jury trial.”); Austin v. Shalala, 994 F.2d
1170, 1177 n.7 (5th Cir. 1993) (explaining that an equitable
defense—even to a legal claim—is tried to the court); Reg’l
Props., Inc. v. Fin. & Real Estate Consulting Co., 752 F.2d
178, 182–83 (5th Cir. 1985) (holding under Texas law that
waiver is equitable defense).
67 BCBSLA maintains that its October 4, 2010 demand letter
placed Encompass on notice that its claims would be denied.
Encompass waited over 15 months from this date to file suit.
So BCBSLA contends that all Encompass claims submitted
before October 4, 2010 are barred by limitations.
68 Heimeshoff v. Hartford Life & Accident Ins. Co., 571 U.S.
99, 105–06 (2013).
69 See Santana-Diaz v. Metro. Life Ins. Co., 816 F.3d 172, 179–
82 (1st Cir. 2016) (citing 29 C.F.R. § 2560.503–1(g)(1)(iv) for
proposition that administrator must provide notice of
limitations period when denying benefits); Mirza v. Ins. Adm’r
of Am., Inc., 800 F.3d 129, 137–38 (3d Cir. 2015) (same);
Moyer v. Metro. Life Ins. Co., 762 F.3d 503, 507 (6th Cir. 2014)
(same).

27a
court’s conclusion that the contractual limitations
provisions are unenforceable.
3. Abuse of Discretion
We now review the merits of Encompass’s
ERISA claims. To determine whether an
administrator abused its discretion in construing a
plan’s terms, we analyze its plan interpretation in
two steps.70 First, was BCBSLA’s reading “legally
correct”? 71 ERISA plans must be written “to be
understood by the average plan participant,”72 so
plans “are interpreted in their ordinary and
popular sense as would a person of average
intelligence and experience.” 73 The “most
important factor to consider” is whether BCBSLA’s
“interpretation is consistent with a fair reading of
the plan[s].” 74 If so, the inquiry ends, and there
was no abuse of discretion.75 Otherwise, the court
“must then determine whether [BCBSLA’s]
decision was an abuse of discretion.”76 “[T]his court
may bypass, without deciding, the issue whether
the Plan Administrator’s denial was legally
correct, reviewing only whether the Plan

Humble Surgical Hosp., 878 F.3d at 483; NCMC, 781 F.3d
at 195 (citing Stone v. UNOCAL Termination Allowance Plan,
570 F.3d 252, 257 (5th Cir. 2009)).
71 Humble Surgical Hosp., 878 F.3d at 483 (quoting NCMC,
781 F.3d at 195).
72 29 U.S.C. § 1022(a).
73 NCMC, 781 F.3d at 195 (quoting Stone, 570 F.3d at 260).
74 Id. at 195 (alteration in original) (quoting Crowell v. Shell
Oil Co., 541 F.3d 295, 313 (5th Cir. 2008)).
75 Humble Surgical Hosp., 878 F.3d at 483.
76 Id. (quoting Stone, 570 F.3d at 257).
70

28a
Administrator abused its discretion in denying the
claim if that can be more readily determined.”77
In the second step—deciding whether BCBSLA
abused its discretion— the court considers “(1) the
internal consistency of the plan under the
administrator’s interpretation, (2) any relevant
regulations formulated by the appropriate
administrative agencies, and (3) the factual
background of the determination and any
inferences of lack of good faith.”78 “In applying the
abuse of discretion standard, we analyze whether
the plan administrator acted arbitrarily or
capriciously.”79
Here, the district court only addressed the
second step—whether BCBSLA abused its
discretion. We take the same approach.80 This is
appropriate because all agree that Encompass’s
services were covered under the plans, and the
only dispute is whether Encompass’s claims are
“duplicative” of other providers.
BCBSLA paid doctors a Global Fee for all
services related to surgeries performed at their
offices. The Global Fee compensated a doctor for
both his professional services and the use of his
facility. But when surgery was done at a hospital
McCorkle v. Metro. Life Ins. Co., 757 F.3d 452, 457 n.10 (5th
Cir. 2014) (alterations and internal quotation marks omitted).
78 Wildbur v. ARCO Chem. Co., 974 F.2d 631, 638 (5th Cir.
1992) (citing Batchelor v. Int’l Bhd. of Elec. Workers Local 861
Pension & Ret. Fund, 877 F.2d 441, 445–48 (5th Cir. 1989)).
79 Bellaire Gen. Hosp. v. Blue Cross Blue Shield of Mich., 97
F.3d 822, 829 (5th Cir. 1996) (citing Sweatman v. Commercial
Union Ins. Co., 39 F.3d 594, 601 (5th Cir. 1994)).
80 See, e.g., McCorkle, 757 F.3d at 457 n.10; Bellaire, 97 F.3d
at 829 (finding abuse of discretion without deciding legal
correctness).
77

29a
or ASC, BCBSLA made separate payments to
those providers to compensate for use of their
facilities and services. In BCBSLA’s view,
Encompass is distinguishable from hospitals and
ASCs because it is only a service provider, not a
physical facility. And for surgery at a doctor’s
office,
BCBSLA’s
fee
already
included
compensation for both his professional services
and a facility. Thus, according to BCBSLA, any
other payment would be duplicative.
This approach is not internally consistent.
BCBSLA admits that the plans cover services like
Encompass’s, but cites no plan language
authorizing it to limit payment based on who
provided the service. 81 Nor does BCBSLA
explain—in terms of the plan—why it may insist
on a Global Fee when surgery is done at a doctor’s
office, but make separate payments when it is done
at a hospital or ASC.82 And when BCBSLA denied
Encompass’s claims, this arrangement was not set
out in any written internal policy.
As for the other two abuse-of-discretion factors,
we first note that the factual background of
BCBSLA’s decision shows equivocation over
whether to do business with Encompass, rather
than a clear understanding that its claims were
See Vega, 188 F.3d at 302 (“[W]e will not countenance a
denial of a claim solely because an administrator suspects
something may be awry. Although we owe deference to an
administrator’s reasoned decision, we owe no deference to the
administrator’s unsupported suspicions.”).
82 See Lain v. UNUM Life Ins. Co. of Am., 279 F.3d 337, 347
(5th Cir. 2002) (“lack of objectivity” suggests abuse of
discretion), overruled on other grounds by Glenn, 554 U.S. at
115–19.
81

30a
improper. 83 As one BCBSLA executive emailed
internally, “Quite honestly, I’m not one hundred
percent sure why we are not contracting with
them, because I don’t believe we have a concrete
policy on this provider type or maybe I missed that
somewhere.”
Finally,
neither
party
cites
regulations that materially affect whether
Encompass’s claims should have been paid.84
In sum, BCBSLA abused its discretion by
arbitrarily denying Encompass’s claims for covered
services, as shown by its inconsistent treatment of
similar providers.
IV. CONCLUSION
We AFFIRM the judgment of the district court.

83
84

See Wildbur, 974 F.2d at 638.
See id.

31a
EDITH H. JONES, Circuit Judge, dissenting:
I respectfully dissent from the majority’s
conclusion upholding the contra non valentem
exception to prescription for this sophisticated
medical services company that was fully
represented by counsel from virtually the moment
it reviewed the Cantrell letter. This is not an issue
on which deference to the jury verdict is required.
The facts are plain and undisputed. Encompass
and its counsel were on more than “inquiry notice”
from the terms of the letter— they had actual
knowledge of the alleged false and defamatory
statements in that letter. Encompass’s counsel
explained the company’s position succinctly in
closing argument. According to him, the letter
contained three “false statements”: Encompass
was not “eligible to participate” in the Blue Cross
networks; facility fees charged by Encompass “are
not covered” even when billed by the network
physician; and Encompass had to be state-licensed
to be “eligible” for reimbursement.
Encompass sued BlueCross BlueShield of
Louisiana (“BCBSLA”) not long thereafter,
following its related suit against Texas Blue Cross,
on a theory of breach of contract arising from this
letter and BCBSLA’s failure to pay Encompass for
its services on behalf of insureds. Encompass knew
from the outset it was “eligible,” and it knew there
was no “state license” requirement. As for the third
falsehood, it knew quite enough, that BCBSLA
was not reimbursing it for in-office surgical
assistance because of the claimed scope of
insurance coverage. Whether coverage denial was
because of the policy language or internal company
policies, or both, or neither, is precisely the kind of

32a
nuance a lawyer should investigate. But it took
Encompass three years after filing suit to add this
intimately related claim for falsehood and
defamation.
“Louisiana courts have held in regard to contra
non valentem that a cause of action becomes
reasonably knowable to a plaintiff at the time legal
counsel is sought.” Derrick v. Yamaha Power
Sports of New Orleans, 850 So.2d 829, 833 (La. Ct.
App. 2003). Moreover, a defendant’s refusal to
provide a document that a plaintiff believes to
contain information adverse to his interests does
not excuse the plaintiff’s lack of diligence in
obtaining the document. Rozas v. Dep’t Health &
Human Res., 522 So.2d 1195, 1197 (La. Ct. App.
1988). See also Greenblatt v. Payne, 929 So.2d 193,
195 (La. Ct. App. 2006) (“[Plaintiff] does not allege
any facts indicating the reason for the passage of
time between April of 2000, when she learned of
the adverse nature of the letter, and July 2003
when her discovery request was granted by
[Defendant’s] counsel.”); Safford v. PaineWebber,
Inc., 730 F. Supp. 15, 17 (E.D. La. 1990)
(“[P]rescription in this case commenced to run
when plaintiff received notice that documents had
been filed by defendant.”).
Importantly,
misleading
conduct
by
a
defendant does not lift the burden of diligence from
a sophisticated plaintiff who knows or reasonably
should know that further inquiry would reveal a
cause of action. Marin v. Exxon Mobil Corp., 48
So.3d 234, 252 (La. 2010). Add to this the insurer’s
refusal to respond to three telephoned requests by
Encompass for an explanation of coverage denial.
Such stonewalling should have heightened

33a
Encompass’s and its lawyers’ diligence rather than
provide an excuse for non-discovery of a new claim.
Although my colleagues have diligently
reviewed Louisiana law on contra non valentem, I
respectfully disagree with their application of
those cases to these facts. I would reverse the
judgment for extracontractual and punitive
damages.

34a
APPENDIX B
IN THE UNITED STATES DISTRICT FOR
THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ENCOMPASS
OFFICE
SOLUTIONS, INC.,
Plaintiff,
v.
LOUISIANA
HEALTH SERVICE
& INDEMNITY
COMPANY d/b/a
BLUE CROSS AND
BLUE SHIELD OF
LOUISIANA,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 3:11-cv-01471-M
[FILED 06/26/2017]

MEMORANDUM OPINION AND ORDER
Before the Court is Defendant’s Renewed
Motion for Judgment as a Matter of Law, Motion
for Reconsideration, and Motion for a New Trial
(ECF No. 577). For the reasons stated below, the
Motion is DENIED.
I. Factual and Procedural Background
Encompass Office Solutions, Inc. is a vendor
that provides equipment for in-office surgical
services that cost less than services performed at a
hospital or ambulatory surgery center. On August
16, 2010, Dawn Cantrell, the Vice President of
network administration at Blue Cross Blue Shield

35a
of Louisiana (“BCBSLA”) sent a letter (the
“Cantrell letter”) to its in-network physicians,
stating that Encompass was ineligible to bill
BCBSLA for its services because certain
Encompass fees were not covered by BCBSLA
policy. 1 Encompass brought this suit in 2011,
alleging that it was entitled to reimbursement from
BCBSLA for services it provided, and that the
entities that had failed to pay had insurance
contracts with Encompass. On February 24, 2012,
Encompass amended its Complaint and added
BCBSLA as a defendant to the contract claims. On
April 4, 2013, Encompass filed its Fifth Amended
Complaint, adding tort claims against BCBSLA,
claiming it recently learned that portions of the
Cantrell letter were false.
On September 17, 2013, Judge Jorge Solis
granted BCBSLA summary judgment on all of
Encompass’ tort claims, and found the statute of
limitations not to have been tolled by the doctrine
of contra non valentem, which is relevant to the
statute of limitations in Louisiana. 2 On April 29,
2014, Judge Solis granted Encompass’ Motion to
Correct the Judgment, denied summary judgment
on the defamation and tortious interference claims,
and held that fact questions existed as to contra
non valentem.3 On October 2, 2014, the case went
to trial, and the jury rendered a take-nothing
verdict on all claims. On June 30, 2015, Judge Solis
granted Encompass’ Motion for a New Trial.4
By the time of the second trial in 2016, Cantrell’s official
position had changed to Vice President of care management.
2 (ECF No. 413).
3 (ECF No. 424).
4 (ECF No. 507).
1

36a
Judge Solis has retired and this case was
reassigned to this Court, which conducted a second
trial beginning on June 20, 2016.5 The jury found
for Encompass on its claims of breach of contract,
defamation, and tortious interference. The jury
also found that the doctrine of contra non valentem
tolled the statute of limitations on Encompass’ tort
claims. BCBSLA sought to overturn the jury’s
verdict by filing a Renewed Motion for Judgment
as a Matter of Law, Motion for Reconsideration,
and Motion for a New Trial. On March 13, 2017,
the Court advised it was denying Defendant’s
requested relief and advising that this opinion
would follow.6
II. Legal Standard
A. Motion for Judgment as a Matter of Law
A court may grant a motion for judgment as a
matter of law if a party has been fully heard on
an issue during a jury trial and the court finds
that a reasonable jury did not have a legally
sufficient evidentiary basis to find for the party
on that issue. Fed. R. Civ. P. 50(a). District courts
“must deny a motion for judgment as a matter of
law unless the facts and inferences point so
strongly and overwhelmingly in the movant’s
favor that reasonable jurors could not reach a
contrary conclusion.” Baisen v. I’m Ready Prod.,
Inc., 693 F.3d 491, 498 (5th Cir. 2012). The Court
denied the motion made at the conclusion of the
Plaintiff’s case, and for the reasons set out below,
does so again because the requisite standard for
granting such a motion has not been met.
5
6

(ECF No. 539).
(ECF No. 593).

37a
B. Motion for Reconsideration
A court may revise any order or other decision
“that adjudicates fewer than all the claims or the
rights and liabilities of fewer than all the parties.”
Fed. R. Civ. P. 54(b). However, motions for
reconsideration should be limited to correct
manifest errors of law or fact or to present newly
discovered evidence, and may not rehash old
arguments, introduce new arguments, or advance
theories of the case that could have been presented
earlier. See LeClerc v. Webb, 419 F.3d 405, 412 n.13
(5th Cir. 2005); see also Wolf Designs, Inc. v.
Donald McEvoy Ltd., No. 3:03-CV-2837-G, 2005
WL 827076 at *1 (N.D. Tex. Apr. 6, 2005) (Fish, J.).
C. Motion for a New Trial
Following a jury trial, a court may grant a new
trial on all or some of the issues and to any party
“for any reason for which a new trial has
heretofore been granted in an action at law in
federal court.” Fed. R. Civ. P. 59(a)(1)(A). Courts
must uphold a jury’s verdict unless the evidence,
viewed in the light most favorable to the prevailing
party at trial, required a reasonable jury to find in
favor of the movant. See Crest Ridge Const. Grp.
Inc. v. Newcourt Inc., 78 F.3d 146, 150 (5th Cir.
1996). Courts should also grant a new trial where
it is “reasonably clear that prejudicial error has
crept into the record or that substantial justice has
not been done.” Sibley v. Lemaire, 184 F.3d 481,
487 (5th Cir. 1999). The party seeking a new trial
bears the burden of proving harmful error. Id.

38a
III.

Analysis

A. Motion for Judgment as a Matter of Law
i. The Jury Reasonably Found Contra Non
Valentem Tolled Prescription
Tort claims in Louisiana are subject to a oneyear statute of limitations. 7 However, under the
doctrine of contra non valentem, the prescription
period in Louisiana does not begin to run if the
“cause of action is not known or reasonably
knowable by plaintiff, even though his ignorance
was not induced by the defendant.” Eldredge v.
Martin Maretta Corp., 207 F.3d 737, 743 (5th Cir.
2000). On April 4, 2013, Encompass first asserted
against BCBSLA tort claims for defamation and
tortious interference. Those claims stemmed from
the Cantrell letter of August 16, 2010. At trial, the
jury found that the doctrine of contra non valentem
tolled Encompass’ tort claims.
BCBSLA argues the prescription period began
to run on August 19, 2010, when Encompass
learned of the Cantrell letter and suffered injury,
and that it thus ran on August 19, 2011, before
the tort claims were added. However, in
evaluating the applicability of contra non
valentem, the Fifth Circuit has distinguished
between awareness of an injury and awareness of
a cause of action. Id. Despite knowledge of an
injury, prescription would not begin to run if
Encompass was “ignorant of the facts upon which
the claim is based as long as the ignorance is not
unreasonable.” Ducre v. Mine Safety Appliances,
963 F.2d 757, 760 (5th Cir. 1992). If Encompass
7

La. C.C. Art. 3492.

39a
was reasonably ignorant about an element of its
claim, the prescription period would not start.
Falsity is an essential element of a defamation
claim under Louisiana law. Costello v. Hardy, 864
So. 2d 129, 139 (La. 2004). The Cantrell letter
indicated that Encompass was ineligible to bill
BCBSLA because company policy 8 dictated
BCBSLA would not cover Encompass’ services.
Encompass did not learn of the alleged falsity of
the Cantrell letter and the lack of such a policy
until she was deposed on February 19, 2013.
Encompass urges that the doctrine of contra non
valentem tolls the prescription period until
February 19, 2013. BCBSLA counters that the
defamation claim was reasonably knowable more
than one year before Encompass asserted it, so
that contra non valentem does not apply.
When prescription begins “depends on the
reasonableness of a plaintiff’s action or inaction.”
Knaps v. B&B Chem. Co., Inc. 828 F.2d 1138,
1140 (5th Cir. 1987). After extensive briefing,
Judge Solis found there was a genuine issue of
fact as to when Encompass could have reasonably
determined the veracity of the Cantrell letter.9 At
the trial before this Court, Encompass presented
evidence that it did not have access to BCBSLA’s
policies when the Cantrell letter came out, and
therefore had no way to assess its accuracy. 10
The alleged policy stated a non-facility provider must seek
payment from the site of service owner. The policy was called
the “Surgical Procedures Performed in the Physician’s and
Other Professional Provider’s Office” policy. (ECF No. 586 at
App. 121).
9 (ECF No. 424).
10 Trial Tr. Volume 1 at 174:18-175:2, 180:14-24 (ECF No.
581); Trial Tr. Volume 2 at 264:21-265:2 (ECF No. 582).
8

40a
Encompass also presented evidence that it
contacted BCBSLA about the policy described in
the Cantrell letter, but never received a
response.11 Further, Dawn Cantrell stated at trial
that no BCBSLA policy substantiated the content
of the Cantrell letter.12
BCBSLA cites Dominion Exploration &
Production v. Waters, 972 So. 2d 350 (La. Ct. App.
2007), for the proposition that when a party is
represented by competent counsel, the doctrine of
contra non valentem is unavailable to that party as
a matter of law. In Dominion, the Louisiana court
of appeals found plaintiff’s inaction in pursuing
potential claims was unreasonable, because it
could have used discovery to learn the necessary
information. Id. at 360-61. One of the factors the
court cited for its decision was that “Dominion was
represented by able counsel as early as May 2004,”
and had “a discovery vehicle available to it in the
ongoing Audit Litigation whereby it could have
reasonably obtained the information it contends
that it needed, but apparently chose not to heed
it.” Id. However, Dominion does not stand for the
proposition that the retention of competent counsel
makes contra non valentem inapplicable per se.
Further, the case at bar is distinguishable from
Dominion, as Encompass used the discovery
process to learn about the veracity of the policy
described in the Cantrell letter. The fact that
Encompass had competent counsel throughout this
litigation was before the jury, but the jury could
have, and apparently did reasonably conclude that
Encompass could not have reasonably known of
11
12

Trial Tr. Volume 2 at 57:24-58:12 (ECF No. 582).
Trial Tr. Volume 3 at 22:6-14, 78:16-81:15 (ECF No. 583).

41a
the accuracy of the Cantrell letter until after April
3, 2012.
BCBSLA further cites Safford v. PaineWebber,
Inc. 730 F. Supp. 15 (E.D. La. 1990) and Neyrey v.
Lebrun, 309 So.2d 722 (La. Ct. App. 1975), two
defamation cases which found contra non valentem
to be inapplicable in defamation cases. However,
Safford is distinguishable, because the plaintiff in
that case knew the defendant made statements
about him to a third party, which he believed to be
false, but never sought to learn the content of the
statements. 730 F. Supp. at 17. The plaintiff knew
or had reason to know the statements in question
were false, so the prescription period was not
tolled by contra non valentem. Similarly, in Neyrey,
the prescription period ran because the plaintiff
knew the defendant made some statement about
him to the state bar, but he never sought to obtain
a copy of the statement to see if it was inaccurate.
309 So. 2d at 723–24. Here, Encompass inquired of
BCBSLA to obtain the policy described in the
Cantrell letter, but it did not receive a response.
That distinguishes this case from Safford and
Neyrey.
The Court finds there was a legally sufficient
evidentiary basis for the jury to conclude that
Encompass established that “it did not know, or
should not reasonably have known, of the false
content in the August 16, 2010, letter before
April 3, 2012.”13

13

Court’s Charge to the Jury (ECF No. 567 at 9).

42a
ii. The Jury Reasonably Found Tortious
Interference With a Business Relationship
Louisiana law requires a plaintiff seeking to
recover on a tortious interference claim to show
that a defendant had actual malice, which is
defined as a “showing of spite or ill will.” JCD
Mktg. Co. v. Bass Hotels & Resorts, Inc., 812 So. 2d
834, 841 (La. Ct. App. 2002). BCBSLA argues that
Encompass did not offer at trial legally sufficient
evidence that proved that BCBSLA acted with
actual malice. At trial, Encompass presented
evidence that: the Cantrell letter was sent to
doctors in BCBSLA’s network, articulating
BCBSLA policies that did not exist, that neither
Cantrell nor three other BCBSLA employees
reviewed health benefit plans before writing the
letter,14 an email from a BCBSLA employee stated
she was unsure why BCBSLA was not contracting
with Encompass because BCBSLA did not have “a
concrete policy on this provider type,” 15 and
testimony that BCBSLA had decided before the
Cantrell letter was sent, and before BCBSLA
investigated, that it would not pay Encompass.16
The Court finds this evidence provides a legally
sufficient basis for the jury to have concluded that
BCBSLA acted with spite or ill will, so that
Encompass could recover for tortious interference
with a business relationship. BCBSLA did not show
that the “facts and inferences point so strongly and
overwhelmingly in the movant’s favor that

Trial Tr. Volume 3 at 50:22-52:22 (ECF No. 583).
Plaintiff’s Trial Exhibit 138 at App. 126 (ECF No. 586).
16 Trial Tr. Volume 2 at 230:6-25 (ECF No. 582); Trial Tr.
Volume 3 at 11:16-20, 73:20-74:5 (ECF No. 583).
14
15

43a
reasonable jurors could not reach a contrary
conclusion.” 693 F.3d at 498.
iii. The Jury Reasonably Found BCBSLA
Abused Its Privilege
The parties do not dispute that as a matter of
law BCBSLA had a qualified privilege to
communicate the Cantrell letter to its in-network
providers. 17 A qualified privilege thus protects
BCBSLA from a defamation claim by Encompass
unless BCBSLA abused its privilege with either
“knowledge of falsity or reckless disregard for
truth.” Kennedy v. Sheriff of E. Baton Rouge, 935
So. 2d 669, 686 (La. 2006). False statements made
“with a high degree of awareness of their probable
falsity” meet the reckless disregard for truth
standard. Id. at 688. BCBSLA argues that based on
the evidence presented at trial, a reasonable jury
would not have a legally sufficient evidentiary
basis to find that BCBSLA abused its privilege.
However, as noted above, Encompass presented
evidence that nobody at BCBSLA reviewed policies
or health benefit plans to verify its policies before
the Cantrell letter was sent, BCBSLA did not have
policies that supported the contents of the letter,
and BCBSLA employees testified to facts that were
at odds with the letter being accurate. This
evidence was legally sufficient to allow a
reasonable jury to conclude BCBSLA acted with a
reckless disregard for the truth and abused its
privilege with respect to the Cantrell letter.

See Order Granting in Part and Denying in Part Motion to
Correct the Judgment (ECF No. 424 at 17).
17

44a
B. Motion for Reconsideration
In response to Encompass’ Fifth Amended
Complaint, BCBSLA raised the affirmative defense
that Encompass’ claims were barred by the health
benefit plans’ anti-assignment language. BCBSLA
previously moved for summary judgment, and
urges the Court to reconsider its motion. Judge
Solis previously denied BCBSLA summary
judgment for two reasons: first, the record did not
indicate a single instance where BCBSLA
attempted to invoke or give effect to the antiassignment clause, and second, BCBSLA paid
money to Encompass directly instead of the
insured. 18 Thus, there was a fact question over
whether BCBSLA waived the anti-assignment
language in the plan. At trial before this Court, the
jury found BCBSLA failed to comply with the
health benefit agreement.
i.

BCBSLA’s
Arguments

Motion

Makes

Improper

Motions for reconsideration may not be used to
rehash rejected arguments or introduce new
arguments, and should be limited to correct
manifest errors of law or fact or to present newly
discovered evidence. LeClerc v. Webb, 419 F.3d
405, 412 n.13 (5th Cir. 2005). BCBSLA does not
present any new evidence that would justify
changing Judge Solis’ Order denying summary
judgment with respect to the anti-assignment
language. BCBSLA instead argues that the Court
should reconsider the Motion for Summary
Judgment because Encompass did not ask the
Court to charge the jury on the anti-assignment
18

(ECF No. 413 at 20-23).

45a
language, and that its failure to do so forecloses
all of Encompass’ claims as a matter of law. In
other words, BCBSLA asserts that because
Encompass did not seek to include in the jury
charge a question on whether BCBSLA waived
the anti-assignment language, Encompass has no
right of action against it for breach of contract.
BCBSLA makes a new argument based on
Encompass’ trial strategy and does not present
any new facts or evidence for its summary
judgment motion.19 BCBSLA also does not seek to
correct any manifest errors of law. Because
introducing new arguments is improper in a
motion for reconsideration, the Court rejects
BCBSLA’s arguments.
ii.

BCBSLA Has the Burden of Proof to Prove
Affirmative Defenses

Contrary
to
BCBSLA’s
assertion
that
Encompass was obligated secure a jury answer on
BCBSLA’s anti-assignment defense, a defendant
bears the burden to establish all of the elements of
its affirmative defenses. See Terrebonne Parish
Sch. Bd. v. Mobil Oil Corp., 310 F.3d 870, 877 (5th
Cir. 2002). BCBSLA did not meet its summary
judgment burden on the anti-assignment issue, so
it had the burden to prove the facts to prevail at
trial. Thus, BCBSLA was required to tender a
proposed instruction and to object to the Court’s
failure to give a jury instruction on its antiassignment defense, but did not do so. See Fed. R.
The Fifth Circuit has repeatedly held that once a trial
begins, summary judgment motions effectively become moot.
Daigle v. Liberty Life Ins. Co., 70 F.3d 394, 396–97 (5th Cir.
1995) (citing Black v. J.I. Case Co., Inc. 22 F.3d 568, 570–71
(5th Cir. 1994)).
19

46a
Civ. P. 51(c). The jury found that BCBSLA failed
to comply with the health benefit agreement, and
in doing so, rejected BCBSLA’s affirmative
defense. BCBSLA urges the Court to reconsider its
motion for summary judgment based on
Encompass’ conduct at trial. However, BCBSLA
has not established its anti-assignment affirmative
defense as a matter of law, nor has BCBSLA
presented new evidence. BCBSLA has not met the
burden required to grant a motion for
reconsideration.
iii.

BCBSLA Rehashes Its Prudential Standing
Argument

BCBSLA also argues Encompass failed to prove
its standing to sue for breach of contract because of
the plans’ anti-assignment language. Though
framed as an Article III constitutional standing
issue, BCBSLA’s claim that Encompass may not
sue under the contract is in fact one of prudential
standing.20 This argument was rejected by Judge
Solis and this Court feels no differently. The issue
presented a fact question, which BCBSLA waived
by not submitting proposed jury instructions on
the assignment.
C. Motion for a New Trial
BCBSLA moves for a new trial based on the
trial testimony of Debbie Woods, chief operating
officer of Encompass, and the instruction that
followed:21
Article III standing requires a party to show 1) injury in
fact, 2) causation, and 3) redressability. See Lujan v. Def. of
Wildlife, 504 U.S. 555 (1992). Encompass has established
these requirements.
21 Tr. Transcript Volume 2 at 49:1-23 (ECF No. 582).
20

47a
Q: So when you received a letter
saying that you were misrepresenting
yourself as an ambulatory surgery
center from Aetna, did you believe
that letter had any merit?
A: No.
Q: And what actions specifically did
you take to address that letter?
A: We had to go ahead and sue Aetna,
and Aetna settled with us.
Mr. Herman: Your Honor, objection.
The Court: All right. All right. Ladies
and Gentlemen, I instruct you to
disregard that. Any resolution that
might have taken place with respect to
another insurance company the Court
has determined as not relevant. You
may not consider that for any purpose.
Let me see you-all at the bench for a
moment.
(Bench conference) The Court: You
had a responsibility to instruct her not
to divulge that. So if you—if you didn’t
like that instruction, the next one is
going to be devastating. Do not let
that happen again. If you need to talk
to her, then do that.
Ms. Ecklund: Yes, Your Honor. (End of
bench conference.)
BCBSLA argues that evidence of Encompass’
settlements with other insurers was so prejudicial
as to cause the jury to be prejudiced and rule for

48a
Encompass in the second trial.22 To alleviate such
possible prejudice, the Court immediately
instructed the jury to disregard such testimony,
and the Court gave an agreed upon instruction to
the jury in the charge not to consider Encompass’
other lawsuits or the outcome of those lawsuits.23
BCBSLA did not object to that provision in the
charge, and a jury is presumed to follow the
Court’s instructions. Wellogix, Inc. v. Accenture,
L.L.P., 716 F.3d 867, 876 (5th Cir. 2013) (citing
Weeks v. Angelone, 528 U.S. 225, 234 (2000)).
BCBSLA has not presented any evidence to
overcome this presumption, nor has it met its
burden to demonstrate that the stricken evidence
interfered with substantial justice. The record
contained sufficient proper evidence for a
reasonable jury to find as this jury did.
IV.

Conclusion

For the reasons stated above, the Defendant’s
Renewed Motion for a Judgment as a Matter of
Law, Motion for Reconsideration, and Motion for a
New Trial is DENIED. The Court will enter a
separate order rendering judgment for Plaintiff.
SO ORDERED.
June 26, 2017.
BARBARA M. G. LYNN
CHIEF JUDGE
BCBSLA also insinuates that Encompass’ counsel
deliberately engaged in misconduct by directing Ms. Woods to
introduce evidence of prior settlements. Notwithstanding its
current position, BCBSLA never moved for a mistrial at any
point. The Court that the steps it took alleviated any
potential prejudice.
23 Tr. Transcript Volume 3 at 282:1-15 (ECF No. 583).
22

49a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ENCOMPASS
OFFICE
SOLUTIONS, INC.,
Plaintiff,
v.
LOUISIANA
HEALTH SERVICE
& INDEMNITY
COMPANY d/b/a
BLUE CROSS AND
BLUE SHIELD OF
LOUISIANA,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 3:11-cv-01471-M
[FILED 06/26/2017]

FINDINGS OF FACT AND
CONCLUSIONS OF LAW
The Court enters the following Findings of Fact
and Conclusions of Law as to the ERISA claims
which were tried to the Court. Other claims and
counterclaims were tried to a jury, which reached a
unanimous decision in the Plaintiff’s favor.
Encompass’ claim against Defendant BlueCross
BlueShield of Louisiana (“BCBSLA”) under Section
502(a)(1)(B) of ERISA and BCBSLA’s counterclaim
against Encompass under Section 502(a)(3) of
ERISA were the issues tried by the Court. Any of
the findings of fact set out below that are properly
considered to be conclusions of law, and vice versa,
shall be so treated.

50a
I.

FINDINGS OF FACT

1.
Encompass provides equipment, drugs,
supplies, and licensed nursing personnel to assist a
physician to perform a surgery in the physician’s
office.
2.
The State of Louisiana does not license
mobile providers of ambulatory surgical care such
as Encompass.
3.
The State of Texas does not license mobile
providers of ambulatory surgical care such as
Encompass.
4.
Encompass is not licensed by the Louisiana
Department of Health and Hospitals or the Texas
Department of State Health Services.
5.
Encompass was accredited for Ambulatory
Health Care by the Joint Commission, effective
April 17, 2009, after it ceased operations in the
State of Louisiana.
6.
Encompass does not participate in BCBSLA’s
provider networks.
7.
Encompass billed $6,200 for the services it
provided to BCBSLA members.
8.
Encompass submitted 143 healthcare claims
to BCBSLA for services it provided for members
whose health benefit plans are governed by ERISA.
Of those 143 claims, 102 have not been paid.
9.
123 BCBSLA participants/beneficiaries with
a health benefit plan governed by ERISA explicitly
assigned their health plan benefits to Encompass.
10.
Twenty BCBSLA participants/beneficiaries
with a health benefit plan governed by ERISA

51a
implicitly assigned their
benefits to Encompass.

health

benefit

plan

11.
BCBSLA paid Encompass directly for 41
healthcare claims that Encompass submitted for
services to BCBSLA members whose health benefit
plans are governed by ERISA.
12.
BCBSLA waived the right to rely on any
clause
prohibiting
assignment
by
its
members/beneficiaries to Encompass, because
BCBSLA made payments directly to, and
communicated directly with, Encompass on certain
claims.
13.
Apart from what it learned in this suit,
Encompass did not know of the existence of an antiassignment clause in any health benefit plan that
BCBSLA administers or insures as to which
Encompass made claims.
14.
BCBSLA sent a letter from its agent, Dawn
Cantrell, to its in-network OB/GYNs stating that
Encompass’ services were not covered by BCBSLA.
BCBSLA intentionally blocked payments to
Encompass in August 2010, and did not pay any
claims submitted by Encompass thereafter. On
October 4, 2010, BCBSLA sent a letter to Robert D.
Gates,
Encompass’
CEO,
demanding
that
Encompass return $109,676.55, the amount that
Encompass had been paid for claims it submitted to
BCBSLA (including claims for which BCBSLA was
only the “host” plan under the BlueCard program).
The evidence proves that BCBSLA would continue
to deny any further claims submitted to BCBSLA
by Encompass.

52a
15.
No BCBSLA agent or representative
reviewed the terms of any benefit plan before
deciding to deny Encompass’ claims.
16.
BCBSLA does not have a written policy
about payment for expenses incurred when an
operating surgeon is paid a fee that includes
payment for the services Encompass provided when
a surgeon performed a surgery in his office.
17.
The services Encompass provided are a
“Covered Service” under the health insurance plans
BCBSLA insures or administers.
18.
BCBSLA did not establish what amount was
an Allowable Charge under the plan(s) or negotiate
a maximum amount allowed for the services
Encompass provides.
19.
In response to the claims Encompass
submitted, BCBSLA sent a number of letters to
Encompass
requesting
information
about
Encompass. Encompass, through its billing
company, responded to those inquiries.
20.
When it denied or failed to adjudicate an
Encompass claim, BCBSLA did not send an
explanation of benefits to Encompass; instead, it
sent an explanation of benefits to the patient.
Because Encompass did not receive explanations of
benefits from BCBSLA, reflecting denial of the
claims at issue in this case, Encompass did not
submit an appeal of any claims not paid by
21.
BCBSLA did not provide notice to
Encompass nor to its patients of any time
limitations provided in the plan for protesting the
declination of benefits by BCBSLA.

53a
II.

CONCLUSIONS OF LAW

1.
Encompass has statutory and Article III
standing to pursue the subject claims.
2.
Whether Encompass was licensed to do
business in the State of Louisiana is irrelevant to
its ability to recover on its claims from BCBSLA.
However, if licensure were required, its
accreditation to do business in the State of
Louisiana retroactively cured any prior license and
registration issues.
3.
The employee benefit plans that BCBSLA
administers that are at issue in this case cover the
services Encompass provided to BCBSLA’s
members.
4.
When BCBSLA denied certain Encompass
claims, it did so with the following explanation:
“Reimbursement considered a portion of another
service which has been allowed. Therefore, no
payment can be made for this service.” BCBSLA is
estopped from advancing any other justification for
denying those particular claims.
5.
No other provider was reimbursed for
providing those services provided by Encompass for
BCBSLA’s members.
6.
BCBSLA
abused
its
discretion
by
interpreting each of the employee benefit plans at
issue in this case to exclude reimbursement for
Encompass’ services on the basis that another
provider had been reimbursed for providing those
services to BCBSLA’s members.
7.
Because BCBSLA did not establish what
amount was an Allowable Charge nor did it
negotiate a maximum amount allowed for the

54a
services Encompass provided, Encompass is
entitled to be paid its billed charge for the services
it provided to BCBSLA’s members.
8.
Even if BCBSLA had not waived the right to
rely on an anti-assignment clause, such clauses are
ineffective to deprive Encompass of standing
because they are void under Texas law for the
patients for whom Encompass provided services in
Texas, because BCBSLA did not introduce evidence
that Encompass had knowledge of the clauses’
inclusion in the health benefit plans BCBSLA
administers.
9.
Encompass could not administratively
appeal any of the claims at issue in this case
because BCBSLA did not issue an explanation of
benefits to Encompass stating that the claims had
been denied and on what basis.
10.
Encompass was excused from exhausting
administrative appeals for claims that BCBSLA
denied because it would have been futile for
Encompass to do so, in light of BCBSLA’s October
4, 2010, demand letter to Encompass, its posture
before and during this litigation that it intended to
reject any claim by Encompass, its long-standing
policy to deny the type of claims Encompass
submits, and its assertion of counterclaims against
Encompass.
11.
Encompass became aware on October 4,
2010, that it was futile for it to exhaust
administrative appeals. Encompass’ claims under
Section 502(a)(1)(B) of ERISA therefore accrued on
that date.
12.
BCBSLA did not provide Encompass, as its
patients’ assignee, with a full and fair review of

55a
assigned claims, in that it did not provide notice to
Encompass or its patients of any deadline in the
plan constituting limitations on the receipt of the
explanations of benefits BCBSLA issued in denying
Encompass’ claims. Those provisions are therefore
unenforceable.
13.
Encompass’ claims for services provided on or
before July 4, 2009, are not barred by any
limitations provisions contained in any of the benefit
plans
that
BCBSLA
administers,
because
Encompass had no notice its claims would be
rejected and never had an opportunity to sue for
those claims. Therefore, such a provision is, as a
matter of law, unreasonable and unenforceable.
14.
94 of the claims on which Encompass seeks
to recover were timely as a matter of law.
15.
Encompass is entitled to recover the benefits
due to it under the benefit plans that BCBSLA
administers, pursuant to 29 U.S.C. § 1132(a)(1)(B).
Benefits due to Encompass are its billed charge of
$6,200 per claim, on 94 claims that BCBSLA failed
to pay for BCBSLA members whose benefit plan is
subject to ERISA. The eight claims for services
provided after October 4, 2010, are untimely.
16.
BCBSLA’s counterclaim to recoup the
benefits it had previously paid to Encompass is
barred by the Louisiana Revised Statute 22:1834
and Louisiana Department of Insurance Regulation
74 § 6015, because BCBSLA’s request for
recoupment was not asserted within 90 days of the
dates of the payments it seeks to recoup, as
Louisiana law requires.
17.
BCBSLA’s counterclaim to recoup the
benefits it previously paid to Encompass does not

56a
seek “appropriate equitable relief . . . to . . . the
terms of the [benefit] plan[s]” at issue in this case.
29 U.S.C. § 1132(a)(3). BCBSLA has not cited a
plan provision that would entitle it to recover any
amounts from Encompass. The benefit plans at
issue only permit BCBSLA to recover payments
made in error for services that are not “covered.”
Because the Court has determined that the services
Encompass provides are “covered,” BCBSLA
abused its discretion by failing to pay Encompass’
claims for benefits. BCBSLA is not entitled to
recover any of the benefits it paid to Encompass
under 29 U.S.C. § 1132(a)(3).
18.
Encompass is entitled to recover its costs of
court and reasonable attorneys’ fees incurred in
pursuit of its claims under 29 U.S.C. §
1132(a)(1)(B) and 29 U.S.C. § 1132(g). Encompass
shall file the appropriate motions by July 30, 2017.
SO ORDERED.
June 26, 2017.

BARBARA M. G. LYNN
CHIEF JUDGE

57a
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 17-10736
________________
ENCOMPASS
INCORPORATED,

OFFICE

[FILED
4/16/2019]

SOLUTIONS,

Plaintiff - Appellee
v.
LOUISIANA HEALTH SERVICE & INDEMNITY
COMPANY,
doing
business
as
BlueCross
BlueShield of Louisiana,
Defendant – Appellant
________________
Appeal from the United States District Court for
the Northern District of Texas
________________
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion March 19, 2019, 5 Cir., ___ F.3d ___ )
Before JONES, BARKSDALE, and WILLETT,
Circuit Judges.
PER CURIAM:

58a
(X) The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for
Rehearing En Banc is also DENIED.
( ) The Petition for Rehearing is DENIED and the
court having been polled at the request of one of
the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for
Rehearing En Banc is also DENIED.
( ) A member of the court in active service having
requested a poll on the reconsideration of this
cause en banc, and a majority of the judges in
active service and not disqualified not having
voted in favor, Rehearing En Banc is DENIED.
ENTERED
COURT:

FOR

THE

________________________
UNITED STATES CIRCUIT
JUDGE

__________________
*Judge Haynes did not participate
consideration of the rehearing en banc.

in

the

59a
APPENDIX E
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
________________
No. 17-10736
________________

United States Court of
Appeals
Fifth Circuit

FILED
March 19, 2019
Lyle W. Cayce
Clerk

D.C. Docket No. 3:11-CV-1471
ENCOMPASS
INCORPORATED,

OFFICE

SOLUTIONS,

Plaintiff - Appellee
v.
LOUISIANA HEALTH SERVICE & INDEMNITY
COMPANY,
doing
business
as
BlueCross
BlueShield of Louisiana,
Defendant – Appellant
Appeal from the United States District Court for
the Northern District of Texas
Before JONES, BARKSDALE, and WILLETT,
Circuit Judges.
JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.
It is ordered and adjudged that the judgment
of the District Court is affirmed.

60a
IT IS FURTHER ORDERED that defendantappellant pay to plaintiff-appellee the costs on
appeal to be taxed by the Clerk of this Court.
EDITH H. JONES, Circuit Judge, dissenting.

61a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ENCOMPASS
OFFICE
SOLUTIONS, INC.,
Plaintiff,
v.
LOUISIANA
HEALTH SERVICE
& INDEMNITY
COMPANY d/b/a
BLUE CROSS AND
BLUE SHIELD OF
LOUISIANA,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 3:11-cv-01471-M
[FILED 06/26/2017]

FINAL JUDGMENT
On June 20, 2016, the Court called this case for
trial. Plaintiff Encompass Office Solutions, Inc. and
Defendant Louisiana Health Service & Indemnity
Co. d/b/a Blue Cross Blue Shield of Louisiana
appeared in person and through their attorneys
announced ready for trial. The Court determined
that it had jurisdiction over the subject matter and
the parties in the case. The Court then impaneled
and swore in the jury, which heard the evidence
and arguments of counsel. At the conclusion of the
evidence, the Court submitted definitions,
instructions, and questions to the jury. After
deliberation, the jury returned and announced its
verdict in open court, which verdict was unanimous

62a
and duly received and filed by the Court. The jury’s
verdict was in favor of Plaintiff Encompass Office
Solutions, Inc.
The Court has entered its Findings of Facts and
Conclusions of Law in favor of Encompass as to the
ERISA claims, which were tried to the Court.
IT
IS
THEREFORE
ORDERED
and
ADJUDGED that Encompass Office Solutions, Inc.
shall recover from Louisiana Health Service &
Indemnity Co. d/b/a Blue Cross Blue Shield of
Louisiana as follows:
(1) Encompass Office Solutions, Inc. shall recover
from Louisiana Health Service & Indemnity Co.
d/b/a Blue Cross Blue Shield of Louisiana, the
following amounts: (a) $7,353,010.00, in actual
damages based on Plaintiff’s tort claims; (b)
prejudgment interest on that amount of
$1,167,617.70 (calculated at the rate of 4% per
annum from April 4, 2013 until March 23,
2017); (c) additional prejudgment interest of
$805.81 per day from March 24, 2017 until the
day before this Judgment is entered; (d)
$182,500.00 in actual damages on Plaintiff’s
breach of contract claims; (e) prejudgment
interest on contract damages for $37,080.00
(calculated at the rate of 4% per annum from
February 24, 2012 until March 23, 2017); (e)
additional prejudgment interest of $20.00 per
day from March 24, 2017 until the day before
this Judgment is entered; (f) $582,800.00 in
actual damages on Plaintiff’s ERISA claims; (g)
prejudgment interest on ERISA claims of
$118,502.67 (calculated at the rate of 4% per
annum from February 24, 2012 until March 23,
2017); and (h) additional prejudgment interest

63a
of $69.30 per day from March 24, 2017 until the
day before this judgment is entered. The total
amount of recovery on all claims is
$9,525,650.71, excluding post-judgment interest
and attorneys’ fees.
(2) The total award of actual damages and
prejudgment interest shall bear post-judgment
interest at the rate of 1.21% per annum,
compounded annually, from the date judgment
is signed until the day judgment is satisfied.
IT IS FURTHER ORDERED that taxable costs
of court are to be paid by Louisiana Health Service
& Indemnity Co. d/b/a Blue Cross Blue Shield of
Louisiana. Encompass Office Solutions, Inc. may
seek attorneys’ fees by separate motion to be filed
by July 30, 2017.
SO ORDERED.
June 26, 2017.

BARBARA M. G. LYNN
CHIEF JUDGE

64a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ENCOMPASS
OFFICE
SOLUTIONS, INC.,
Plaintiff,
v.
LOUISIANA
HEALTH SERVICE
& INDEMNITY
COMPANY d/b/a
BLUE CROSS AND
BLUE SHIELD OF
LOUISIANA, and
BLUECROSS
BLUESHIELD OF
TENNESSEE, INC.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

3:11-cv-1471-P
[FILED 04/29/14]

ORDER
Now before the Court is Defendant BlueCross
and BlueShield of Louisiana’s Motion to Correct
Judgment, filed on October 15, 2013. Doc. 418.
Plaintiff filed a Response on November 5, 2013.
Doc. 421. Defendant filed a Reply on November 7,
2013. Doc. 422.
Also before the Court is Plaintiff Encompass
Office Solutions, Inc.’s Motion to Reconsider and, in
the Alternative, Motion to Certify Controlling
Question of Law for Immediate Appeal, filed on
October 4, 2013. Doc. 416. Defendant filed a

65a
Response on October 15, 2013. Doc. 417. Plaintiff
filed a Reply on October 29, 2013. Doc. 420.
After reviewing the parties’ briefing, the
evidence, and the applicable law, the Court treats
Defendant’s Motion to Correct Judgment as a
Motion to Reconsider and GRANTS IN PART and
DENIES IN PART its motion. The Court GRANTS
IN PART and DENIES IN PART Plaintiff’s Motion
to Reconsider and, in the Alternative, Motion to
Certify Controlling Question of Law for Immediate
Appeal. Consequently, the Court modifies its
previous Order, dated September 17, 2013, in
accordance with the following opinion.
I. Background
The general background of the case can be found
in the Court’s Order dated September 17, 2013
(“Summary Judgment Order”). The gist is that
Encompass
Office
Solutions
(“Encompass”)
provided certain services to patients insured by
BlueCross
and
BlueShield
of
Louisiana
(“BCBSLA”). For some time, BCBSLA covered the
procedures
performed
by
Encompass,
but
ultimately changed its mind and rejected the
claims. Both Encompass and BCBSLA moved for
summary judgment on a barrage of issues. The
Court granted in part and denied in part both
motions and granted a separate summary
judgment motion on Encompass’s three tort claims.
Now both parties want the Court to revisit its
Summary Judgment Order by ruling on
unaddressed issues and revising certain portions.

66a
II. Reconsideration Of An Interlocutory Order
Before Final Judgment
“[A]ny order or other decision ... that adjudicates
fewer than all the claims or the rights and
liabilities of fewer than all the parties does not end
the action as to any of the claims or parties and
may be revised at any time before the entry of a
judgment adjudicating all the claims and all the
parties’ rights and liabilities.” Fed. R. Civ. P. 54(b).
Whether to grant a motion to reconsider is in the
discretion of the court. United States v. Renda, 709
F.3d 472, 478-79 (5th Cir. 2013). A district court
may reconsider a prior interlocutory order “for any
reason it deems sufficient.” Saqui v. Pride Cent.
Am., LLC, 595 F.3d 206, 210-11 (5th Cir. 2010).
Parties should not use a motion to reconsider as an
opportunity to rehash old arguments or raise
arguments that could have been presented earlier.
Arrieta v. Yellow Tramp., Inc., No. 3:05-CV-2271-D,
2009 WL 129731, at *1 (N.D. Tex. Jan. 20, 2009).
After reviewing the issues in the briefing, the
Court agrees that re-consideration of the Summary
Judgment Order is appropriate. The order is only
modified with respect to the issues addressed by
the Court in this Order; the rest of the Summary
Judgment Order remains intact.1
BCBSLA filed its motion to correct judgment under Fed. R.
Civ. P. 60(a). As Encompass correctly points out, Rule 60(a) is
an improper vehicle to substantively reconsider an
interlocutory order. See Rivera v. PNS Stores, Inc., 647 F.3d
188, 193-94 (5th Cir. 2011) (“To be correctable under Rule
60(a), the mistake must not be one of judgment or even of
misidentification, but merely of recitation, of the sort that a
clerk or amanuensis might commit, mechanical in nature.”)
(internal quotations omitted). However, in the interest of
1

67a
III. Summary Judgment Standards
The same summary judgment standards that
applied to the Court’s Summary Judgment Order
apply to its reconsideration of those issues here.
IV.

Unaddressed
Issues
Judgment Motions

In

Summary

BCBSLA argues that it moved for summary
judgment on three categories of claims, but that the
Court failed to address its arguments.
The first category is a group of 13 claims
covered under the Federal Employee Health
Benefit Act (“FEHBA”). The second category is a
single claim that was outside of the service dates
for the respective patient. Encompass agrees that it
is no longer seeking recovery on the FEHBA claims
and does nothing to contest the outside-coverage
claim. Doc. 330 at 2 (admitting in a statement of
uncontested facts that it cannot recover on those
claims); Doc. 421 at 4. Consequently, the Court
GRANTS summary judgment as to the 13 claims
covered by FEHBA and the single claim outside of
the service dates.
The third category is not as straightforward, but
also went un-addressed in the Summary Judgment
Order. In its original motion, BCBSLA argued that
it deserved summary judgment on claims from
patients “covered under health benefit plans issued
or administered by BCBSLA.” See Doc. 323 at 14.
As evidence, it offered business records showing
that the individuals were covered by BlueCross and
efficiency and justice, the Court interprets BCBSLA’s motion
as a motion for reconsideration under Rule 54(b), the same
provision that Encompass has availed itself of.

68a
BlueShield programs in other states. See Doc. 301-2
at 45-47 (affidavit and business record identifying
home plans); see also Doc. 301-3 at 24-50, 301-4 at
1-15 (underlying business record). The only place
that Encompass contested the issue was in its
response to BCBSLA’s Statement of Uncontested
Facts, arguing that the claims were “blocked due to
the block 2 that BCBSLA placed on Encompass’s
claims.” Doc. 330 at 2. To support that assertion,
Encompass cited a group of emails about the
institution of a block on Encompass claims, Doc.
288-9 at 1-7, a project management document
detailing the block, see Doc. 288-12 at 8, and
deposition testimony about the block. In the
current briefing, Encompass states, “There is no
dispute that those claims were submitted to
BCBSLA as the ‘host plan’ under the BCBS
Interplan (or Blue Card) program, and that
BCBSLA blocked all of Encompass’s claims from
being processed whatsoever.” The implication is
that BCBSLA may play some role that makes it an
“administrator” of the individuals’ plans.
Neither party has adequately explained the
details surrounding these claims. BCBSLA failed to
make an initial showing that it cannot be held
liable for those individuals being denied benefits.3
While none of Encompass’s evidence does a good job
of showing why BCBSLA should be held liable, it is
not its burden to carry. The evidence and law on
these claims is too muddled to grant summary
The “block” refers to when BCBSLA instituted an internal
policy to reject all claims made by Encompass.
2

Encompass mentions that almost all of the claims have been
settled with other parties, but again fails to provide evidence
that those claims were part of other settlement discussions.
3

69a
judgment. Therefore, the Court DENIES summary
judgment as it applies to all claims filed by
individuals not insured by BCBSLA.
V. Litigation Limitations Period
Encompass requests the Court re-consider its
ruling regarding the time limit set by the plan for
beneficiaries to sue.
The plans that Encompass seeks to recover on
include a provision that limits the time a
beneficiary has to sue for benefits: “No lawsuit may
be filed: any earlier than the first sixty (60) days
after notice of Claim has been given; or any later
than fifteen (15) months after the date services are
rendered.” Doc. 288-10 at 89. Early on, BCBSLA
initially accepted many of Encompass’s claims,
making a lawsuit unnecessary. However, in early
2010,
BCBSLA
gradually
began
denying
Encompass’s claims, culminating in a letter sent on
October 4, 2010. In it, BCBSLA informs Encompass
that it “advised [its] Providers that Encompass’
services for our members are not covered, even if
the service is billed by the Provider.” Doc. 288-4 at
3-4. It included a spreadsheet of previously
accepted claims that it was then rejecting and
seeking repayment for. See Doc. 288-4 at 5-6.
BCBSLA also rejected any new claims that
Encompass filed after the letter was sent. In
February 2012, Encompass named BCBSLA in this
suit, seeking payment for the rejected claims.
BCBSLA argues that Encompass may not sue
on any claim for services rendered more than 15
months before the date Encompass filed suit. That
includes both claims identified in the October 2010
letter as well as other claims that BCBSLA never

70a
accepted. Originally the Court granted BCBSLA
summary judgment for all claims that were for
dates of service before November 24, 2010. See Doc.
413 at 26-27. With the benefit of Supreme Court
guidance on the issue of limitations periods in
ERISA plans, the Court now believes that its
Summary Judgment Order was incorrect.
Consequently, the Court modifies the Summary
Judgment Order and GRANTS IN PART and
DENIES IN PART BCBSLA’s Motion for Summary
Judgment on the claims brought outside the 15month period.
a. The Supreme Court’s Recent Decision On
ERISA Limitations Periods
The guidance from the Supreme Court came in
December 2013 when it decided Heimeshoff v.
Harford Life & Accident Insurance Co., 134 S. Ct.
604 (2013). The facts were similar to this case,
albeit for a disability insurance claim. The plaintiff
first filed a claim in August 2005, followed by a
series of events that dragged out the process until a
final denial in November 2007. It was not until
November 2010 that she decided to file a lawsuit.
But the plan contained a limitation provision that
barred suits filed “more than 3 years after the time
written proof of loss is required to be furnished
according to the policy.” Id. at 609 (internal
alterations omitted). Because the limitations period
commenced from proof-of-loss date (which was
sometime in 2005)—not the date of final denial
(which was in November 2007)—her suit was
outside the limitations period and therefore was
barred.
The Court rejected the plaintiffs’ attempt to
invalidate the limitations provision. “Absent a

71a
controlling statute to the contrary, a participant
and a plan may agree by contract to a particular
limitations period, even one that starts to run
before the cause of action accrues4, as long as the
period is reasonable.” Id. at 610. That the accrual
date of a claim was different than the
commencement date of the limitations was
inconsequential. Id. at 610-12. The real issue was
whether the time from accrual to the expiration of
the limitations period was unreasonable. See id. at
612 (evaluating the time period “on its face” and
based on how much time would be left to file suit
after accrual of a claim). In Heimeshoff’s case,
beneficiaries effectively had 20 months to file suit,
which was reasonable. Id. The only example the
Supreme Court gave of an unreasonable time
period was one that completely barred individuals
from filing suit. See id. at 613 (drawing on
Occidental Life Ins. Co. of Cal. v. EEOC, 432 U.S.
355 (1977)). But concluding that the limitations
period was reasonable was not the end. The Court
went on to explain that plaintiffs can still resort to
“one of the traditional defenses to a statute of
limitations,” id. at 614, such as waiver or estoppel,
id. at 615, to avoid harsh application of a
limitations provision; state tolling rules, however,
do not apply. Id. at 616.
Heimeshoff, thus, identifies two ways that
beneficiaries may avoid a limitations provision.
First, the beneficiary can show the time from
In a typical ERISA case, the cause of action does not accrue
until a beneficiary has exhausted administrative appeals
procedures. Consequently, in Heimeshoff’s case the cause of
action did not accrue until November 2007 when the final
appeal was denied.
4

72a
accrual of a claim to expiration of the limitation
provision is so short it is unreasonable. Second,
plaintiffs can rely on traditional defenses to a
statute of limitations.
In the Summary Judgment Order, this Court
briefly analyzed the limitations period and
considered it reasonable. The Court also, sua
sponte, considered whether equitable estoppel of
the limitations period applied and concluded it
might. But because Encompass failed to bring suit
within 15 months after it received notice that
BCBSLA intended to reject the claims—the date
the Court believed equitable estoppel tolled the
limitations period until—the Court found that not
even that would help Encompass. Now, the Court
re-evaluates whether the limitations period is
reasonable in light of Heimeshoff, the only binding
precedent on the issue.
b. Is The Limitations Period Unreasonable?
To determine whether the limitations period is
reasonable requires understanding the mechanics
of limitations period under ERISA and identifying
the right method to evaluate it.
Under BCBSLA’s plans, the limitations period
expires fifteen months after the date the services
are rendered. Of course nothing is per se wrong
with a fifteen-month limitation. But people do not
leave the doctor’s office knowing they will need to
sue their insurance company for declining a claim.
It is not until they have a final denial that people
expect to sue—or even have an accrued claim to
sue. Id. at 610 (“A participant’s cause of action
under ERISA accordingly does not accrue until the
plan issues a final denial.”) For that to happen

73a
under the plans in this case, the patient’s provider
has to file the claim with BCBSLA. The plan
“encourage[s] providers to file claims in a form
acceptable to [BCBSLA] within ninety (90) days
from the date of services are rendered, but no later
than fifteen (15) months after the date of service.”
Doc. 288-10 at 88. Neither party indicates that the
plan requires BCBSLA to respond to the claim
within a certain amount of time and the Court’s
independent examination of the plan’s terms did
not reveal a time limit. After BCBSLA denies a
claim—whenever that is—BCBSLA requires
beneficiaries to file a mandatory appeal within 180
days of denial. Doc. 288-10 at 98. Once an appeal is
taken, BCBSLA has up to 45 days to accept or
reject the appeal. Doc. 288-10 at 98. All of that
must happen before an individual has the
opportunity to sue.
Those are the mechanics of the limitations
period—now to evaluate it. A few potential methods
for determining whether a limitation period is
unreasonable present themselves. First, courts
could evaluate how much time a typical claim
would take, taking into account the plan specifics
and past industry performance. The Supreme Court
used that approach in Heimeshoff when it discussed
how long before “mainstream claims” accrue. Id. at
9. Second, courts could look at how a specific claim
was actually handled in practice. While Heimeshoff
did not focus on that method, it applied it in
passing. See id. (“Even in this case, where the
administrative review process required more time
than
usual,
Heimeshoff
was
left
with
approximately one year in which to file suit.”). And
it is the same method Judge Haynes advocated for

74a
in her dissent in the unpublished Fifth Circuit case,
Baptist Memorial Hospital.—DeSoto Inc. v. Crain
Automotive. Inc., 392 F. App’x 288, 299 (5th Cir.
2010) (unpublished) (“[I]n ascertaining whether the
period of limitations was ‘reasonable,’ I would
consider only how the limitations period applied
under the facts of this case.”). Finally, courts could
evaluate how much time would be left to a
beneficiary if claims processing took the maximum
amount of time under the plan. The panel majority
in Baptist Memorial Hospital used that method,
what Judge Haynes referred to as the “worst case
scenario” method. See id. at 295 (evaluating the
limitations period based on each step taking as long
as possible); id. at 300 (Haynes, J., dissenting)
(“[T]he majority opinion assesses the contractual
limitations period under a ‘worst case scenario’
approach to conclude that a fully exhausted claim
could leave a party with only thirty-five days to file
suit.”) (emphasis in original). At least one of these
three
methods—”mainstream
claim,”
“case
specific,” or “worst case scenario”—must be used to
assess the reasonableness of a limitations period
and it may be that more than one may be used.
And it does matter which may be used. Both the
“mainstream claim” and “worst case scenario”
methods invalidate limitations periods facially.
Under them, if Encompass shows the limitations
period is unreasonable, then the limitations period
would not apply to any of the claims. The “case
specific” method, however, depends on the events
surrounding the processing and treatment of a
particular claim. To show the limitations period is
unreasonable, a plaintiff would have to
demonstrate that the execution of the limitations

75a
period was unreasonable under the particular
circumstances of that claim.
Because Heimeshoff suggests that both the
mainstream claim and the case specific methods
apply, the Court adopts them.
The “worst case scenario” method, however, is
inappropriate for a couple reasons. First, the Court
is not bound to apply it. True, the Baptist Memorial
Hospital majority used it in their unpublished
opinion, but they provide no authority for taking
such an approach. Second, it is at odds with
Heimeshoff’s approach which looks at how claims
are processed in the real world, not under the
assumption that ERISA plan administrators are
working to bar all claimants from court.
Heimeshoff, 571 U.S. __, at 12 (“The United States
suggests that administrators may attempt to
prevent judicial review by delaying the resolution
of claims in bad faith. But administrators are
required by the regulations governing the internal
process to take prompt action, and the penalty for
failure to meet those deadlines is immediate access
to judicial review for the participant.”). Since
neither precedent nor common sense support
applying the “worst case scenario” method, the
Court declines to use it.
Now that the Court has established what
methods to use to determine if the limitations
period is unreasonable—the “mainstream claim”
and the “case specific” methods—it will apply them.
Encompass fails to show that the limitations
period should be considered unreasonable under
the “mainstream claim” method. The party seeking
to invalidate a limitations period bears the burden

76a
of showing it is unreasonable. And, on that issue,
the record is decidedly silent. Encompass has not
provided any information about how long a typical
claim takes to process. Without establishing that
measuring stick, the Court cannot invalidate the
limitations period.
That leaves the Court with the unenviable task
of applying the “case specific” method.
Rather than looking at claims or plan terms
generically, the Court must look at each claim
individually and determine whether the time
afforded was reasonable. As in Heimeshoff, the
focus is on the effective time to sue—that is the
amount of time an individual has to sue after a
claim accrues, but before the expiration of the
limitations period. The reasonableness of the
effective time to sue depends, in part, on the
actions of both parties with respect to the benefits
processing. Any claim that accrues after the
expiration
of
the
limitations
period
is
presumptively unreasonable, unless the party
seeking to enforce the limitations period can
attribute fault for the claim’s delayed accrual to
unreasonable actions by the party seeking to
invalidate it.
The limitation period is clearly unreasonable
with respect to some of Encompass’s claims. In
BCBSLA’s October 2010 letter to Encompass, it
reneged on payment for a long list of claims. This
was the first time these claims could have accrued
since Encompass had no notice they would be
rejected. And some of the claims on the list were
more than 15 months old, meaning that Encompass
never had an opportunity to sue for them. See, e.g.,
Doc. 288-4 at 5 (Patient T.E. had a date of service

77a
on August 24, 2007). The limitations period is
unreasonable with respect to any claim included in
BCBSLA’s October 2010 letter that was for services
rendered more than 15 months earlier.
The rest of the claims—both identified in
BCBSLA’s October 2010 letter and listed in its
business records, see Doc. 301-3 at 6—are a mixed
and convoluted bag. The date the claims accrue is
critical to analyzing the reasonableness of a
limitations period, and here it is almost impossible
to pinpoint. Typically a claim accrues once
administrative procedures are exhausted. In this
case, however, Encompass raised a genuine issue of
material fact that it should be excused from
exhausting its claims because further appeals
would have been futile. See Doc. 413 at 28-33.
Futility essentially accelerates the time an ERISA
claim accrues because beneficiaries are excused
from exhausting administrative claims. So, in this
case, the claims accrued when Encompass was on
notice that it was futile to pursue further
administrative procedures.
Specifying that exact date in this case is difficult
for two reasons. First, as of right now, a finding of
futility is not definitive. Encompass used the
potential of futility to stave off BCBSLA’s request
for summary judgment. The legal question of
whether futility applies still depends on the
development of factual information at trial. Second,
even assuming futility applies, the record is unclear
as to when Encompass was on notice of it. The
Summary Judgment Order permitted the futility
argument to proceed to trial based on the
combination (1) a letter sent by BCBSLA to
providers notifying them that Encompass claims

78a
would be blocked and (2) Encompass’s exhaustion
of a single claim that was rejected. However,
neither party has provided sufficient evidence for
the Court to establish when that date was. Without
knowing when Encompass’s claims accrued, the
Court cannot evaluate whether the limitations
period was reasonable for the remaining claims
under the “case specific” method.
Though the Court cannot establish a specific
date, it can, however, conclude that it would not
have extended past receipt of the October 2010
letter. If exhaustion was futile, Encompass would
have all of the necessary information to establish
futility through that letter. Some of the claims that
Encompass is suing on were for dates of service
after October 4, 2010. See, e.g., Doc. 301-3 at 6
(Patient 18 B.B., Patient 31 D.B.) As applied to
those claims, the 15-month limitations period was
reasonable. Encompass would have had notice of
futility and could have pursued litigation
immediately, giving it a full 15-months to bring
suit on those claims.
The end result is this. The limitations period is
unreasonable with respect to claims identified in
the October 2010 letter that were for dates of
services more than 15 months before that letter.5
The limitations period is reasonable for claims filed
after October 4, 2010. And everything between is
unsettled because the Court has not definitively
concluded that futility applies and, even if it does,
For these claims, the limitations provision falls out and is
replaced by the state statute of limitations. Under Louisiana
law, that is ten years. See Total Sleep Diagnostics, Inc. v.
Unit. Healthcare Insurance Co., Civ. Action No. 06-4153, 2009
WL 152537, at *6 (E.D. La. Jan. 21, 2009).
5

79a
the date that Encompass was on notice that it
applies is undetermined.
In modification of the Summary Judgment
Order, the Court GRANTS BCBSLA’s Motion for
Summary Judgment on claims filed between
October 4, 2010, and November 24, 2010. 6 The
Court DENIES BCBSLA’s Motion for Summary
Judgment with regards to the other claims. The
issues of (1) whether exhaustion was futile and (2)
what date Encompass knew they exhaustion would
be futile are reserved for trial. From that, the Court
will determine whether limitations period was
reasonable with respect to the remaining ERISA
claims.
VI. Tort Claims
In the Summary Judgment Order, the Court
granted
BCBSLA
summary
judgment
on
Encompass’s three tort claims—defamation,
business disparagement, and tortious interference
with prospective business relations—because it
found them time barred under Louisiana law.
Encompass now requests that the Court re-consider
the issue. After another review, the Court believes
that Encompass has raised a genuine issue of
material fact about whether contra non valentem
tolled the running of the prescription period.
Consequently, the Court revises its order and
addresses the other arguments that BCBSLA
raised against Encompass’s three tort claims.
To be clear, the Court withdraws its application of equitable
estoppel. Encompass focused its argument on whether the
limitations period was unreasonable and the Court need not
pass on whether equitable estoppel provides a better result
than what Encompass has achieved.
6

80a
a.

Prescription
Valentem

Period

And

Contra

Non

All of the tort claims revolve around a letter
that BCBSLA sent to providers in August 2010.
The letter was an effort to discourage them from
using Encompass’s services. It contains three
specific claims (identified in the accompanying
footnote) 7 that Encompass believes give rise to
defamation, business disparagement, and tortious
interference with prospective business relations.
Those tort claims are all subject to a one-year
prescription period that runs from the date of
injury. La. Civ. Code. Ann. art. 3492. The parties
agree that injury occurred when the letter was sent
and that the suit was filed more than one year after
that. What they disagree on, is whether the
limitations period was tolled.
Under the Louisiana doctrine of contra non
valentem, a prescription period does not “commence
For ease of reference, the Court will list out the statements
and accompanying short-hand appellation. All statements are
found at Doc. 288-4 at 2:
Out-of network Provider Statement : “Encompass is not
eligible to participate in the Blue Cross networks and is
considered an out-of-network provider.”
Facility Fees Statement: “The facility fees charged by
Encompass are not covered, even when they are billed by
a network physician.... Encompass would have to be a
Louisiana licensed DHH-approved ambulatory surgery
facility in order to be eligible for benefit payments for
these facility charges.”
Network Termination Statement: “If we find that any
network physician is repeatedly using Encompass to
deliver facility and procedure services that are not eligible
for benefits and our members are being billed for these
facility charges, the network physician will be subject to
termination from the Blue Cross networks.”
7

81a
to run until plaintiff has actual or constructive
knowledge of the tortious act, the damage and the
causal relation between the tortious act and the
damage.” Duhon v. Saloom, 323 So. 2d 202, 204
(La. Ct. App. 1975). The Fifth Circuit has stated
that the action must be known or “reasonably
knowable.” Eldredge v. Martin Marietta Corp., 207
F.3d 737, 743 (5th Cir. 2000). “When prescription
begins to run depends on the reasonableness of a
plaintiff’s action or inaction.” Knaps v. B&B
Chemical Co., 828 F.2d 1138, 1140 (5th Cir. 1987)
(citations omitted) (citing Jordan v. Emp. Transfer
Corp., 509 So.2d 420, 423 (La. 1987)).
The heart of Encompass’s argument is that
contra non valentem applies because they could not
have known the statements were false as long as
BCBSLA maintained that they had a policy against
reimbursing providers like Encompass. See Doc.
416 at 7-8 (“While Encompass had knowledge that
the letter had been sent in the fall of 2010, it had
no reason to know that the statements in the letter
were false, and therefore actionable, until February
2013.”). Even until the early stages of this suit,
BCBSLA averred that it had such a policy. For
example, in BCBSLA’s Answer to Encompass’s
Fourth Amended Complaint, filed on January 4,
2013, it quoted an alleged “global fee” policy that
“[w]hen performing surgical procedures in a nonfacility setting, the physician’s and other
professional provider’s reimbursement is all
inclusive.” Doc. 217 at 34. Therefore, Encompass
argues, the first time it could have known that
these statements were false was on February 19,
2013, after depositions of BCBSLA employees
revealed that the alleged policy did not exist at all.

82a
Encompass has raised a genuine issue of
material fact as to whether contra non valentem
applies. Initially the Court concluded it did not
because Encompass “enjoyed every reasonable
opportunity to investigate the statements in the
letter and file suit within one year to conduct
further discovery on the matter.” Doc. 413 at 46. A
second-look at the issue has shown that the
circumstances surrounding BCBSLA’s policies may
have made it impossible for Encompass to discover
the falsity of the statements. Encompass has
argued and BCBSLA does not contest—that
“knowledge of the falsity was uniquely restricted to
BCBSLA.” Doc. 416 at 9. “When prescription begins
to run depends on the reasonableness of a
plaintiff’s action or inaction.” See Knaps, 828 F.2d
at 1140. Neither party has provided sufficient
evidence about whether Encompass could or could
not reasonably determine the existence of the
policy; both sides’ arguments consist largely of
naked assertions that they could or could not find
out. 8 Background information about the
availability of the policy information is critical to
apply contra non valentem. Without sufficient
evidence to show that Encompass could not
determine the policy’s existence, BCBSLA fails to
In the briefing, Encompass argues that prescription is
unconcerned with “whether plaintiff had a reasonably
opportunity to investigates its claim.” But not taking a
reasonable “opportunity to investigate its claim” is precisely
the kind of “inaction” that would allow the prescription period
to run. If the record were clear that Encompass could have
discovered that the statements were false by investigating the
claim, then contra non valentem would not apply. However,
because it is unclear, the Court cannot grant summary
judgment on the issue.
8

83a
meet its summary judgment burden. The Court
revises its previous order and DENIES BCBSLA’s
Motion for Summary Judgment on Three Tort
Claims based the prescription period.9
Because the Court has revised its order, it must
now evaluate un-reached arguments posed in the
original briefing.
b. Business Disparagement
Encompass cannot bring a claim for business
disparagement because “Louisiana law does not
recognize disparagement as an independent tort.”
Lamar Adver. Co. v. Cont’l Cas. Co., 396 F.3d 654,
664 (5th Cir. 2005). Instead, it merges with
defamation. Id. Consequently, the Court GRANTS
BCBSLA’s Motion for Summary Judgment on
Three Tort Claims as it applies to Encompass’s
claim for business disparagement.
c. Defamation
BCBSLA moves for summary judgment on the
Encompass’s defamation claims on two other
grounds: first, that the statements are subject to a
qualified privilege that prevents liability; second,
that Encompass has conceded the statements are
true.

BCBSLA also asserted that contra non valentem should not
apply because “it sued another major health insurer for
defamation six weeks before the Cantrell Letter based on
virtually identical statements.” Doc. 378-1 at 14. Even if the
statement at issue in the other suit was identical to the one in
BCBSLA’s letter—it’s not—it is only a single one of the
statements that Encompass objects to; the suit against
BCBSLA features statements on subjects not covered in the
other suit.
9

84a
The first argument—that BCBSLA enjoyed a
qualified privilege to make the statements—hinges
on a genuine issue of material fact. Qualified
privilege is a defense to defamation actions. See
Kennedy v. Sheriff of E. Baton Rouge, 935 So.2d
669, 681 (La. 2006). Determining whether an
individual speaks pursuant to a qualified privilege
is a two-step process. The first step, an issue of law,
asks “whether the attending circumstances of a
communication occasion a qualified privilege.” Id.
at 682. Generally Louisiana courts have looked at
whether the speaker has an interest or duty related
to the subject of the statement and that the listener
has a corresponding duty or interest. See e.g., Roy
v. Coco, 649 So.2d 1139, 1140 (La. App. 1995)
(citing Alford v. Georgia-Pacific Corp., 331 So.2d
558 (La. App. 1976)). The second step, an issue of
fact, is “whether the privilege was abused, which
requires that the grounds for abuse—malice or lack
of good faith—be examined.” Kennedy, 935 So.2d at
682.
While BCBSLA’s statement was made in
circumstances that would enjoy a qualified
privilege, Encompass has raised an issue of fact
about whether BCBSLA abused it through malice
or lack of good faith. Encompass insists that
BCBSLA’s statements are not privileged because
they do not concern the public interest. See Doc.
384-1 at 21-22 (citing Phillips v. Lafayette Parish
Sch. Bd., 935 So.2d 739, 744 (La. App. 2010)). But
the Louisiana Supreme Court has stated that
“there are a variety of situations” when a
conditional privilege may arise because the subject
is “sufficiently important to justify some latitude
for making mistakes.” Id. at 681. Thus, “it is

85a
impossible to reduce the scope of a conditional or
qualified privilege to any precise formula” and that
includes limiting it just to statements in the public
interest. Id. Indeed, this case is a good example of
circumstances where a business would be entitled
to a qualified privilege. BCBSLA has an important
interest in informing its providers of policies and
even discussing how those policies apply to specific
entities like Encompass. So they are entitled to a
qualified privilege.
But they also cannot abuse that privilege. The
second step of the analysis prevents the privilege
from attaching if BCBSLA made the statement
with malice or lack of good faith. And on that
factual issue, Encompass has certainly submitted
evidence tending to show malice of lack of good
faith. In particular, it cites an email from Shannon
Taylor, a BCBSLA employee, who, in discussing the
formulation of the letter stated, “Quite honestly,
I’m not 100% sure why we aren’t contracting with
[Encompass] because I don’t believe we have a
concrete policy on this provider type (or maybe I
missed that somewhere ...).” Doc. 288-8 at 1
(ellipsis in the original). 10 This evidence is
The context of the email does not make it unambiguously
non-malicious either:
I’ve been thinking about this letter all week. It needs to
include information about our reimbursement policy on global
reimbursement of office services. Meaning, if these physicians
perform these services in their office, the global fee applies
and it includes payment of the resources used to perform the
service. If Encompass is used, the services are non-covered
(that is our policy today anyway).
I don’t want to get into why they are nonpar, because then
we will get calls from physicians campaigning to put
Encompass in the network and then they will think the
member will have coverage/benefits paid for the service. Our
10

86a
sufficient to let a jury determine whether BCBSLA
spoke maliciously or with lack of good faith when it
sent the letter.
BCBSLA’s second argument—that Encompass
has conceded the statements are true—also
depends on disputed issues of fact.”11 For the Outof-network Provider Statement, BCBSLA cites
(really, stretches) deposition testimony to say that
Encompass conceded it “was an out-of-network
provider and that [the Encompass representative]
had no personal knowledge of the requirements to
participate in a Blue Cross network.” Doc. 378-1 at
23 (citing Doc. 325 at 18-19). That misses
Encompass’s point altogether, which is that the
Out-of-network Provider Statement is false because
Encompass’s network status is irrelevant to
whether it may be reimbursed. BCBSLA’s
argument about the Facility Fees Statement
similarly founders, arguing that Encompass
concedes that it is not a brick and mortar facility
which is irrelevant to Encompass’s point that any
such policy could not apply to them. Doc. 378-1 at
23 (citing Doc. 325 at 2). The Network Termination
Statement, viewed in a light favorable to
Encompass, could be a statement that Encompass
is an uncovered provider which may be considered
false. None of the statements are unambiguously
true and Encompass has not conceded the issue.
reason for not contract [sic] is between us and Encompass.
Quite honestly, I’m not 100% why we aren’t contracting with
them because I don’t believe we have a concrete policy on this
provider type (or maybe I missed that somewhere ... ).
Anyway, I think we just state they are non-par and leave it at
that. Doc. 288-8 at 1.
11 When referring to the statements, the Court uses the
designation from supra note 7.

87a
Consequently, the Court DENIES BCBSLA’s
Motion for Summary Judgment on the Three Tort
Claims as applied to Encompass’s claim for
defamation.
d. Tortious Interference With A Business
Relationship
BCBSLA also moved for summary judgment on
Encompass’s claim for tortious interference with a
business relationship. In its brief supporting the
motion, BCBSLA cites to precedent that discusses
tortious interference with a contract, rather than
the separate tort of interference with a business
relationship. See Doc. 378-1 at 19-20 (setting out
the elements of tortious interference with a
contract). Encompass believes that makes BCBSLA
argument inapplicable to their claim, while
BCBSLA counters that Louisiana courts crossapply the principles of tortious interference with a
contract to tortious interference with a business
relationship.
Louisiana law on the tortious interference torts
is not clear, but the best reading is that they are
independent causes of action with independent
requirements. The Louisiana appellate court
decision that BCBSLA cites undeniably treats
interference with a business relationship as
interchangeable with interference with a contract.
See Guilbeaux v. Times of Acadiana, Inc., 661 So.2d
1027 (La. App. 1995) (addressing an appeal for
“tortious interference with business relations” and
citing the element of interference with a contract).
However, the development and modern treatment

88a
of the two causes of action show they are indeed
separate torts.12
The Louisiana Supreme Court first recognized
tortious interference with a contract in 9 to 5
Fashions, Inc. v. Spurney, 538 So.2d 228 (1989). In
doing so, it was explicit and self-aware that it was
creating a new cause of action. See id. at 231
(enumerating the elements of interference with a
contract
“in
light
of
modern
empirical
considerations and the objectives of delictual law”
based on “precepts derived from the contemporary
doctrine of interference with contractual relations
existing in other jurisdictions”). Subsequent courts
have identified the elements as “(1) the existence of
a contract or a legally protected interest between
the plaintiff and the corporation; (2) the corporate
officer’s knowledge of the contract; (3) the officer’s
intentional inducement or causation of the
As a federal court applying state law, the Court would
typically defer to Louisiana appellate court’s interpretation of
state law. However, when law from the highest court in a
state contradicts a lower court opinion or the Court is
“convinced by other persuasive data” that the highest court
would rule otherwise, it may depart. See Mem’l Hermann
Healthcare Sys. Inc. v. Eurocopter Deutschland, GMBH, 524
F.3d 676, 678 (5th Cir. 2008) (internal citations and
quotations omitted).
The Court is convinced that Guilbeaux is an outlier that is
inconsistent with Louisiana law. Beyond the reasoning in the
body of this opinion, departing from Guilbeaux is appropriate
for another reason. The Guilbeaux Court was not actually
addressing whether the two causes of action were identical; it
just used the terms fluidly without ever addressing whether
they were two different actions. Certainly the implication
from Guilbeaux is that they are the same. But since it did not
directly answer the question, this Court cannot be sure that it
was an oversight rather than an intentional collapsing of
those doctrines.
12

89a
corporation to breach the contract or his intentional
rendition of its performance impossible or more
burdensome; (4) absence of justification on the part
of the officer; (5) causation of damages to the
plaintiff by the breach of contract or difficult of its
performance brought about by the officer.”
Constance v. Jules Albert Const., Inc., 591 So.2d
1238, 1239 (La. App. 1991).
In contrast, interference with a business
relationship has an older source, Graham v. St.
Charles St. R. Co., 18 So. 707 (1895). While courts
have expounded on it, the law surrounding the tort
remains largely undeveloped. The plaintiff bears
the burden of showing that the “defendant
improperly influenced others not to deal with the
plaintiff.” Junior Money Bags, Ltd. v. Segal, 970
F.2d 1, 10 (5th Cir. 1992). The interference must be
“malicious and wanton interference, permitting
only interferences designed to protect a legitimate
interest of the actor.” Id. (citing Dussouy v. Gulf
Coast Inv. Corp., 660 F.2d 594, 601 (Former 5th
Cir. Nov. 1981). “The malice elements seem to
require a showing of spite or ill will” though “its
meaning is not perfectly clear.” JCD Marketing Co.
v. Bass Hotels and Resorts, Inc., 812 So. 2d 834, 841
(La. App. 2002) (citing George Denegre, Jr., et al.,
Tortious Interference and Unfair Trade Claims:
Louisiana’s Elusive Remedies for Business
Interference, 45 Loy. L. Rev. 395, 401 (1999)).
Louisiana courts have noted that its “jurisprudence
has viewed [the tort] with disfavor.” Id.
So interference with a contract and interference
with a business relationship do not overlap in their
development by the Louisiana Supreme Court.
Intermediate courts also analyze them differently,

90a
the one exception being Guilbeaux which this Court
believes is an outlier. Each tort has its own
requirements, independent of the other.
Because
they
are
separate,
BCBSLA’s
arguments for summary judgment based on
tortious-interference-with-contract principles is
inapplicable to Encompass’s claim for tortious
interference with a business relationship. 13
Therefore, the Court DENIES BCBSLA’s Motion
for Summary Judgment on Three Tort Claims as it
applies to Encompass’s claim of tortious
interference with a business relationship.
VII. Certification For Immediate Appeal Is
Improper
Encompass alternatively requests that the
Court certify the Summary Judgment Order for
immediate appeal under 28 U.S.C. § 1292(b). The
Court frnird that request.
Section 1292(b) permits a district court to certify
that an order “involves a controlling question of law
as to which there is substantial ground for
difference of opinion and that an immediate appeal
from the order may materially advance the
ultimate termination of the litigation.” The Court
does not believe that certifying the order would
In its Reply brief, BCBSLA argues that Encompass cannot
show the malice necessary to avoid summary judgment.
However, “The purpose of a reply brief under local rule 7.1(f),
is to rebut the nonmovants’ response.” Penn. Gen. Ins. Co v.
Story, No. 3:03-cv-0330-G, 2002 WL 21435511, at *1 (N.D.
Tex. June 10, 2003) (citations and internal quotations
omitted). Consequently, “a court generally will not consider
arguments raised for the first time in a reply brief.” Id. The
Court declines to consider that argument here since
Encompass has not had a meaningful opportunity to respond.
13

91a
“materially advance the ultimate termination of the
litigation.” The Summary Judgment Order and this
order are rife with unresolved issues of material
facts. Certifying the orders for appeal would force
the Court of Appeals to wade through these
disputed issues without the benefit of factual
developments at trial. The more prudent course is
to hold a trial prior to the parties exercising their
rights on appeal, requiring the Fifth Circuit Court
of Appeals to review this Court’s work only once.
VIII. Conclusion
For the foregoing reasons, the Court GRANTS
IN PART and DENIES IN PART Defendant’s
Motion to Correct Judgment. The Court GRANTS
IN PART and DENIES IN PART Plaintiff’s Motion
to Reconsider and, in the Alternative, Motion to
Certify Controlling Question of Law for Immediate
Appeal.
The Court’s Summary Judgment Order is
revised accordingly. It GRANTS BCBSLA’s Motion
for Summary Judgment with regards to claims
under FEHBA and a single claim outside of the
coverage dates. It is DENIED with respect to the
claims filed by participants in non-BCBSLA plans
submitted through the Interplan program.
Regarding the ERISA limitations period, the Court
GRANTS summary judgment for claims with dates
of service after October 4, 2010, that were not sued
on within 15 months of the date of service. For all
other ERISA claims, summary judgment is
DENIED on the basis of the limitations period.
BCBSLA’s Motion for Summary Judgment on
Three Tort Claims is now GRANTED with respect
to business disparagement and DENIED with

92a
respect to defamation and tortious interference
with a business relationship.
Furthermore, the Court ORDERS the parties to
jointly submit three proposed dates for trial. The
joint proposal must be filed within fourteen days of
the date of this Order.
IT IS SO ORDERED.
Signed this 29th day of April, 2014.

JORGE A. SOLIS
UNITED STATES DISTRICT JUDGE

93a
APPENDIX H
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
ENCOMPASS
OFFICE
SOLUTIONS, INC.,
Plaintiff,
v.
LOUISIANA
HEALTH SERVICE
& INDEMNITY
COMPANY d/b/a
BLUE CROSS AND
BLUE SHIELD OF
LOUISIANA, and
BLUECROSS
BLUESHIELD OF
TENNESSEE, INC.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

3:11-CV-1471-P
[FILED 09/17/13]

ORDER
Now before the Court are three pending Motions
for Summary Judgment, a Motion to Strike
Evidence, a Motion In Limine, a Motion for
Summary Judgment on Three Tort Claims, and a
Motion to Exclude Testimony.
Plaintiff Encompass Office Solutions, Inc. filed
its Motion for Summary Judgment on May 17,
2013. (Doc. 288.) Defendant Louisiana Health
Service & Indemnity Co. d/b/a Bluecross and
Blueshield of Louisiana filed a Response on June 7,
2013. (Doc. 324.) Defendant Bluecross Blueshield of

94a
Tennessee, Inc. filed a Response on June 7, 2013.
(Doc. 336.) Plaintiff filed a Reply on June 21, 2013.
(Doc. 344.) After reviewing the parties’ briefing, the
evidence, and the applicable law, the Court
DENIES Plaintiff Encompass Office Solutions,
Inc.’s Motion for Summary Judgment.
Plaintiff Encompass Office Solutions, Inc. also
filed a Motion to Strike Evidence in Defendant
Bluecross Blueshield of Louisiana’s Motion for
Summary Judgment on June 7, 2013. (Doc. 331.)
Defendant Bluecross Blueshield of Louisiana filed a
Response on June 28, 2013. (Doc. 351.) Plaintiff
filed a Reply on July 12, 2013. (Doc. 358.) After
reviewing the parties’ briefing, the evidence, and
the applicable law, the Court DENIES Plaintiff
Encompass Office Solutions, Inc.’s Motion to Strike
Evidence in Defendant Bluecross Blueshield of
Louisiana’s Motion for Summary Judgment.
Defendant Bluecross and Blueshield of
Louisiana filed its Motion for Summary Judgment
on May 17, 2013. (Doc. 291.) Plaintiff Encompass
Office Solutions, Inc. filed its Response on June 7,
2013. (Doc. 327.) Defendant Bluecross and
Blueshield of Louisiana filed its Reply on June 21,
2013. (Doc. 345.) After reviewing the parties’
briefing, the evidence, and the applicable law, the
Court GRANTS IN PART and DENIES IN PART
Defendant Bluecross and Blueshield of Louisiana’s
Motion for Summary Judgment.
Defendant Bluecross Blueshield of Tennessee,
Inc. filed its Motion for Summary Judgment on
May 17, 2013. (Doc. 297.) Plaintiff Encompass
Office Solutions, Inc. filed its Response on June 7,
2013. (Doc. 333.) Defendant Bluecross Blueshield of
Tennessee, Inc. filed its Reply on June 21, 2013.

95a
(Doc. 347.) After reviewing the parties’ briefing, the
evidence, and the applicable law, the Court
GRANTS IN PART and DENIES IN PART
Defendant Bluecross Blueshield of Tennessee, Inc.’s
Motion for Summary Judgment.
Defendant Bluecross and Blueshield of
Louisiana’s First (Amended) Motion In Limine,
filed on July 2, 2013. (Doc. 354.) Plaintiff
Encompass Office Solutions filed a Response on
July 23, 2013. (Doc. 367.) Defendant filed a Reply
on August 6, 2013. (Doc. 373.) After reviewing the
parties’ briefing, the evidence, and the applicable
law, the Court GRANTS IN PART and DENIES IN
PART Defendant Bluecross and Blueshield of
Louisiana’s First (Amended) Motion In Limine.
Defendant Bluecross and Blueshield of
Louisiana filed its Motion for Summary Judgment
on Three Tort Claims on August 16, 2013. (Doc.
378.) Plaintiff Encompass Office Solutions, Inc.
filed its Response on August 27, 2013. (Doc. 384.)
Bluecross and Blueshield of Louisiana filed its
Reply on September 10, 2013. (Doc. 387.) After
reviewing the parties’ briefing, the evidence, and
the applicable law, the Court GRANTS Bluecross
and Blueshield of Louisiana’s Motion for Summary
Judgment.
Defendant Bluecross and Blueshield of
Louisiana filed its Motion to Exclude, and
Objection to, Testimony of Robert Daniel Gates as
an Expert on August 16, 2013. (Doc. 379.)
Defendant Bluecross Blueshield of Tennessee
joined in the motion. (Doc. 381.) Plaintiff
Encompass Office Solutions, Inc. filed its Response
on August 27, 2013. (Doc. 383.) Because the Court
granted Defendant Bluecross and Blueshield of

96a
Louisiana’s Motion for Summary Judgment on
Three Tort Claims, the Court DENIES the Motion
to Exclude as MOOT.
I.

Background1

This is a suit seeking payment for medical
services. Plaintiff Encompass Office Solutions, Inc.
(“Encompass”) is a healthcare provider. (Doc. 335-1
at 28.) The primary business of Encompass is
provision of specially trained nurses, supplies, and
equipment so that a physician may perform inoffice outpatient surgery while the patient is under
anesthesia. (Id. at 28-29.) As opposed to a
traditional “brick-and-mortar” ambulatory surgery
center (“ASC”), Encompass’s business operations
bring the necessary staff and equipment directly to
the doctor’s office rather than bringing the
physician to the ASC or a hospital. (Id.; Doc. 288-3
at 28.)
When a patient undergoes an in-office surgical
procedure using Encompass’s services, the patient
first signs a form styled as an assignment of
benefits (“AOB”), which contains the following
language:

Both Encompass and BCBSLA have submitted factual
summaries styled as statements of uncontested facts. (Doc.
294 & Doc. 288-1 at 8-16.) Both sections have garnered
responses contesting the facts as outlined. (Doc. 330 & Doc.
321 at 7-10.) In light of the voluminous contentions as to the
facts of this case, the Court resolves that the only facts not in
dispute in this case are those which are unrebutted by
admissible summary judgment evidence. See Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 249–50 (1986) (mere
assertions of a factual dispute unsupported by probative
evidence will not prevent summary judgment).
1

97a
I hereby instruct and direct [patient’s
health insurer] to pay by check made out
to Encompass below. Or, if my insurance
policy prohibits direct payment, I hereby
direct myself to make a check payable to
Encompass...For the medical benefits
allowable and otherwise payable to me
under my current insurance policy as
payment toward the total charges for
services rendered. This is a direct
assignment of my rights and benefits
under this policy. This payment will not
exceed my indebtedness to the abovementioned assignee. See e.g. (Doc. 329-3
at 22.)
Before the patient underwent the surgical
procedure, representatives of Encompass would
also explain the nature of Encompass and its role
in billing the patient’s health insurer for services
provided to the patient. (Doc. 288-3 at 75, 80.) Upon
completing an AOB, a patient would then be
immediately billed for a prompt pay coinsurance
amount which, though not exactly equal to the
patient’s
actual
out-of-network
coinsurance
amount, was based upon objective data and
designed to approximate this amount to the fullest
extent possible. (Doc. 329-1 at 55.) Encompass
never pursued the patient for any additional
amounts and instructed them that they would not
be billed for the balance of costs associated with
their procedure. (Doc. 301-2 at 6.) In short, the
prompt pay coinsurance amount was the patient’s
sole out-of-pocket expense for the medical
treatment.

98a
Although the patients executed AOB forms, the
plan language of their insurance policies expressly
forbids such assignment. The plan language states
that “A Member’s rights and benefits under this
Benefit Plan are personal to the Member and may
not be assigned in whole or in part by the Member.”
See e.g. (Doc. 295-1 at 23-24; 93-94.) The plan
language reiterates this prohibition, noting that
“We will not recognize assignments or attempted
assignments of benefits.” See e.g. (Doc. 295-1 at 2324; 93-94.)
Once the surgery was complete, Encompass
employed a third-party billing company to file a
claim for reimbursement with the patient’s health
insurer for the services rendered. (Id. at 76.) Often,
the claims submitted largely mirrored the claims
for reimbursement submitted by the treating
physician, including identical billing dates,
identical site of service codes,2 and identical billing
numbers. (See Doc. 301-5 at 6-15.) However,
Encompass’s claims frequently included an
additional technical component modifier 3 (“TC
Modifier”). (Doc. 288-3 at 18.)
Defendant Louisiana Health Service &
Indemnity Co. d/b/a Bluecross and Blueshield of
Louisiana (“BCBSLA”) is a health insurer which
provides coverage to various participants in its
health plans throughout Louisiana. Initially,
The relevant site of service code for claims submitted was
11, indicating that the surgery was performed in a physician’s
office as opposed to in a hospital or ASC. (Doc. 288-3 at 18.)
3 A TC Modifier represents “[a] portion of the health care
service that identifies the provision of the equipment,
supplies, technical personnel, and costs attendant to the
performance of the procedure other than the professional
services.” (Doc. 288-13 at 17.)
2

99a
BCBSLA received claims for reimbursement from
Encompass and promptly paid the submitted
claims. See (Doc. 288-4 at 3-6.) The total value of
claims paid out by BCBSLA was initially believed
to be approximately $109,676.55 for claims
submitted by Encompass on behalf of BCBSLA
members. (Id.) However, BCBSLA later ceased to
compensate Encompass for reimbursement claims
submitted on behalf of BCBSLA’s insureds. In
explaining why the claims were denied, BCBSLA
repeatedly determined that “Reimbursement is
considered to be a portion of another service which
has been allowed. Therefore, no payment can be
made for this service.” (Doc. 324 at 11-13; Doc. 321
at 26; see also e.g. 289-6 at 23 (explanation of
benefits form)). Upon receipt of a claim’s denial,
Encompass elected not to pursue administrative
review of the denials as contemplated under the
health insurance plans. (Doc. 301-5 at 22.)
Matters came to a head in October 2010, when
Alan Lofton, acting on behalf of BCBSLA, sent a
letter to the President of Encompass stating that
BCBSLA had erroneously paid $109,676.55 for
claims submitted by Encompass on behalf of
BCBSLA members. (Doc. 288-4 at 3-6.) BCBSLA
informed Encompass that it demanded repayment
in full for all claims erroneously paid. (Id.) The
letter also contains a spreadsheet itemizing the 53
claims which were paid previously, but which
BCBSLA denied as of October 4, 2010. (Id. at 5-6.)
Around this same time, BCBSLA also sent a letter
to its Blue Cross network physicians. (Doc. 288-4 at
1.) This letter informed the physicians that
“Encompass is not eligible to participate in the Blue
Cross networks and is considered an out-of-network

100a
provider.” (Id.) BCBSLA also asked its physicians
not to use Encompass, and warned that any
physician who repeatedly used Encompass “to
deliver facility and procedure services” would “be
subject to termination from the Blue Cross
networks.” (Id.)
Defendant Bluecross Blueshield of Tennessee,
Inc. (“BCBSTN”) is also a health insurer.
Encompass submitted reimbursement claims to
BCBSTN, which paid an amount which was less
than Encompass claimed was owed. (Doc. 335-1 at
3-4.)
Seeking redress for the many payment disputes
between the parties, Encompass filed a series of
complaints in the U.S. District Court for the
Northern District of Texas which culminated in a
Fifth Amended Complaint. (Doc. 255.) The Fifth
Amended Complaint brought causes of action
against BCBSLA and BCBSTN for breach of
contract [id. at 18], quantum meruit [id. at 20], and
reimbursement under Section 502(a)(1)(B) of the
Employee Retirement Income Security Act
(“ERISA”) [id. at 255]. In addition, Encompass
brought a cause of action Order against BCBSLA
for defamation, alleging that BCBSLA’s letter to its
network physicians was materially false and
brought about significant financial injury. (Id. at
24-27.)
II.

Legal Standards & Analysis
A. Motion to Strike

Arguing
that
BCBSLA
has
included
inadmissible
summary
judgment
evidence,
Encompass has moved to strike a list of evidence in
the summary judgment record, including the

101a
affidavits of Patricia Crochet, Tyronda MosesChilds, Thomas Groves, certain exhibits attached
thereto, as well as other evidentiary citations
throughout BCBSLA’s briefing. (Doc. 331 at 210.)
In Response, BCBSLA contends that the disputed
evidence is both admissible and proper in the
summary judgment setting. (Doc. 351 at 6-17.)
As to the affidavits of Patricia Crochet and
Tyronda Moses-Childs, Encompass claims that
BCBSLA failed to identify these witnesses during
discovery. (Doc. 331 at 2-3.) According to BCBSLA,
such witnesses were identified in designation A.2.
(Doc. 351 at 6, 10.) Although the cited language in
designation A.2 is broad, it sufficiently outlines
certain
persons
capable
of authenticating
documents as representatives of BCBSLA, and also
notes that they may be contacted via counsel for
BCBSLA. (Doc. 352 at 80-85.) This is sufficient to
avoid the severe penalties which Plaintiff seeks
under Rule 37 of the Federal Rules of Civil
Procedure. 4 Plaintiff also argues that the exhibits
attached to Ms. Crochet’s affidavit, including the
spreadsheet detailing plan information and claims
are inadmissible under the best evidence rule. (Doc.
331 at 7.) Federal Rule Evidence 1002 states: “To
prove the content of a writing ..., the original
Under the Federal Rules of Civil Procedure, “If a party fails
to provide information or identify a witness as required by
Rule 26(a) or (e), the party is not allowed to use that
information or witness to supply evidence on a motion, at a
hearing, or at a trial, unless the failure was substantially
justified or is harmless.” Fed. R. Civ. P. 37(c)(1). Encompass
has not identified how any purported failure to disclose the
witnesses in question has resulted in harm, and the Court
therefore finds any failure to name a specific employee would
be harmless.
4

102a
writing ... is required, except as otherwise provided
in these rules or by Act of Congress.” Fed. R. Evid.
1002. However, Encompass has only complained
that BCBSLA did not file the actual plans, it does
not dispute or argue the correctness of the contents
of the exhibit. Finding that the actual contents of
the writing at issue are not in dispute, and that the
Plan language can be adequately verified through
other plans already received in evidence, the Court
declines to strike this evidence.
Encompass also argues that the affidavit of
Thomas Groves violates the best evidence rule and
is contradicted by other evidence in the record.
(Doc. 331 at 3-5.) Mr. Groves’s testimony details
certain policies of BCBSLA, including the existence
of a hotly contested global fee payment, whereby
payment to a physician is intended to cover the
costs of services provided by other healthcare
providers such as Encompass. (Doc. 301-5 at 17.)
First, the Court finds that Groves, as Director of
Provider Contracting and Service, asserted that he
has personal knowledge of the facts in his affidavit.
(Id. at 16.) Moreover, Groves’s testimony does not
purport to establish the terms of healthcare
plans—as Encompass insists—but instead outlines
BCBSLA policies, practices, and procedures. The
fact that Encompass has submitted other evidence
which contradicts or casts doubt on the existence of
a global fee payment speaks not to the admissibility
of Groves’s testimony, but instead to its weight.
The Court therefore declines to strike Groves’s
affidavit.
Encompass has also requested that the Court
strike a laundry list of other miscellaneous
evidence cited sporadically throughout BCBSLA’s

103a
briefing. (Doc. 331 at 6-11.) The Court has neither
cited to much of this evidence in the instant Order,
nor has it considered it in reaching a ruling. See e.g.
Henderson v. Paul Revere Life Ins. Co., No. 3:11–
CV–1992–D, 2013 WL 1875151, at *3 n. 5 (N.D.
Tex. May 6, 2013) (“The court need not address
objections to the Order declarations that pertain to
evidence that the court is not considering in
deciding the merits of defendants' summary
judgment motion.”) Thus Plaintiff’s arguments
concerning many of the remaining evidentiary
objections are moot. To the extent that the Court
considered any remaining evidence to which
Encompass objects, such arguments speak only to
the weight of the evidence, not its admissibility. See
Williamson v. United States Dep't of Agric., 815
F.2d 368, 383 (5th Cir. 1987) (finding that the
district court did not improperly consider
inadmissible portions of affidavits and writing
because “[t]hose portions of affidavits that do not
comply with the requirements of Federal Rule of
Civil Procedure 56(e) are entitled to no weight.”)
Plaintiff’s Motion to Strike is therefore DENIED.
B. Motion In Limine
Throughout the briefing on the summary
judgment motions and in its separate Motion In
Limine, BCBSLA has maintained that the Court
may only consider evidence that was on the
administrative record. See (Doc. 321 at 22; 324 at 911; 345 at 12; Doc. 354.) It further requests that the
Court limit any evidence at trial, for both ERISA
and non-ERISA claims, to the information on the
administrative record. (Doc. 354 at 1) (requesting
that the Court “exclude from... consideration,
whether on [Encompass’s] pending Motion for

104a
Summary Judgment or at any other time in this
proceeding, all proffered evidence that is deemed to
be outside of the administrative record of each of
the 212 claims at issue, regardless of whether the
individual claim is being presented against an
ERISA or non-ERISA plan”).
Motions in limine are disposed of “pursuant to
the district court’s inherent authority to manage
the course of trials.” Luce v. United States, 469 U.S.
38, 41 n.4 (1984). During the summary judgment
stage of trial, a party may object to summary
judgment on the grounds that evidence supporting
or disputing a fact will not be admissible at trial.
Fed. R. Civ. P. 56(c)(2). The Court decides
preliminary questions about whether evidence is
admissible under the Federal Rules of Evidence.
Fed. R. Evid. 104(a).
Evidence about “the merits of the coverage
determination
[under
ERISA]—i.e.
whether
coverage should have been afforded under the
plan—” Crosby v. La. Health Serv. & Indemnation
Co., 647 F.3d 258, 263 (5th Cir. 2011), is limited to
evidence that “is in the administrative record,
relates to how the administrator has interpreted
the plan in the past, or would assist the court in
understanding medical terms and procedures.” Id.
“The administrative record consists of relevant
information made available to the administrator
prior to the complainant’s filing of a lawsuit and in
a manner that gives the administrator a fair
opportunity to consider it.” Estate of Bratton v.
Nat’l Union Fire Ins. Co. of Pittsburgh, 215 F.3d
516, 521 (5th Cir. 2000) (citing Vega v. Nat’l Life
Ins. Services, 188 F.3d 287, 295, 299 (5th Cir. 1999)
(en banc)). Evidence is not so limited, however, “to

105a
resolve other questions that may be raised in an
ERISA action.” Crosby, 647 F.3d at 263. Common
issues that arise in ERISA actions that are not
limited to the evidentiary record include “the
completeness of the administrative record; whether
the plan administrator complied with ERISA
procedural regulations; and the existence and
extent of a conflict of interest created by a plan
administrator’s dual role in making benefits
determination and funding the plan.” Id.
The evidentiary limitations on the Court for
these motions and at trial apply narrowly. The
Court is limited to the administrative record only
when it is determining the “merits of the coverage
determination” for ERISA claims. Crosby, 647 F.3d
at 263. The bulk of the motions before the Court
relate to non-coverage issues, such as Article III
standing, validity of assignment forms, and
exhaustion of administrative remedies. When
addressing those issues, the Court is not
constrained by any evidentiary limitation because
they are not “the merits of coverage determination.”
Id.
Neither is the Court limited to the
administrative record when considering the merits
of coverage determination for non-ERISA claims.
BCBSLA argues that the standard for ERISA
claims should apply to non-ERISA claims “because
1) the non-ERISA pertinent plan provisions are
identical to the ERISA plan provisions; and 2)
Encompass’ claim submissions were equally as
duplicative under both the ERISA and non-ERISA
plans.” (Doc. 354 at 3-4.) In essence, BCBSLA
believes that ERISA law applies to non-ERISA
claims when the underlying plan has similar terms

106a
to plans covered by ERISA. But the evidentiary
restriction for ERISA claims comes from ERISA’s
control over the plans, not the terms of the plans.
See Wildbur v. ARCO Chemical Co., 974 F.2d 631,
639 (5th Cir. 1992) (connecting the restriction on
evidence to ERISA’s exhaustion requirements).
BCBSLA has not brought to the Court’s attention
any plan term or case law that restricts evidence in
breach of contract suits to the administrative
record. ERISA’s evidentiary standard does not
apply to the non-ERISA claims. The Court denies
the motion as it applies to any non-ERISA claims.
That
leaves
the
merits
of
coverage
determination for the ERISA claims. Courts are
limited to the administrative record in reviewing
the merits of coverage determination, Crosby, 647
F.3d at 263, but that restriction is not as sweeping
as BCBSLA suggests. (Doc. 324 at 10-11)
(“[V]irtually all of Encompass’ evidentiary citations
in its 51-page Brief in Support are inadmissible
and incapable of consideration when judging
BCBSLA’s discretion.”). Moreover, BCBSLA’s
definition of the administrative record is unduly
narrow. (Doc. 354 at 3) (defining the record as only
the health benefit plan, the physician’s billing to
BCBSLA, Encompass’s invoice, and the explanation
of benefits).
The term “merits of coverage determination”
refers to the factual determinations by the plan
administrator, not policy interpretations. See S.
Farm Bureau Life Ins. Co. v. Moore, 993 F.2d 98,
102 (5th Cir. 1993). For example, a plan
administrator may make a factual determination
about causation between two health conditions. In
reviewing the determination about the causation,

107a
the Court is limited to the administrative record.
But it would not be so limited in addressing
whether the plan should be interpreted to exclude
such causation from coverage. Id. (“We may
consider only the evidence that was available to the
plan administrator in evaluating whether he
abused his discretion in making the factual
determination that the tumor caused or contributed
to Mr. Moore’s death, but we may consider other
evidence, which was unavailable to the plan
administrator as it relates to his interpretation of
the policy.”). Because the parties in this case
primarily dispute policy interpretations, the
evidentiary limitation will apply infrequently, if
ever.
Even if Encompass does contest factual
determinations, the administrative record includes
more than the four documents that BCBSLA
enumerated. See Estate of Bratton, 215 F.3d at 521
(“The administrative record consists of relevant
information made available to the administrator
prior to the complainant’s filing of a lawsuit and in
a manner that gives the administrator a fair
opportunity to consider it.”). As long as the
information
was
available
to
BCBSLA’s
administrator prior to Encompass’s suit and the
administrator had fair opportunity to rely on it, the
Court will consider it part of the administrative
record.
Thus, the Court GRANTS IN PART BCBSLA’s
Motion In Limine. With respect to ERISA claims,
the Court will only consider evidence from the
administrative record to make any determination
about the merits of coverage determination. The

108a
Court DENIES IN PART BCBSLA’s Motion In
Limine as it applies to all other claims and issues.
C. Summary Judgment Standard
Summary judgment shall be rendered when the
pleadings, depositions, answers to interrogatories,
and admissions on file, together with affidavits, if
any, show that there is no genuine issue of material
fact and the moving party is entitled to judgment
as a matter of law. Fed. R. Civ. P. 56(c); see also
Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986).
The moving party bears the burden of informing
the district court of the basis for its belief that
there is an absence of a genuine issue for trial and
of identifying those portions of the record that
demonstrate such absence. See Celotex, 477 U.S. at
323. However, all evidence and reasonable
inferences to be drawn there from must be viewed
in the light most favorable to the party opposing
the motion. See United States v. Diebold, Inc., 369
U.S. 654, 655 (1962).
Once the moving party has made an initial
showing, the party opposing the motion must come
forward with competent summary judgment
evidence of the existence of a genuine fact issue.
Fed. R. Civ. P. 56(e); see also Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574,
586–87 (1986). The party defending against the
motion for summary judgment cannot defeat the
motion, unless he provides specific facts
demonstrating a genuine issue of material fact,
such that a reasonable jury might return a verdict
in his favor. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 247–48 (1986). Mere assertions of a
factual dispute unsupported by probative evidence
will not prevent summary judgment. See id. at 249-

109a
50. In other words, conclusory statements,
speculation, and unsubstantiated assertions will
not suffice to defeat a motion for summary
judgment. See Douglass v. United Servs. Auto.
Ass’n, 79 F.3d 1415, 1429 (5th Cir. 1996) (en banc);
see also Abbott v. Equity Grp., Inc., 2 F.3d 613, 619
(5th Cir. 1993) (“[U]nsubstantiated assertions are
not competent summary judgment evidence.”
(citing Celotex, 477 U.S. at 324)). Further, a court
has no duty to search the record for evidence of
genuine issues. Fed. R. Civ. P. 56(c)(1) & (3); see
Ragas v. Tenn. Gas Pipeline Co., 136 F.3d 455, 458
(5th Cir. 1998). It is the role of the fact finder,
however, to weigh conflicting evidence and make
credibility determinations. Liberty Lobby, 477 U.S.
at 255.
D. Standing
1. Article III Standing
Claiming that Encompass lacks standing to
pursue its claims, BCBSLA 5 first argues that
Encompass suffered no injury “by agreeing not to
‘balance bill’ the patient or otherwise pursue the
patient for any additional amounts.” (Doc. 321 at
13.) Noting that Encompass, as an assignee of
benefits, “stands in the shoes of the ERISA
beneficiary to assert its rights under the plan
terms,” BCBSLA argues that the ERISA
beneficiary is not at risk of any injury where it only
must pay a “prompt pay discounted coinsurance
amount.” (Id. at 12.) In response, Encompass notes
BCBSTN made similar arguments in its Motion, claiming
that Encompass lacked Article III standing due to its lack of
“injury-in-fact that is distinct and palpable.” (Doc. 297-1 at
13.)
5

110a
that the prompt-pay coinsurance amount was
calculated to be “20% of the average payment that
Encompass received from insurers for its services.”
(Doc. 328 at 18.) Encompass further claims that the
patient suffers an injury because BCBSLA’s
“failure
to
pay
the
benefits
owed
to
Encompass...[deprives] her of her full, paid-for
benefits.” (Id. at 21.) Finally, Encompass claims
that it has itself directly been injured because “it
accepted the patient’s assignment of benefits that
BCBSLA now refuses to pay.” (Id.)
Article III, Section 2 of the United States
Constitution grants judicial power over justiciable
cases and controversies. U.S. Const. art. III, § 2;
Lujan v. Defenders of Wildlife, 504 U.S. 555, 559–
60 (1992). The doctrine of standing is the
‘irreducible constitutional minimum’ that “serves to
identify those disputes which are appropriately
resolved through the judicial process.” Whitmore v.
Arkansas., 495 U.S. 149, 155 (1990). Constitutional
standing has three elements: (1) an “injury in
fact”—an invasion of a legally protected interest
which is (a) concrete and particularized and (b)
actual or imminent and not merely conjectural or
hypothetical; (2) a causal connection between the
injury and the conduct complained of; and (3) a
likelihood, as opposed to speculation, that a
favorable decision will redress the claimed injury.
Lujan, 504 U.S. at 560–61. Importantly, at the
summary judgment stage of litigation, a plaintiff’s
burden to show standing is only to raise an issue of
material fact, not to conclusively establish that the
plaintiff has standing. See Croft v. Governor of Tex.,
562 F.3d 735, 746 (5th Cir. 2009).

111a
Here, Encompass has introduced evidence that
it received a valid AOB form which was signed and
executed by patients who received the medical
services in this case. (Doc. 289-1 at 1-44; 289-2 at 144; 289-3 at 1-44; 289-4 at 1-44; 289-5 at 1-42.)
These forms “instruct and direct” the insurer “to
pay...for the medical benefits allowable and
otherwise payable to me under my current
insurance policy as payment toward the total
charges for the services rendered.” (Id.) Evidence in
the record suggests that upon completing an AOB,
a patient would then be billed a prompt pay
coinsurance amount which, though not exactly
equal to the patient’s actual out-of-network
coinsurance amount, was based upon objective data
and designed to approximate this amount to the
fullest extent possible. (Doc. 329-1 at 55.) Other
evidence indicates that Encompass never pursued
the patient for additional amounts and instructed
them that they would not be billed for the balance
of costs associated with their procedure. (Doc. 3012
at 6.)
BCBSLA and BCBSTN find primary support for
their standing arguments in N. Cypress Med. Ctr.
Operating Co. v. Cigna Healthcare, No 4:09–CV–
2556, 2012 WL 8019265 (S.D. Tex. June 25, 2012)
wherein Judge Ellison analyzed similar arguments
on the issue of Article III standing pursuant to an
assignment of benefits to a healthcare provider.
(Doc. 321 at 12 n. 30, n. 31 & Doc. 297-1 at 13-14.)
Under the facts of North Cypress, the court held
that “the patients did not suffer injuries-in-fact
sufficient to confer standing” on the healthcare
provider. N. Cypress, 2012 WL 8019265, at *11.
Although the Court in North Cypress found that the

112a
patients suffered no injury in fact where patients
were under no immediate threat of additional outof-pocket damages, the holding does not comport
with fundamental principles of health insurance or
ERISA law, under which “assignees of beneficiaries
to ERISA-governed plans have standing to sue
under ERISA.” 6 Biomed Pharm., Inc. v. Oxford
Health Plans, Inc., No. 10 Civ. 7427(JSR), 2011 WL
803097, at *3–4 (S.D.N.Y. Feb. 18, 2011) (citations
omitted) (collecting cases). Moreover, the plain
language of the AOB forms clearly directs the
health insurer to remit all payment for covered
services to Encompass, as an assignee of the
patient. (Doc. 289-1 at 144; 289-2 at 1-44; 289-3 at
1-44; 289-4 at 1-44; 289-5 at 1-42.) Although it did
not lead to a direct out-of-pocket damage to the
patient, failure to pay as directed would
nonetheless amount to an injury on the part of the
patient in that BCBSLA and BCBSTN refused to
honor the directions of the insured concerning
services within the purview of the insurance
contract.7 Biomed, 2011 WL 803097, at *4 (“[A]s in
any assignment relationship, the Patient’s
assignment of his rights under the contract does
not extinguish Oxford’s obligation to perform under
Although the Court in Biomed noted that none of the cited
decisions directly addressed Article III standing under these
facts, it correctly noted that constitutional standing is
appropriately inferred in these cases due to a federal court’s
“obligation to police their own subject matter jurisdiction.”
Biomed, 2011 WL 803097, at *4.)
7 The standing arguments of BCBSLA and BCBSTN, if
accepted, would also lead to an imprudent windfall in their
favor. By precluding suit based upon standing grounds, these
defendants would be able to avoid all payments for services
rendered and would effectively be granted immunity from suit
as against third-party healthcare providers.
6

113a
the contract, and Biomed stands in the Patient’s
shoes to ensure that Oxford performs those
obligations”). Accordingly, the Court finds that
Encompass has demonstrated a genuine issue of
material fact as to its standing for Article III
purposes, and the respective motions of BCBSLA
and BCBSTN as to Article III standing are
therefore DENIED.
2. Section 502(a)(1)(B) Standing
ERISA Section 502(a)(1)(B) establishes that a
civil action may be brought by either a participant
or a beneficiary “to recover benefits due to him
under the terms of his plan, to enforce his rights
under the terms of the plan, or to clarify his rights
to future benefits under the terms of the plan.”
Lone Star OB/GYN Assocs. v. Aetna Health, Inc.,
579 F.3d 525, 529 (5th Cir. 2009) (quoting 29
U.S.C.
§
1132(a)(1)(B)).
As
assignee
of
reimbursement benefits from an insurer, a medical
service provider stands in the shoes of the insured
and may bring suit under ERISA Section
502(a)(1)(B). Dall. Cnty. Hosp. Dist. v. Assocs.’
Health & Welfare Plan, 293 F.3d 282, 285 (5th Cir.
2002); Hermann Hosp. v. MEBA Med. & Benefits
Plan, 845 F.2d 1286, 1289–90 (5th Cir. 1988).
The uncontested evidence submitted suggests
that Encompass received an Assignment of Benefits
(“AOB”) form which was signed and executed by
patients who actually received the contested
medical services in this case. (Doc. 289-1 at 1-44;
289-2 at 1-44; 289-3 at 1-44; 289-4 at 1-44; 289-5 at
1-42.) These forms “instruct and direct” the insurer
“to pay...for the medical benefits allowable and
otherwise payable to me under my current
insurance policy as payment toward the total

114a
charges for the services rendered.” (Id.) Encompass
has also introduced evidence which suggests that it
had a common and routine practice of speaking
with insureds and explaining the nature of
Encompass and its role in billing the insurer for
services provided to the patient. (Doc. 288-3 at 75,
80.) This evidence, unrebutted in the summary
judgment record, is sufficient to indicate that
Encompass was the assignee of medical benefits for
the applicable claims at issue in this case. 8 Dall.
Cnty. Hosp. Dist., 293 F.3d at 285; Hermann Hosp.,
845 F.2d at 1289–90.
E. Registration in Louisiana
According to BCBSLA, Encompass did not enjoy
the right to transact business in Louisiana before
March 30, 2011. (Doc. 321 at 13.) BCBSLA claims
that because Encompass failed to secure a
Certificate of Authority to transact business in
Louisiana it should be barred from billing BCBSLA
for all services performed in Louisiana before that
time. (Id. at 14.) According to Encompass, the
failure to secure a Certificate of Authority does not
According to BCBSTN, Encompass has failed to provide
evidence of either a signed AOB or other assignment of
benefits for approximately 30 BCBSTN reimbursement
claims. (Doc. 297-1 at 11.) However, as Robert Gates testified,
Encompass had a common and routine practice of speaking
with insureds and explaining the nature of Encompass and its
role in billing the insurer for services provided to the patient.
(Doc. 288-3 at 75, 80.) Such evidence, even in the absence of a
signed AOB form, is sufficient to create a fact issue as to
whether BCBSTN-insured patients impliedly assigned their
insurance benefits to Encompass. See LifeCare Mgmt. Servs.,
LLC v. Ins. Mgmt. Adm’rs Inc., 703 F.3d 835, 840 n. 3 (5th
Cir. 2013) (consent to treatment indicated assignment of
claims). BCBSLA makes essentially the same argument in its
Motion. (Doc. 321 at 17.) It is denied for the same reason.
8

115a
invalidate or otherwise preclude it from seeking
recovery against BCBSLA. (Doc. 328 at 16.)
Encompass further claims that the only material
consequence of its failure to secure a Certificate of
Authority is its inability to sue within a Louisiana
state court, which is obviously inapplicable in this
Texas federal district court setting. (Id. at 16-17.)
BCBSLA replies by again affirming, without
authority, that the failure to procure a Certificate
of Authority renders all acts during the applicable
period “a nullity.” (Doc. 345 at 22.)
Reference to the applicable case law and the
facts of this case yields a result in favor of
Encompass. Neither party disputes the fact that
Encompass registered to do business in the state of
Louisiana on March 30, 2011. The crux of the
parties’ disagreement on this point instead lies in
the consequences of pre-registration business
activities conducted in Louisiana before that time.
According to BCBSLA, the consequences are
draconian, and mean that Encompass is without
recourse for all pre-registration conduct. (Doc. 321
at 13-14.) In support of this proposition, BCBSLA
cites to La. Rev. Stat. Ann. § 12:301 (1968). (Id.)
That statute reads, in part:
No
foreign
corporation
or
association,
except
[certain
corporations not applicable under
the facts of the instant matter], shall
have the right to transact business
in this state until it shall have
procured a certificate of authority to
do so from the secretary of state. La.
Rev. Stat. Ann. § 12:301.

116a
By its clear terms, La. Rev. Stat. Ann. § 12:301
indicates that Encompass did not have the right to
conduct business in Louisiana before March 30,
2011. However, BCBSLA has failed to demonstrate
or provide any further illumination into the
question of why transacting business without the
right to do so automatically precludes recovery by
Encompass. In fact, Encompass has cited to other
statutory law which directs as follows:
The failure of a foreign corporation
to obtain a certificate of authority
to transact business in this state
shall not impair the validity of any
contract or act of such corporation,
and shall not prevent such
corporation from defending any
action, suit or proceeding in any
court of this state. La. Rev. Stat.
Ann. § 12:314(B) (1968).
This statute clearly and unambiguously
explains that Encompass’s failure to register in
Louisiana before March 30, 2011 only results in its
inability or incapacity to bring suit in Louisiana
state courts. 9 Id. The statutory text also explains
that even while conducting business without proper
registration, contracts of such unregistered foreign
Nor can such a statute be reasonably construed to mean that
Encompass is deprived of the right to suit in federal court due
to its failure to register in Louisiana. See Fehr Banking Co. v.
Bakers’ Union, 20 F. Supp. 691, 697 (D.C. La. 1937) (“As to
the contention that [Louisiana statutory law], denies to a
citizen of another state the right to appeal to the courts until
he or it has complied with [Louisiana statutes], no citation of
authorities is required to support the conclusion that a state
is without power to impose such restrictions upon litigation in
a federal court.”)
9

117a
corporation remain valid.10 Id. BCBSLA has failed
to cite any controlling case law suggesting that
Encompass’s failure to register before March 30,
2011 nullifies the instant claims, and the Court’s
independent
research
yields
none
either.
Accordingly, the Court finds BCBSLA’s arguments
as to Encompass’s failure to register before March
30, 2011 to be insufficient grounds for summary
judgment. The Court therefore DENIES BCBSLA’s
motion as to the same.
F. Anti-Assignment Clauses
In an additional attack upon Encompass’s
ability to assert claims on behalf of the individual
patients in this matter, BCBSLA claims that the
plans governing claims for payment each contain
anti-assignment clauses which expressly forbid
assignment of benefits to providers such as
Encompass. (Doc. 321 at 15-16.) Encompass
responds by claiming that Texas and Louisiana law
prohibit anti-assignment provisions. (Doc. 328 at
23-25.) Additionally, Encompass argues that even if
the anti-assignment language is valid and
enforceable, its application under the facts of this
case would be inappropriate based upon BCBSLA’s
conduct, which allegedly invokes the doctrines of
waiver and estoppel. (Id. at 25-28.)
Ample evidence in the record indicates that plan
beneficiaries assigned their benefits to Encompass
via an AOB form that was signed and dated. (Doc.
289-1 at 1-44; Doc. 289-2 at 144; Doc. 289-3 at 1-44;
Additional consequences may include tax liability to the
state for those periods of unregistered business conduct. See.
La. Rev. Stat. Ann. §12:314(C) (1968). These penalties do not
apply for purposes of this suit.
10

118a
Doc. 289-4 at 1-45; Doc. 289-5 at 1-42.) The
summary judgment evidence also indicates that the
plans at issue include anti-assignment language.
See e.g. (Doc. 295-1 at 23-24; 93-94.) Exemplary
plan language states that “A Member’s rights and
benefits under this Benefit Plan are personal to the
Member and may not be assigned in whole or in
part by the Member.” See e.g. (Id.) The plan
language reiterates this prohibition, noting that
“We will not recognize assignments or attempted
assignments of benefits.” See e.g. (Id.)
Anti-assignment clauses in ERISA plans are
generally enforceable. See e.g., Trinity Health–
Mich. v. Blue Cross Blue Shield of S. C., 408 F.
Supp. 2d 483, 485 (W.D. Mich. 2005) (“Most courts
have held that ERISA does not prohibit an antiassignment clause in an employee welfare benefit
plan and that an unambiguous anti-assignment
provision invalidates an assignment to a health
care provider”). However, some cases have held
that plans are precluded from enforcing antiassignment provision under theories of waiver and
equitable estoppel. For example, in Hermann Hosp.
v. MEBA Med. & Benefits Plan, 959 F.2d 569, 574
(5th Cir. 1992) (overruled on other grounds by
Access Mediquip, L.L.C. v. UnitedHealthcare Ins.
Co., 698 F.3d 229 (5th Cir. 2012)), the Fifth Circuit
Court of Appeals found an assignment valid despite
the anti-assignment clause in the plan, based upon
the course of dealing between the plan and the
health care provider. Id. (“It had to be clear to [the
insurer] that [the hospital], in admitting and
providing services to Mrs. Nichols, was relying on
that assignment as its entitlement to recover

119a
payment for those Plan benefits...furnished to Mrs.
Nichols.”).
In the instant case, the undisputed evidence
suggests that during the course of dealing between
BCBSLA and Encompass, BCBSLA never once
challenged the AOBs as prohibited by the plans’
anti-assignment language. From parties’ course of
dealing, it had to be clear to BCBSLA that
Encompass was not a patient or insured but was
instead relying on completed AOB forms. As
BCBSLA repeatedly insists in its briefing, when it
denied claims furnished by Encompass, it
uniformly did so because of its global fee already
paid
to
physicians
and
explained
that
“[r]eimbursement is considered to be a portion of
another service which has been allowed. Therefore,
no payment can be made for this service.” (Doc. 324
at 11-13; Doc. 321 at 26; see also e.g. Doc. 289-6 at
23 (explanation of benefits form)). A thorough delve
into the record submitted to the Court does not
yield a single instance prior to suit where BCBSLA
attempted to invoke and give effect to the antiassignment clauses. In fact, the record indicates
that on a number of occasions BCBSLA paid money
directly to Encompass instead of directly to the
insured, giving a reasonable impression at the time
that BCBSLA did not intend to enforce the strict
anti-assignment language in the plans. (Doc. 288-4
at 3-4.) The record does not support BCBSLA’s
insistence that the decision in Letourneau Lifelike
Orthotics & Prosthetics, Inc. v. Wal-Mart Stores,
Inc., 298 F.3d 348, 349–50 (5th Cir. 2002) is
controlling, as the Fifth Circuit in that case did not
analyze waiver and estoppel due to the absence of
such in both the record and the district court’s

120a
ruling. (Doc. 345 at 15); Letourneau, 298 F. 3d at
349–50 (“Here, however, the district court did not
rely on estoppel. Rather, it relied on our alternative
holding in Hermann II that the anti-assignment
clause was ineffectual against the hospital.)
Accordingly, the Court finds that there is a genuine
issue of material fact as to whether BCBSLA
waived the anti-assignment language contained in
its plans. The Court therefore DENIES BCBSLA’s
Motion with respect to the plans’ anti-assignment
language.
G. Claims for Benefits under § 502(a)
The bulk of Encompass’s claims are under §
502(a) of ERISA. See 29 U.S.C. § 1132(a) (providing
civil remedies under ERISA). BCBSLA asserts that
the claims fail because the suit was brought outside
the plans’ limitations periods or Encompass did not
exhaust its administrative remedies. Both BCBSLA
and Encompass believe they are entitled to
summary judgment on the merits of the § 502(a)
claims.
1. 15 Month Limitations Period
According to BCBSLA, the plans at issue in this
case contained limitations language setting forth
the time to file suit as no later than 15 months
from the date the patient received his or her
medical services. (Doc. 321 at 18.) Although
Encompass has claimed that BCBSLA failed to cite
to admissible evidence of any limitations period,
the summary judgment evidence submitted by
Encompass confirms the existence of plan-based
limitations. See e.g. (Doc. 288-10 at 89.) The
relevant provision states:

121a
No lawsuit may be filed: any earlier
than the first sixty (60) days after
notice of the claim has been given; or
any later than fifteen (15) months
after
the
date
services
are
11
rendered. (Id.)
BCBSLA cites to the plans’ limitations period to
contend that the vast majority of claims against it
are untimely and should therefore be dismissed as
a matter of law. 12 (Doc. 321 at 18.) According to
Encompass, the limitations period is not binding
because it is unreasonable as a matter of law and
should not be enforced. (Doc. 328 at 29.)
“Under ERISA, a cause of action accrues after a
claim for benefits has been made and formally
denied. Because ERISA provides no specific
limitations period, [courts] apply state law
principles of limitation. Where a plan designates a
reasonable, shorter time period, however, that
lesser limitations schedule governs.” Harris
Methodist Fort Worth v. Sales Support Servs. Inc.
Emp. Health Care Plan, 426 F.3d 330, 337 (5th Cir.
2005) (citations omitted). In other words,
“contractual limitations periods on ERISA actions
are enforceable, regardless of state law, provided
they are reasonable.” Northlake Reg’l Med. Ctr. v.
Waffle House Sys., 160 F.3d 1301, 1302 (11th Cir.
See also e.g. (Doc. 290-1 at 45; 290-2 at 44; 290-3 at 58; 2904 at 57; 290-5 at 66.)
12 BCBSLA does not argue that all claims against it are
untimely. BCBSLA was named a party to this suit in the
Second Amended Complaint, which was filed on February 24,
2012. (Doc. 45.) Relying on the applicable 15 month
limitations period, BCBSLA claims that only 13 claims for
services were rendered after November 24, 2010, or within
the 15 month period. (Doc. 321 at 18.)
11

122a
1998). The reasonableness of a plan’s limitations
period is a question of law. See Harris, 426 F.3d at
333.
In explaining why the 15 month limitation
period
is
unreasonable,
Encompass
cites
extensively to Ponstein v. HMO La. Inc., No. 08663, 2009 WL 1309737 (E.D. La. May 11, 2009) and
Baptist Mem’l Hosp.-Desoto, Inc. v. Crain Auto.,
Inc., 392 F. App’x 288 (5th Cir. 2010). (Doc. 328 at
29-32.) In Baptist Memorial, the Fifth Circuit found
an ERISA limitations agreement of one year from
the date a completed claim was filed was
unreasonable under the circumstances. Baptist
Mem’l Hosp, 392 F. App’x at 294 (“We conclude that
the...Plan’s
one-year
limitations
period
is
unreasonable under the circumstances presented.”).
The first circumstance which the Fifth Circuit
found troubling was the fact that the limitations
period began to run “when a participant merely
files a completed claim, long before the claimant’s
ERISA cause of action even accrues.” Id. at 294–95.
This left claimants with an unreasonably short 35
days to file suit once the administrative appeal
process ran its course. Id. at 295. Second, the
record was replete with instances where the plan
administrator “repeatedly assured” that the claim
was “under review, that payment was still possible,
or even that payment was imminent” and that the
claimant “had no reason to believe that the
administrator had denied the claim, reasonably
expecting that it would provide a clear decision to
that effect.” Id. Noting these two key
considerations, the Fifth Circuit held that the
administrator’s “failure to follow its obligation to
properly deny the claim, coupled with its

123a
communications leading [claimant] to believe that
its claim was actively under consideration, caused
the one year limitations period to be unreasonably
short in this case.” Id. (citing Doe v. Bluecross &
Blueshield of Wis., 112 F.3d 869, 876 (7th Cir.
1997)).
Similar considerations appear in the Ponstein
decision, where Judge Fallon noted that the
administrator initially paid the claim, but then
withdrew payment three months later. Ponstein,
2009 WL 1309737, at *1. Noting this fact, the court
found that the administrator withdrew payment
“less than fifteen (15) months before the plaintiff
filed suit.” Id. at *4. The court went on to find the
fifteen month limitation period, which began on the
date services were provided, unreasonable under
the facts before it because “Plaintiff had no reason
or basis to file suit until, at the very least, October
2006 when his claim was reevaluated and benefits
withdrawn.” Id. Finally, Ponstein did not substitute
state law limitations in the place of the
unreasonable plan language, but instead noted that
the plaintiff filed suit within fifteen months of the
date payment was withdrawn, thereby constituting
a timely filed claim under the plan language. Id.
(“Suit was filed within fifteen (15) months of that
date [of payment withdrawal]. This was reasonable.
Thus the claim was timely filed”).
Examining the fifteen month period in the
abstract, nothing appears facially unreasonable
about such a limitation. Courts have routinely
enforced shorter limitations absent special
circumstances. See, e.g., Northlake Reg'l Med. Ctr.,
160 F.3d at 1304 (finding that a ten month appeals
process combined with a ninety day limitations

124a
period provided an adequate opportunity to
investigate a claim and file suit); Sheckley v.
Lincoln Nat'l Corp. Employees' Ret. Plan, 366 F.
Supp. 2d 140, 147 (D. Me. 2005) (finding that,
under the pled facts, “there [was] no causal
connection between the Plan's failure to follow the
claims procedures laid out in [the plan document]
and Plaintiff's failure to file this action ... [until]
after the Plan's six-month limitation period had
run”). However, the reasoning outlined in Baptist
Memorial and Ponstein is persuasive and raises
issues of fairness as to certain of the claims for
benefits in this case. In a letter dated October 4,
2010, Alan Lofton, acting on behalf of BCBSLA,
sent a letter to the President of Encompass stating
that BCBSLA had erroneously paid $109,676.55 for
claims submitted by Encompass on behalf of
BCBSLA members. (Doc. 288-4 at 3-6.) BCBSLA
informed Encompass that it demanded repayment
in full of all claims erroneously paid. (Id.) The letter
also contains a spreadsheet itemizing the 53 claims
which were paid previously, but which BCBSLA
now denied as of October 4, 2010. (Id. at 5-6.) As to
these claims, the Court finds that immediately
holding Encompass to the 15 month limitations
period from the date of service would be imprudent,
since under the applicable administrative review
process the insured would have 180 days to file
under the mandatory first level of appeal, marked
from the date of the adverse decision. See e.g. (Doc.
288-10 at 98.) The plan language then obligates the
administrator to provide a review decision within
30 days from the date of receipt. (Id.) Under this
timetable, the limitations period would already

125a
preclude recovery for claims submitted by those
who filed claims early in this suits factual history.13
(Doc. 288-4 at 5-6.) Precluding these claims based
upon the plan’s limitations period from the date of
service would be improper where these claims had
been initially paid and were then retroactively
denied on October 4, 2010. See Ponstein , 2009 WL
1309737, at *4 (“Where the limitations period is
measured from the date [services] are rendered, the
Court must take care to ensure the limitations
period is reasonable and that the specter of the
substantial compression of a Plaintiff’s time to sue
does not materialize.”) (citation omitted); Baptist
Mem’l Hosp., 392 F. App’x at 295–96; Doe, 112 F.3d
at 876 (“[W]e have trouble seeing why a defendant
whose own activities made the plaintiff miss the
deadline should be allowed to litigate over whether
the plaintiff could have sued earlier”).
Notwithstanding the Court’s reluctance to apply
the 15 month limitations period to the 53 claims
listed in the demand letter, the Court is unwilling
to strike the 15 month limitation altogether.14 See
Examples of those claims which would be barred include
claims submitted by A.W., T.E., and C.H., who filed their
claims as early as 2007 and 2008. (Doc. 288-4 at 5.)
14 Although Plaintiff has cited Ponstein for the proposition
that a court may invalidate an unreasonable limitations
agreement, the Court in Ponstein appears to have invoked
equitable tolling principles rather than a wholesale
dismantling of the 15 month limitations period under the
plan. See Ponstein, 2009 WL 1309737, at *4 (Under the
undisputed facts of the instant case, the Plaintiff had no
reason or basis to file suit until, at the very least, October
2006 when his claim was reevaluated and benefits
withdrawn. Suit was filed within fifteen (15) months [the
applicable term outlined in the plan] of that date. This was
reasonable. Thus, the claim was timely filed.”)
13

126a
Baptist Mem’l Hosp, 392 F. App’x at 300–02
(Haynes, dissenting) (“To the extent [the
administrator], misled [claimant] with his
continued entreaties, his conduct at most merely
tolled the statute of limitations until his final
communication...rather than, as the majority
opinion suggests, invalidating the limitation in its
entirety.”) Instead, the Court finds that the
principles of equitable estoppel are appropriately
applied to these facts so as to toll the limitations
period until Encompass had effective notice of the
denial of the 53 claims and demand for repayment.
The doctrine of equitable estoppel, often called
“ERISA estoppel” in this context, operates to toll
the statute of limitations until BCBSLA
affirmatively and conclusively denied the claims.
See Mello v. Sara Lee Corp., 431 F.3d 440, 444–45
(5th Cir. 2005) (expressly adopting ERISA
estoppel); Piecznski v. Dril-Quip, Inc., 354 F. App’x
207, 211 (5th Cir. 2009) (applying ERISA estoppel
to determine whether a contractual period of
limitations
should
be
tolled
due
to
misrepresentations by a plan administrator). “To
establish an ERISA-estoppel claim, the plaintiff
must establish: (1) a material misrepresentation;
(2) reasonable and detrimental reliance upon the
representation;
and
(3)
extraordinary
circumstances.” Mello, 431 F.3d at 444–45; see also
Piecznski, 354 F. App’x at 211.
Assuming that the record contains sufficient
summary judgment evidence to satisfy each
element of ERISA estoppel, Encompass has still not
outlined—and no evidence in the record explains—
why it was reasonable for Encompass to wait over
sixteen months to pursue its claims against

127a
BCBSLA. As noted above, the demand letter to
Encompass was dated October 4, 2010. (Doc. 288-4
at 3-6.) Encompass named BCBSLA as a Defendant
in this action on February 24, 2012 via the Second
Amended Complaint. (Doc. 45.) Knowing that the
plans at issue contained a 15 month limitations
period in which to file suit, neither argument from
counsel nor evidence in the summary judgment
record explains why a 16 month time period was
necessary or why it was reasonable to wait so long
to file suit in the face of (1) an explicit demand
letter denying coverage, (2) express contractual
language limiting claims to 15 months, and in (3)
the absence of even a single administrative appeal
extending the matter. Baptist Mem’l Hosp, 392 F.
App’x at 300–02 (Haynes, dissenting) (claimant’s
claims should be time barred by applying principles
of ERISA estoppel to toll limitations agreement, not
by wholesale judicial invalidation of limitations
agreement; noting that claimant “did nothing to
advance its claim for more than ten months” during
time between decision from plan administrator and
filing suit). Accordingly, the Court finds that all
claims for reimbursement submitted before
November 24, 2010 are barred as a matter of law
pursuant to the plan-based 15 month limitation
period.
2. Exhaustion of Administrative Remedies
and Futility of Exhaustion under ERISA15
The parties do not dispute the fact that
Encompass did not exhaust its administrative
As the Court finds that all claims submitted before
November 24, 2010 are time-barred, the discussion infra
examines only those claims which were submitted after
November 24, 2010 and were therefore timely.
15

128a
remedies before filing the instant suit. According to
BCBSLA, Encompass’s failure to exhaust its
administrative remedies before seeking relief from
the federal court system is a fatal error which
precludes an award. (Doc. 321 at 19-21.)
Encompass claims that it should be excused from
the
ERISA’s
administrative
exhaustion
requirement because pursuing an administrative
appeal of its claims would be futile. (Doc. 328 at 34)
(“[T]here is no doubt that any appeal of the claims
BCBSLA denied would have been futile.”)
Under the plans, two levels of administrative
appeal were available to Encompass. Conspicuous
plan language indicates that the first level of
appeal is “[m]andatory prior to instituting legal
action.” (Doc. 288-10 at 98.) Following an “adverse
initial
benefit
determination,”
a
member,
authorized representative, or a provider acting on a
member’s behalf must submit an initial request
within 180 days. (Doc. 288-10 at 98.) Plan language
encourages members to “submit written comments,
documents, records, or other information” relating
to the claim at issue. (Id. at 97.) Moreover, the plan
separates the appeal process from the initial
decisionmaker by involving only “persons not
involved in previous decisions 16 regarding the
member’s claim” in the appeal process. (Id.) The
second level of administrative appeal was optional.
(Id.)
Generally, “claimants seeking benefits from an
ERISA plan must first exhaust available
Neither party has cited to evidence outlining the actual
persons who were responsible for the appeals, including
members of any relevant appeals committee as to
particularized claims in this case.
16

129a
administrative remedies under the plan before
bringing suit to recover benefits.” Bourgeois v.
Pension Plan for Emps. of Santa Fe Int'l Corp., 215
F.3d 475, 479 (5th Cir. 2000); Denton v. First Nat'l
Bank of Waco, 765 F.2d 1295, 1300 (5th Cir. 1985).
Absent unusual circumstances, a federal court
should not address an ERISA claim if the claimant
fails to raise the issue before the plan
administrator, because courts lack the ability to
review the administrator’s determination for an
abuse of discretion. Harris v. Trustmark Nat'l
Bank, 287 F. App’x 283, 288 (5th Cir. 2008) (citing
Pub. Citizen, Inc. v. United States Envtl. Prot.
Agency, 343 F.3d 449, 461 (5th Cir. 2003)) (“Absent
exceptional circumstances [in the agency law
context], a party cannot judicially challenge agency
action on grounds not presented to the agency at
the appropriate time during the administrative
proceeding”). However, the Fifth Circuit has
indicated that under certain circumstances,
plaintiffs in an ERISA case are not required to
exhaust their remedies if doing so would be futile.
Coop. Benefit Adm'rs, Inc. v. Ogden, 367 F.3d 323,
336 n.61 (5th Cir. 2004); Hall v. Nat’l Gypsum Co.,
105 F.3d 225, 232 (5th Cir. 1997). In other words, if
a claimant can produce evidence that shows
“certainty” of an adverse decision by the plan, the
individual does not need to pursue all required
appeals. See Bernstein v. Citigroup, Inc., No: 3:06–
CV–209–M, 2006 WL 2329385, at *2 (N.D. Tex.
July 5, 2006) (citing Commc'ns Workers of Am. v.
AT&T, 40 F.3d 426, 433 (D.C. Cir. 1994)). The Fifth
Circuit has emphasized that the focus of futility is
on the bias in the review process, not based on
company officials’ views. See Bourgeois, 40 F.3d at
479-80 (reasoning that a “company’s preclusive

130a
interpretation... does not establish that the actual
Committee would not have considered his claim.”);
see also Commc’ns Workers of Am., 40 F.3d at 433
(“[T]his Court will not assume that, merely because
members of a pension-plan review committee are
drawn from a company’s management, the review
committee will never reach an interpretation of the
plan different from that of the company.”).
Each party disputes whether further appeal was
futile. Encompass identifies three types of evidence
to show futility. First, it argues, an adverse
decision was certain because “several”17 witnesses
testified that there was nothing Encompass could
have submitted to change the decision to deny the
claims. (Doc. 328 at 34.) During her deposition,
Shannon Taylor testified that once BCBSLA
decided not to contract with Encompass and
BCBSLA declined to pay the submitted claims, “if a
doctor called [her] and tried to persuade [her] to
change [her mind]...the only factor that would have
affected [her] decision was if they met [BCBSLA’s]
credentialing criteria.” (Doc. 329 at 12.) Second,
Encompass claims that a “permanent block on all
claims submitted by Encompass” and an allegedly
defamatory letter sent “to all in-network OB/GYNs
instructing them to no longer use Encompass’s
services” prove futility. (Doc. 328 at 34.) And third,
Encompass identifies a claim that went through
administrative appeals process that was ultimately
denied, arguing it shows other appeals would be
useless. (Doc. 329-2 at 8.) BCBSLA counters that
Though Encompass claims several witnesses testified as to
this point, they have chosen to cite only the deposition
testimony of a single witness, Shannon Taylor. (Doc. 324 at 34
n. 65.)
17

131a
“we will never know how [an appeals committee]
might have decided” the claims because Encompass
chose not to appeal the vast majority of them. (Doc.
345 at 18.)
Shannon Taylor’s deposition is of limited
applicability to the futility of an administrative
appeal because the hypothetical question presented
during the deposition only referenced an informal
telephone conversation, not a formal appeal in
writing and a complaint under the plan language.
(Doc. 329 at 12.) No evidence in the record suggests
that Ms. Taylor was herself ever personally
involved in an appeal procedure or that she ever
would be in the future. See Shepherd v. Worldcom,
Inc., No. H–03–5292, 2005 WL 3844069, at * 6
(S.D. Tex. Sept. 9, 2005) (“Moreover, [deponent
executive] is only one member of the Subcommittee.
Absent evidence that other members of the
[administrative review] Subcommittee exhibited
some personal bias or harbored some bitterness or
ill will for Plaintiffs, any representations [deponent
executive] may have made or beliefs she may have
held regarding the viability of Plaintiffs'
contentions do not relieve Plaintiffs from following
the Plan's prescribed administrative procedures”)
(citation omitted). Also, Encompass has not cited to
any evidence permitting an inference of Ms.
Taylor’s influence over or control of the appeal
processes or a majority of the committee members.
See Denton, 765 F.2d at 1300–02 (rejecting
contention that it would have been futile to appeal
to the benefits review committee—the same
committee that initially denied his claim—where
there was no evidence that a majority of the
committee members were hostile or bitter toward

132a
plaintiff). Statements made by BCBSLA employees
who have not been shown to exercise responsibility
for adjudicating benefits claims during the appeals
process do not show that a claim submitted by
Encompass would be futile if properly presented it
for administrative review. See McGowin v.
Manpower Intern., Inc., 363 F.3d 556, 559–60 (5th
Cir. 2004) (“A failure to show hostility or bias on
the part of the administrative review committee is
fatal to a claim of futility.”) (emphasis added);
Shepherd, 2005 WL 3844069, at *6 (“In other
words, the legal department's letter [denying claim
for ERISA benefits] constitutes no evidence that
the Plan's Subcommittee was biased against or
hostile toward Plaintiffs or that it would not have
considered a claim regarding the proper
construction of the Plan”) (citation omitted).
Although relevant to the issue of futility, Taylor’s
deposition is, by itself, insufficient to establish
futility.
The permanent block and letter to physicians,
by themselves, would also be insufficient to show
futility. That is because they are evidence of the
company’s position, not the review committee’s
interpretations. See Bourgeois, 40 F.3d at 479-80
(“[A] company’s preclusive interpretation... does not
establish that the actual Committee would not
have considered his claim.”).
But Encompass provides other critical evidence
that seeking further review would have been futile:
the exhausted benefits claim. It went through
BCBSLA’s entire administrative process and was
ultimately rejected. See (Doc. 329-2 at 8.) The
reason it was rejected was the same reason every
other claim was initially rejected and that, to this

133a
day, BCBSLA maintains they should be rejected—
as duplicative. See (id.) That is evidence about a
review committee’s actions and disposition, not just
the company’s position.
Though only one claim was exhausted, it, taken
together with the other evidence, provides a factual
inference about the futility of seeking further
review of the claims. The Seventh Circuit Court of
Appeals held in an analogous context that when
claims are “very similar,” exhaustion is not
required for each claim; instead, exhaustion of just
one claim is sufficient to litigate the rest. See In re
Household International Tax Reduction Plan, 441
F.3d 500, 501-02 (2006). The situation that the
Seventh Circuit considered—eligibility of unnamed
members in a class-action suit to join though they
have not exhausted their claims, see id. at 501—
and the current one parallel each other. Encompass
has a representative claim that looks “very similar”
to its other claims. Id. While that claim cannot
vicariously exhaust every other claim, see id. at
502, it can provide an inference that reviewing
committees in the administrative process are
hostile to the claims. The inference is even stronger
when company officials loom in the background,
potentially setting company policies that are hostile
to the claims. Requiring exhaustion “would merely
produce an avalanche of duplicative proceedings...
and so is not required.” Id. at 502. Thus, the one
claim is sufficient to raise a genuine issue of
material fact about whether exhausting the other
claims was futile.
The Court therefore DENIES BCBSLA’s Motion
as to Encompass’s failure to exhaust its
administrative remedies.

134a
3.

Denial of Benefits

BCBSLA and Encompass each asserts it
deserves summary judgment on the merits of the
claims under § 502(a).
The parties do have some common ground. They
agree on the legal standards that govern review of
the claims. See (Doc. 288-1 at 22; 324 at 5.) When
an ERISA plan gives the plan administrator
discretionary authority to determine eligibility for
benefits or to construe the terms of the plan—as in
this case—the administrator’s decision is subject to
an abuse of discretion standard. See Koehler v.
Aetna, 683 F.3d 182, 187 (5th Cir. 2012). Where an
ambiguity exists, administrators are “empowered to
resolve it, exercising ‘interpretive discretion.”’ High
v. E-Systems Inc., 459 F.3d 573, 579 (5th Cir. 2006).
In reviewing an administrator’s interpretation, the
Court must first determine if the administrator
gave the plan its legally correct interpretation.
Wildbur v. ARCO Chemical Co., 974 F.2d 631, 636
(5th Cir. 1992). That is determined by “whether the
administrator has (1) given the plan a uniform
construction; (2) whether the interpretation is
consistent with a fair reading of the plan; and (3)
whether there are any unanticipated costs
resulting from different interpretations.” Id. at 638.
If the administrator did not give it the legally
correct interpretation, then the Court must
determine if the administrator’s interpretation was
an abuse of authority. Id. at 636. That question is
resolved by “(1) the internal consistency of the plan
under the administrator’s interpretation, (2) any
relevant regulations formulated by the appropriate
administrative agencies, and (3) the factual

135a
background of the determination and
inferences of lack of good faith.” Id. at 638.

any

The parties also agree that the procedures were
medically necessary and were procedures typically
covered by the plans’ terms. See (Doc. 288-1 at 2426) (Encompass stating that claims were medically
necessary and would typically be covered under the
plan); (Doc. 324 at 11-16) (BCBSLA only raising the
issue of duplicative billing in response). At the very
least, BCBSLA did not raise any contention against
that conclusion.18
From there, the parties diverge. The dispute is
about whether Encompass’s services are considered
duplicative under the plan. See (Doc. 288-1 at 2730; 321 at 19-20.) BCBSLA’s argument for why the
claims are duplicative goes like this: When a
physician performs in-office surgery, BCBSLA pays
the physician a global fee that is meant to cover
overhead costs; Encompass’s services are included
in that overhead cost; thus, the claims were
properly rejected because they are considered to be
duplicative of claims filed by physicians. See (Doc.
321 at 25.) The plan at issue, BCBSLA argues,
“implicitly requires that BCBSLA only [sic] pay
each submitted claim one time.” (Doc. 288-12 at
25.)
Encompass argues that such an interpretation
is legally incorrect and abusive. See (Doc. 328 at 40BCBSLA’s decision not to raise other issues was sound legal
strategy. When litigating over denial of benefits, the plan
administrator is limited to “the actual basis on which the
administrator denied the claim.” Robinson, 443 F.3d at 39596 n.4. Attempting to refute Encompass’s initial showing
would have been barred because BCBSLA, as both parties
agree, denied it as duplicative.
18

136a
49.) While Encompass agrees that duplicative
services are not covered, it does not believe its
services can be categorized as duplicative. See (Doc.
288-1 at 28) (“Of course, an ERISA plan is not
required to pay for services twice; however, implicit
in this argument is that the plan actually paid
someone for these services.”) Encompass’s
argument rests on two main points: First, when
physicians perform surgery in a hospital or ASC,
the physician receives a fee and the hospital or
ASC receive a separate fee; second, physicians are
not paid any more for performing surgery in their
offices then they are when performing surgery at a
hospital or ASC. See (Doc. 328 at 39.) The inference
is that calling the physician’s un-changed rate for
in-office surgery a “global fee” is a smokescreen to
prevent Encompass from recovering. See (Doc. 328
at 39.)
In short, the parties agree about what legal
standard governs, what the plan terms are, and
whether the procedures would typically be covered.
The only issue is whether the fees BCBSLA paid to
surgeons for in-office work reflect the services that
Encompass
provided.
BCBSLA
says
yes.
Encompass says no. The Court must, considering
all evidence and inferences in favor of the nonmoving party, determine whether BCBSLA’s
chosen interpretation is legally correct or
reasonable enough to not be abusive.
BCBSLA fails to make an initial showing that it
deserves summary judgment. It relies extensively
on a single affidavit by Thomas Groves, the
company’s Director of Provider Contracting and
Service. (Doc. 301-5.) This affidavit purports to set
out the company’s policy regarding “global fees”

137a
paid to physicians for in-office surgeries and
duplicative claims. See (Doc. 301-5 at 16-18.) It
asserts that physicians are reimbursed at different
rates depending on the “site of service,” and that
difference captures the amount that would have
been paid to a hospital or ASC. See (Doc. 301-5 at
17.) Apparently to bolster that claim, Groves states
that
BCBSLA models their site-of-service
differentials after Medicare’s. See (Doc. 301-5 at
18.)
Encompass attacks the affidavit on various
grounds. First, it believes that affidavit is
inconsistent with an earlier deposition when
Groves could not recall precise details about
compensation differences for in-office surgeries. See
(Doc. 329-1 at 22, 25-26) (answering that he could
not remember whether the cost of drugs or other
unspecified items were included in the global fee
and what the differences in physician fees were
based on the “site-of-service” code). Second,
Encompass asserts that Groves never checked the
plan to determine that information. See (Doc. Doc.
329-1 at 25) (“Q. Okay. Have you ever looked up the
site-of-service differential for BlueCross for any
code in relation to this lawsuit? A. No.”).
The Court does not accept Encompass argument
that the affidavit is entirely unreliable, but still
finds that it is insufficient to carry BCBSLA’s
evidentiary burden for summary judgment. Rather
than an interpretation of plan terms, the affidavit
is an ipse dixit of BCBSLA’s practices. Neither the
affidavit nor BCBSLA’s briefs direct the Court
toward any plan terms that permits BCBSLA to
interpret Encompass’s claims as duplicative. The
strongest evidence it provides is that BCBSLA

138a
currently models its site-of-service differentials
after Medicare’s. But BCBSLA does not direct the
Court to anything that indicates how long it has
done so or what Medicare’s actual practices are.
Without connecting the policy interpretation to
plan language, settled practices, or documents that
cogently explain the policy at the time of the
claims, the affidavit is too factually ambiguous to
be the basis for summary judgment.
Encompass makes out a stronger case, but is
also unable to receive summary judgment. To prove
that BCBSLA’s interpretation is legally incorrect,
Encompass relies on a few sources of evidence.
First, it resorts to the terms of the plan to show
that the procedures Encompass performed would be
covered. See (Doc. 288-10 at 33, 49-51, 58)
(Groupcare Plan details). Second, Encompass relies
on various depositions and emails to prove that
physicians were not
paid an increased amount. (Doc. 288-3 at 8)
(deposition of Shawn Cantrell); (Doc. 288-4 at 9, 14)
(emails between plan administrators). Third, it
cites to the terms of the plan to show that similar
work by hospitals or ASCs would be covered. See
(Doc. 288-10 at 49-51) (Groupcare Plan details).
BCBSLA rebuts Encompass’s evidence with the
Groves’ affidavit, an affidavit by Patricia Crochet,
and a deposition from Katherine Crosby. See (Doc.
324 at 12-13.) The facts from Groves’ affidavit have
been covered. Crochet’s affidavit includes a
spreadsheet of claims made by Encompass, showing
that physicians and Encompass used similar codes
for reimbursement. See (Doc. 301-5 at 6-15.)
Crosby’s deposition is mostly redundant of Groves’
affidavit, stating that “site-of-service” codes

139a
increased physician pay depending on the location
of the surgery and that BCBSLA modeled its “siteof-service” differentials after Medicare’s. See (Doc.
325 at 42-43.) All of this evidence contradicts
Encompass’s evidence that physicians did not
receive any more payment than usual.
These details about BCBSLA’s compensation
practices at the time Encompass provided service
are material to the Court’s analysis under Wildbur.
Two of Wildbur’s critical factors are the uniformity
of the plan’s construction and the consistency of the
interpretation with other parts of the plan. See
Wildbur, 974 F.2d at 638. If Encompass’s claims
about BCBSLA’s practices are true, it makes the
policy appear to be based on BCBSLA’s bottom line
instead of plan terms. One would expect that
putting compensation for Encompass’s services into
a global fee would be reflected in physician’s
payments; without the increased fee, the plan
interpretation begins to appear disjointed, rather
than uniform. And the differing treatment between
Encompass and other similar providers like
hospitals and ASCs seems to be an inconsistent
application of the plan terms. The existence of an
increased fee for physicians is a material factual
issue that
influences whether the Court considers the
interpretation legally correct. And because the
summary judgment evidence contradicts each other
about the issue, the Court cannot grant summary
judgment for either party.
While the issue of physicians receiving
increased pay is not entirely dispositive of the case,
it significantly influences the Wildbur analysis.
Neither party has put forth so much evidence that

140a
the Court can determine whether BCBSLA’s
interpretation is legally correct. BCBSLA’s actual
reimbursement practices and the history of its
“global fee” policy are factual issues that must be
resolved at trial for the Court to appropriately
apply Wildbur.
The Court therefore DENIES BCBSLA’s Motion
as to the merits of the § 502(a) claims and DENIES
Encompass’s Motion as to the merits of the § 502(a)
claims.
H. Breach of Contract
In a previous Order, the Court found that any
state law claims which relate to ERISA governed
plans are preempted by ERISA. (Doc. 200 at 12.) In
the motions now before the Court, the parties
dispute claims for breach of contract concerning
approximately 72 claims which were submitted
under a plan that is not governed under the ERISA
framework. (Doc. 288-11 at 97 & Doc. 301-3 at 2450 & Doc. 301-4 at 1-15.) According to BCBSLA,
summary judgment should be granted as to any
breach of contract claim for these non-ERISA plans
“for the reasons set forth above” including the
presence of anti-assignment clauses in the plans.
(Doc. 321 at 28.) Encompass affirmatively argues
that it is entitled to summary judgment as to its
breach of contract claims because the services
rendered are a “Covered Service” and that BCBSLA
failed to pay for those covered services rendered.
(Doc. 288-1 at 45-46.)
The plans at issue contain a choice of law
provision which identifies Louisiana law as
governing. See e.g. (Doc. 288-11 at 62) (noting HMO
ASO Benefit Plan for City of Baton Rouge Parish of

141a
East Baton Rouge as non-ERISA plan ) & (Doc.
290-20 at 62) (“This benefit Plan will be governed
and construed in accordance with the laws and
regulations of the state of Louisiana...”). Under
Louisiana law, the essential elements of a breach of
contract claim are: (1) the existence of a valid
contract; (2) a party’s breach thereof; and, (3)
damages resulting from the breach. See Favrot v.
Favrot, 68 So.3d 1099, 1109 (La. Ct. App. 2011).
According to the terms of the plans, “Covered
Services” under the plans included general
anesthesia services “when requested by the
operating physician.” See e.g. (Doc. 290-20 at 27.)
Plan language concerning outpatient medical
services also includes “home, office, and other
outpatient visits for examination, diagnosis, and
treatment of an illness or injury.” (Id.) Neither
party has cited to plan language expressly
controlling whether payment of a “global fee” to a
physician is an acceptable method of payment for
the kinds of services which Encompass provides.
Under Louisiana law, when the words of a contract
are clear and explicit and lead to no absurd
consequences, no further interpretation may be
made in search of the intent of the parties. La. Civ.
Code Ann. art. 2046 (1984). Parol or extrinsic
evidence is generally inadmissible to vary the
terms of a written contract unless the written
expression of the common intention of the parties is
ambiguous. La. Civ. Code Ann. art. 1848 (1984);
Ortego v. State, Through the Dep't of Trans. &
Develop., 689 So.2d 1358, 1363–64 (La. Ct. App.
1997). A contract is considered ambiguous on the
issue of intent when it lacks a provision bearing on
that issue, the terms of a written contract are

142a
susceptible to more than one interpretation, there
is uncertainty or ambiguity as to its provisions, or
the intent of the parties cannot be ascertained from
the language employed. La. Civ. Code Ann. art.
1848 (1984).
The Court finds the plans’ contractual language
ambiguous inasmuch as it does not contain a
provision outlining whether payment under a
global fee is appropriate. Arguing that it has fully
performed as required under the plans, BCBSLA
claims that it remitted payment for the services
rendered directly to the treating physician as part
of its “global fee,” which it claims is a larger than
normal payment intended to cover all overhead
expenses, including those provided by Encompass
for in-office surgery assistance such as equipment
and nursing staff. (Doc. 324 at 16.) In support of
this proposition, BCBSLA cites to the affidavit of
Thomas Groves, who stated:
When a physician performs a
surgical procedure in his/her office,
the physician receives a global fee
from BCBSLA. The site of service
in office fee is greater than the site
of service outpatient fee that a
physician receives to compensate
the physician for his/her additional
office expense associated with
performing the procedure in the
physician’s office. (Doc. 301-5 at
17.)
Katherine Crosby also testified that “for certain
things we pay extra if it’s done in a physician’s
office instead of a hospital setting.” (Doc. 325 at 41.)
Other evidence in the record suggests that

143a
BCBSLA denied all claims submitted by
Encompass because the bills submitted for service
were duplicative, sending notice which stated that
“Reimbursement is considered a portion of another
service which has been allowed. Therefore, no
payment can be made for this service.” See e.g.
(Doc. 289-6 at 23.) Moreover, Thomas Groves’
affidavit notes that “Payment to a physician by
BCBSLA for the global fee is inclusive of the
physician’s overhead. All overhead costs associated
with an in-office procedure are embedded in the
global fee.” (Doc. 301-5 at 17.) Other evidence
suggests that the global fee included services
similar to those provided by Encompass. (Doc. 3291 at 22) (equipment, staff are “bundled into the
global fee”). Finally, evidence in the record
demonstrates that the claims which Encompass
submitted to BCBSLA were identical to the claim
submitted by the physician as to the date of service
and the billing code. See (Doc. 301-5 at 6-15.)
In turn, Encompass has submitted evidence that
BCBSLA’s purported global fee was not any higher
for in-office surgeries than for other procedures.
(Doc. 288-3 at 8; Doc. 288-4 at 9.) According to
evidence submitted by Encompass, BCBSLA did
not pay any facility fees as an additional amount to
cover the costs associated with the kinds of services
performed by Encompass. (Doc. 288-4 at 14.)
Moreover, evidence in the record suggests that the
billing entries contained a “Technical Component
Modifier,” 19 a separate number which “consists of
Encompass has submitted other literature which defines a
“Technical component” as “[a] portion of a health care service
that identifies the provision of the equipment, supplies,
technical personnel, and costs attendant to the performance of
19

144a
those services beyond the professional services of
the physician with regard to surgery.” (Doc. 288-3
at 18, 40.)
Surveying the summary judgment record, the
Court finds that there is a genuine issue of
material fact as to whether Encompass’s billing
entries were actually duplicative and whether
BCBSLA breached the contracts by paying the
physician directly instead of paying Encompass.
First, the parties have presented contested
evidence as to the meaning of a technical
component modifier under these circumstances and
whether a technical component modifier is properly
utilized to cover services provided by Encompass.
Also, whether or not BCBSLA actually had a
“global fee” policy at the time the claims were
submitted remains a disputed questions of fact
which can only be answered by a jury, which will
necessarily need to determine if BCBSLA actually
had a “global fee” and whether the billing entries
submitted by Encompass—containing identical
billing codes and dates of service—were actually
duplicative of other claims. The present record is
thus inappropriate for a resolution of the breach of
contract claims for the non-ERISA plans.
Accordingly, the Court DENIES BCBSLA’s motion
for summary judgment as to claims for breach of
contract associated with non-ERISA governed
plans.20
the procedure other than the professional services.” (Doc. 28813 at 17.)
20 In its Motion for Summary Judgment, BCBSTN claims that
all reimbursement claims sought against BCBSTN are
brought pursuant to ERISA plans and are therefore
preempted. (Doc. 297-1 at 6.) BCBSTN has cited admissible

145a
I. Quantum Meruit
Encompass’s Fifth Amended Complaint also
seeks relief by means of a claim for Quantum
Meruit. (Doc. 255 at 20.) Under Louisiana law,
unjust enrichment actions, or quantum meruit
claims, are subsidiary remedies and are not
available if the law provides another remedy. La.
Civ. Code Ann. art. 2298 (1984) . “Quantum meruit
awards are not dependent on a contract, but,
instead, such awards are derived in the absence of
a contract.” Love v. E.L. Habetz Builders, Inc., 011625, 821 So.2d 756, 767 (La. Ct. App. 2002).
Where a contract exists and covers the materials or
services provided, a claim for quantum meruit must
fail. Dumas and Assocs., Inc. v. Lewis Enters., Inc.,
704 So.2d 433, 437 (La Ct. App. 1997). The doctrine
operates in the absence of a specific contract to
imply a promise on behalf of the person to whom
the benefit is conferred to pay a reasonable sum for
the services or materials furnished. Brankline v.
Capuano, 656 So.2d 1, 5 (La. Ct. App. 1995).
Here, neither party disputes that a valid
contract for the health care services exists as
summary judgment evidence in support of this assertion. See
(Id. at 7-10.) Encompass did not address this claim in its
Response or provide any evidence to rebut the evidence as to
whether such plans exist, whether the ERISA safe harbor
exemption applies, or whether the plan was established or
maintained by an employer intending to benefit employees.
The Court therefore finds that Encompass made no opposition
to this argument and it is unopposed. See e.g. Eversley v.
MBank Dall., 843 F.2d 172, 174 (5th Cir. 1988) (upholding
district court decision to accept as undisputed facts listed in
motion for summary judgment). Accordingly, the Court
GRANTS summary judgment in favor of BCBSTN on all
breach of contract claims and claims for quantum meruit, as
such claims are preempted by ERISA.

146a
evidenced by the plan language. Although this
contract is between BCBSLA and its insureds,
Encompass stands in the shoes of the insureds via
an assignment of benefits such that a valid contract
exists and covers the subject matter of the disputed
claim payments. Neither party has argued that the
contracts are either void or entirely unenforceable.
With an effective contract in place, claims for
quantum meruit must be dismissed as a matter of
law. Accordingly, the Court GRANTS BCBSLA’s
Motion as to Encompass’s cause of action under
quantum meruit.
J. Defamation, Business Disparagement,
and Interference with a Business
Relationship
Seeking summary judgment as to its final claim,
Encompass argues that its claim for defamation
should be granted as a matter of law. (Doc. 288-1 at
48-51.) BCBSLA’s Response and a separate Motion
for Summary Judgment asks the Court to grant
summary judgment Encompass’s three remaining
tort claims—defamation, business disparagement,
and interference with a business relationship—as
time-barred under Louisiana law. (Doc. 324 at 1618; Doc. 378-1 .)
Under Louisiana law, tort actions are subject to
a one year limitations period, which begins to run
from the day injury or damage is sustained. La.
Civ. Code Ann. art. 3492 (1983). 21 As an initial
matter, the Court must first resolve whether
The Louisiana Civil Code uses the term “delictual actions”
to reference torts, and the term “liberative prescription” for
statutes of limitation. See Delict, Black’s Law Dictionary 492
(9th ed. 2009); Prescription, id. 1302.
21

147a
Louisiana law even applies. BCBSLA claims that it
does. (Doc. 324 at 17.) Although Encompass does
not expressly concede that Louisiana law applies,
its briefing on the defamation issue cites
exclusively to Louisiana case law. (Doc. 288-1 at 4851; Doc. 344 at 18-22.) The Court’s choice of law
analysis begins by applying the choice of law
principles of the forum state. Cf Levine v. CMP
Publ'ns, Inc., 738 F.2d 660, 667 (5th Cir. 1984).
“Texas
has
adopted
the
most-significantrelationship test for determining which state’s law
applies to a tort action.” Id. (citing Gutierrez v.
Collins, 583 S.W.2d 312 (Tex. 1979)). Under the
applicable test, courts should consider “the place
where the injury occurred, the place where the
conduct causing the injury occurred, the domicile,
residence, nationality, place of incorporation and
place of business of the parties, and the place
where the relationship, if any, between the parties
is centered.” Restatement (Second) of Conflict of
Laws § 145(2) (1971).
Here, there is no dispute that the allegedly
defamatory letter was mailed to medical providers
in Louisiana. (Doc. 288-4 at 1.) Moreover,
Encompass has claimed that this letter damaged
its business in the state of Louisiana. (Doc. 288-1 at
51; Doc. 288-3 at 72.) The letter itself was sent by
Dawn Cantrell, Vice President of Provider Network
Administration and lists the return address for a
post office box in Baton Rouge, Louisiana,
demonstrating the high probability that the letter
originated in Louisiana. (Doc. 288-4 at 1.) The only
factor which does not suggest that Louisiana law
might
not
apply
is
Encompass’s
Texas
headquarters. This is insufficient, as the vast

148a
majority of factors identify Louisiana as the state
with the most significant relationship to the alleged
tort. See Highland Crusader Offshore Partners, L.P.
v. Motient Corp., 281 S.W.3d 237, 250 (Tex. Ct.
App. 2009) (if any two of the contacts, apart from
the defendant's domicile, state of incorporation, or
place of business, are located wholly in a single
state, this will usually be the state of the applicable
law with respect to most issues).
According to BCBSLA, the one-year limitations
period should apply to preclude the remaining tort
claims because, based on the date it received the
allegedly defamatory letter, “Encompass had until
August 19, 2011, at the latest to file suit on any
tort claims attendant to that letter.” See (Doc. 378-1
at 11); see also (Doc. 324 at 17.) Arguing that the
tort claims are not time-barred, Encompass claims
that the limitations period should be tolled under
the doctrine of contra non valentem. (Doc. 344 at
18; Doc. 384-1 at 14.) Specifically, Encompass
claims that it did not learn that the contents of the
letter were false—that the cited policies in the
letter did not even exist—until depositions held in
February and March of 2013. (Doc. 344 at 18, 19.)22
Encompass also argues that BCBSLA “does not address
Encompass’s claim for business disparagement, and thus
summary judgment on that claim is inappropriate.” (Doc. 3841 at 26.) But BCBSLA did request summary judgment on
each of the tort claims. The title of its motion is “Motion for
Summary Judgment on Plaintiff’s Three Tort Claims,”
referring to the three tort claims at issue. (Doc. 378 at 1.)
BCBSLA references the tort claims collectively when
addressing the statute of limitations argument. See (Doc. 3781 at 10) (“Louisiana’s one year statute of limitations bar’s [sic]
Encompass’ tort claims.”); (id. at 11) (“Encompass had until
August 19, 2011, at the latest, to file suit on any tort claims
22

149a
Under the doctrine of “contra non valentem,” a
prescription period “does not run when the cause of
action is not known or reasonably knowable by
plaintiff, even though his ignorance was not
induced by defendant.” Eldredge v. Martin Marietta
Corp., 207 F.3d 737, 743 (5th Cir. 2000) (citations
and quotations omitted). However, contra non
valentem does not suspend prescription when a
litigant is perfectly able to bring its claim, but fails
or refuses to do so. Daigle v. McCarthy, 444 F.
Supp. 2d 705, 710 (W.D. La. 2006) (citations
omitted). Louisiana courts strictly construe the
doctrine of contra non valentem, and only extend its
benefits up to time that plaintiff has actual or
constructive knowledge of the tortious act, which is
defined as the time at which plaintiff has
information sufficient to excite attention and
prompt further inquiry. Eldredge, 207 F.3d 737 at
743.
In support of tolling the limitations period,
Encompass cites the deposition testimony of Dawn
Cantrell, the letter’s author and an executive of
BCBSLA. (Id. at 18.) The relevant deposition
testimony indicates that Cantrell had difficulty
recalling the specifics of the policies outlined in the
purportedly defamatory letter. (Doc. 288-3 at 13.)
Encompass has also cited the deposition testimony
of Alan Lofton, who did not recall whether the
policies in the letter were actual BCBSLA policies
at the time the letter was sent. (Id. at 39.) Lofton
attendant to that letter.”); (id. at 13) (“[C]ontra non valentum
is unavailable to Encompass, and Encompass’ tort claims
must be dismissed.”). As Encompass requested, the Court
incorporates Encompass’s arguments regarding contra non
valentum and the statute of limitations to all of the tort
claims at issue. See (Doc. 384-1 at 26).

150a
also stated that he was unable to find evidence
during his investigation which showed that
Encompass was aware of such a policy. (Id.)
Notwithstanding the arguments of counsel, the
evidence presented does not justify tolling the oneyear limitations period for the remaining tort
actions. Dominion Exploration & Prod., Inc. v.
Waters, 972 So.2d 350 (La. Ct. App. 2007)
(sufficient information existed to bring lawsuit had
the company properly availed itself of the discovery
process). Once Encompass learned of the letter and
its contents, it enjoyed every reasonable
opportunity to investigate the statements in the
letter and file suit within one year to conduct
further discovery on the matter, and no evidence in
the record suggests otherwise. See F.D.I.C. v.
Barton, 96 F.3d 128, 134–45 (5th Cir. 1996)
(nothing prevented shareholders from bringing
derivative lawsuit before FDIC became receiver,
and FDIC did not allege fraud, deceit,
misrepresentation or concealment that led to
savings and loan’s failure to file claim within
statutory period.); Bell v. Kreider, 858 So.2d 58, 62–
63 (La. Ct. App. 2003) (nothing in the record
suggested that motorists were prevented from
investigating whether commission officer violated
proper policies and procedures); Eastin v. Entergy
Corp., 865 So.2d 49, 56–57 (La. Ct. App. 2004)
(where employees’ delay in filing suit could only be
attributed to their own inaction; employees were in
no way prohibited from filing suit or investigating
the circumstances of their terminations to
determine if they had a cause of action, yet failed to
do so). Accordingly, the Court GRANTS summary
judgment in favor of BCBSLA as to Encompass’s

151a
claim for defamation, business disparagement, and
interference with a business relationship.
Because the Court grants summary judgment
on the defamation claim, the Court can also dispose
of another motion. BCBSLA filed a motion to
exclude the expert testimony of Robert Daniel
Gates. (Doc. 379.) Gates was to testify regarding
damages suffered as a result of the allegedly
defamatory letter. See (Doc. 383 at 3-4.) However,
because the Court has dismissed the three tort
actions, that testimony is no longer relevant. The
Court, therefore, DENIES the motion as MOOT.
K. Recoupment § 502(a)(3) Counterclaims;
Money Had and Received
Under section 502(a)(3) of ERISA, a plan
administrator such as BCBSLA may bring a civil
action “(A) to enjoin any act or practice which
violates ... the terms of the plan, or (B) to obtain
other appropriate equitable relief....” Sereboff v.
Mid Atl. Med. Servs., Inc., 547 U.S. 356, 361 (2006).
Therefore, the administrator may bring suit to
obtain restitution from the beneficiary based solely
on “equitable,” not legal relief. Sereboff, 547 U.S. at
363. An action is equitable if the funds sought are
“specifically identifiable” and are “within the
possession and control of the beneficiaries.”
Sereboff, 547 U.S. at 362–63; see also AT&T, Inc. v.
Flores, 322 F. App’x 391, 393 (5th Cir. 2009) (per
curiam). According to the Fifth Circuit's threepronged test, an action is equitable, and therefore
proper under section 502(a)(3) of ERISA, if the Plan
seeks to recover funds: (1) that are specifically
identifiable; (2) that belong in good conscience to
the Plan; and (3) that are within the possession and
control of the defendant beneficiary. See Flores, 322

152a
F. App’x at 393 (citing Bombardier Aerospace Emp.
Welfare Benefits Plan v. Ferrer, Poirot &
Wansbrough, 354 F.3d 348, 356 (5th Cir. 2003)).
According to Encompass, BCBSLA is not
entitled to summary judgment on its ERISA §
502(a) recoupment claim for two reasons. First,
Encompass claims that BCBSLA failed to ever
identify any plan provision that it is seeking to
enforce against Encompass. (Doc. 328 at 57.)
Second, Encompass failed to “establish any of the
elements necessary to prevail under Section
502(a)(3) as a matter of law. (Id.)
Encompass’s first proffered argument on the
subject is unpersuasive. In support of its argument
that BCBSLA must identify specific plan
provisions, Encompass cites exclusively to US
Airways, Inc. v. McCutchen, 133 Sct. 1537 (2013).
However, the holding of McCutchen stands only for
the proposition that certain equitable defenses may
not override the clear terms of the plan.
McCutchen, 133 S.Ct at 1542–43 (“We here
consider whether in [a 502(a)(3) suit] a plan
participant...may raise certain equitable defenses
deriving from principles of unjust enrichment...We
hold that neither of those equitable rules can
override the clear terms of a plan”) see also id. at
1544 (“We granted certiorari...to resolve a circuit
split on whether equitable defenses can so override
an ERISA plan’s reimbursement provision”; & “The
question in this case concerns the role that
equitable defenses alleging unjust enrichment can
play in such a suit”). No such equitable defenses
have been raised in this case, and the holding of
McCutchen appears of limited value under the facts
of this case. Having fully reviewed all case law

153a
submitted by all parties and pursuant to its own
independent research, the Court finds no authority
for the proposition that a Section 502(a)(3) claim
fails as a matter of law for a fiduciary’s failure to
cite to plan provisions under which it seeks to
recover benefits paid. Instead, the Court relies on
the Section 502(a)(3) legal standard articulated in
the preceding paragraph as controlling upon the
ultimate success of failure of BCBSLA’s
counterclaim for recoupment. Moreover, plan
language in the summary judgment record entitles
BCBSLA to recovery “[w]henever any payment for
Covered Services has been made...in an amount
that exceeds the maximum Benefits available for
such services...or whenever payment has been
made in error by Us for non-covered services,”
concluding that “We will have the right to recover
such payment from the Member or, if applicable,
the Provider.” (Doc. 290-17 at 69.) Encompass’s
arguments as to any lack of plan-based language
are therefore unsuccessful.
Even assuming that BCBSLA can show that the
funds in question are specifically identifiable,
summary judgment in favor of the 502(a)(3) claim
or against the 502(a)(3) claim would be improper at
this stage of the litigation because there is a
genuine issue of material fact concerning whether
or not the funds already paid by BCBSLA belong in
good conscience to the plan. As noted in Section
II(G), both BCBSLA and Encompass hotly contest
both the existence of and the propriety of
BCBSLA’s “global fee,” whereby BCBSLA claims to
have paid the physicians more for services
completed in-office as opposed to a hospital or
ambulatory surgical center. Moreover, the parties

154a
have offered competing evidence as to the
significance of billing entries submitted by
Encompass—namely whether or not the use of a
technical component was sufficiently different so as
to constitute a separate billing entry from entries
submitted by the physician. Accordingly, resolution
of the question of whether the funds at issue belong
in good conscience to the plan is inappropriate at
this time.
Finally, BCBSLA’s counterclaim for money had
and money received as to non-ERISA plans should
be dismissed as a matter of law, as valid contracts
govern the subject matter of this suit and the
repayment sought. Summary judgment in favor of
either party on these claims is therefore
inappropriate, and the Court DENIES the parties’
motions concerning BCBSLA’s ERISA Section
503(a)(3) claim. Furthermore, BCBSLA’s claim for
money had and money received is dismissed with
prejudice.
III.

Conclusion

For the foregoing reasons, the Court DENIES
Plaintiff Encompass Office Solutions, Inc.’s Motion
for Summary Judgment. The Court also DENIES
Plaintiff Encompass Office Solutions, Inc.’s Motion
to Strike Evidence in Defendant Bluecross
Blueshield of Louisiana’s Motion for Summary
Judgment. The Court also GRANTS IN PART and
DENIES IN PART Defendant Louisiana Health
Service & Indemnity Co. d/b/a Bluecross and
Blueshield of Louisiana’s Motion for Summary
Judgment. The Court also GRANTS IN PART and
DENIES IN PART Defendant Bluecross Blueshield
of Tennessee, Inc.’s Motion for Summary
Judgment. The Court also GRANTS IN PART and

155a
DENIES IN PART Defendant Bluecross and
Blueshield of Louisiana’s Motion In Limine. The
Court also DENIES as MOOT Defendant Bluecross
and Blueshield of Louisiana’s Motion to Exclude,
and Objection to, Testimony of Robert Daniel Gates
as an Expert.
IT IS SO ORDERED.
Signed this 17th day of September, 2013.
/s/ Jorge A. Solis
JORGE A. SOLIS
UNITED STATES DISTRICT JUDGE

